<html>
<title> - PROPOSED FISCAL YEAR 2007 BUDGET REQUEST FOR THE DEPARTMENT OF THE INTERIOR</title>
<body><pre>[Senate Hearing 109-436]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-436


 
  PROPOSED FISCAL YEAR 2007 BUDGET REQUEST FOR THE DEPARTMENT OF THE 
                                INTERIOR

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   TO

                 REVIEW THE PROPOSED FISCAL YEAR 2007 
                     DEPARTMENT OF INTERIOR BUDGET

                               __________

                             MARCH 2, 2006


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
28-225                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               KEN SALAZAR, Colorado
GORDON SMITH, Oregon                 ROBERT MENENDEZ, New Jersey
JIM BUNNING, Kentucky

                     Bruce M. Evans, Staff Director
                   Judith K. Pensabene, Chief Counsel
                  Bob Simon, Democratic Staff Director
                  Sam Fowler, Democratic Chief Counsel
              Elizabeth Abrams, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     2
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     7
Craig, Hon. Larry E., U.S. Senator from Idaho....................     2
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     1
Landrieu, Hon. Mary L., U.S. Senator from Louisiana..............     3
Menendez, Hon. Robert, U.S. Senator from New Jersey..............     4
Norton, Hon. Gale A., Secretary, Department of the Interior......     9
Salazar, Hon. Ken, U.S. Senator from Colorado....................     5
Talent, Hon. James M., U.S. Senator from Missouri................     6

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    47

                              Appendix II

Additional material submitted for the record.....................   107


                   PROPOSED FISCAL YEAR 2007 BUDGET 
               REQUEST FOR THE DEPARTMENT OF THE INTERIOR

                              ----------                              


                        THURSDAY, MARCH 2, 2006

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington D.C.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Pete V. 
Domenici, chairman, presiding.

          OPENING STATEMENT OF HON. PETE V. DOMENICI, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. Good morning. Madam Secretary, good to have 
you here, Senator Bingaman. There's many hearings going on on 
the Hill, so we have--I'm sure Senator Bingaman's supposed to 
be at two or three other ones.
    Once again, we're going to hear from the Secretary 
regarding the budget for 2007. I'm pleased to see again that 
the administration supports legislation to open the Arctic 
National Wildlife Refuge. It seems like this goes on forever, 
but I think we'll have to stay with it for a while longer. So, 
the opening of ANWR along with measures like the bill that 
Senator Bingaman and I introduced to open parts of the OCS and 
the administration's activity to move in a significant way with 
reference to some of the OCS off of Florida seemed to me to be 
crucial in lessening our dependence upon foreign sources of 
energy and serving as a bridge to new technologies, to new 
fuels for our country and its economy, especially in the area 
of transportation fuels.
    I also want to note that while I recognize many areas in 
your request to implement provisions of last year's Energy 
Policy Act that we fought so hard to get enacted, I'm somewhat 
disappointed that you've requested to repeal a few of the 
provisions that related to oil and gas and geothermal 
permitting and that the permitting and development that we felt 
were necessary to give you the resources to expedite to these 
programs. I'm sure that you are aware that the repeal of these 
provisions probably won't take place up here because that's not 
what we want to do. And we think you need the resources, but 
what we want more than anything is that you move ahead as 
quickly as possible in those areas.
    As you know, one area we have not been discussing much 
heretofore, but will become more and more a focus of attention 
has to do with the gigantic oil reserves from shale. I know 
that in the bill that we passed, the Energy Policy Act, there's 
a number of provisions that move ahead, permit you to move 
ahead and permit those who are interested in developing that 
shale to move ahead in a more orderly manner consistent with 
today's times. And I'm pleased to know that you've requested 
funding for that program. And I suggest that there ought to be 
more funding, but I understand that these are difficult times. 
We will be moving ahead and seeing--informing ourselves more 
about that resource. I have been briefed by you and hope that 
we can have some more public discussions about the value of 
those resources. They clearly are something that--because of 
the price of crude oil, that resource is beginning to focus as 
something truly potential rather than just a maybe situation. I 
am going to move on now to Senator Bingaman, and then if any 
other Senators come, they will have their opportunity.
    Senator Bingaman.
    [The prepared statements of Senators Akaka, Craig, 
Landrieu, Menendez, Salazar and Talent follow:]

  Prepared Statement of Hon. Daniel K. Akaka, U.S. Senator From Hawaii

    Thank you, Mr. Chairman, for calling this hearing on the Department 
of Interior's fiscal year 2007 budget proposal. I would also like to 
take this opportunity to thank the men and women of the Department of 
Interior for their hard work and dedication. I see several bright spots 
in this year's budget. In particular, I am pleased to see funding for 
further research on Gas Hydrates. I, along with my colleague Senator 
Murkowski, have been strong advocates for the development of Gas 
Hydrate technologies as a solution to our long-term energy needs. I am 
also happy to see funds for the development of air tour management 
plans in partnership with the Federal Aviation Administration. At the 
same time, I am troubled by a number of funding reductions reflected in 
the Department's budget. I know that there are hard choices to be made, 
but I am concerned that the President's spending priorities for the war 
in Iraq, and tax cuts are forcing federal agencies to mortgage the 
future of parks, wildlife, public lands, and partnership programs with 
States. I am especially concerned with the reduction in overall funding 
for the research, detection and control of invasive species. The spread 
of invasive species is of great concern to the state of Hawaii and I 
would urge you not to step back from out commitment to protecting our 
environment from invasive species.

                                 ______
                                 
   Prepared Statement of Hon. Larry E. Craig, U.S. Senator From Idaho

    We are clearly in a budget climate where all government must 
operate efficiently and collaboratively in order to accomplish its core 
missions. I appreciate the President working with the committee's 
needs, in turn keeping federal spending down. The President's budget 
noticeably reflects his commitment to leaner budgets, simultaneously 
freeing the country from energy dependence.
    I am very pleased the President has included funding for energy 
development in the Arctic National Wildlife Refuge (ANWR). This is an 
endeavor I have long supported as a nation breaking free from energy 
dependence. I appreciate not only support for ANWR, but also support 
for additional domestic oil and gas programs across the West.
    As I mentioned before, collaboration is key to efficient 
government, including actively managing our public lands. I was 
disappointed to see range improvement dollars left out of the budget 
yet again. These dollars are vital as land managers and ranchers join 
forces to improve range resources.
    However, the area of the budget I am most disappointed in is PILT 
funding. Payment in Lieu of Taxes (PILT) continues to be important to 
America's rural counties, as they assist the federal government with 
many public land needs from road maintenance to public land law 
enforcement. Furthermore, PILT takes the heavy tax burden off of 
residents who live in counties that may be 60%-95% federally owned. I 
will continue to work with the committee and the administration toward 
adequate funding for PILT.
    I want to thank the Secretary for coming to our State to sign a 
very important memorandum of agreement between the State of Idaho and 
the United States on wolf management. Idaho has worked very hard for 
many years to properly manage all of its wildlife. However, our hands 
have become tied because of the Endangered Species Act and the federal 
government's inability to de-list a species that quite frankly has done 
better than anyone expected. My question is: how does a State like 
Idaho move forward with de-listing the wolf after a significant amount 
of time, money and effort has been spent on making our wolf populations 
healthy and vibrant? Also, how does the federal government expect the 
State of Idaho to properly manage its wildlife if it cannot manage one 
of its largest predators?
    I appreciate the Secretary's time today and look forward to her 
testimony.
                                 ______
                                 
    Prepared Statement of Hon. Mary L. Landrieu, U.S. Senator From 
                               Louisiana

    I just wanted to take a few moments this morning to highlight some 
significant concerns I have with the Interior Budget that has been 
submitted for FY 2007. In addition, I am hoping the Secretary can bring 
me up to speed on what the Department has done and is doing in the 
aftermath of the Hurricanes last summer to address areas under its 
jurisdiction, specifically with regard to some of the refuges in 
Southwest Louisiana and parks in and around the New Orleans region.
    However, I was very pleased to find the Administration agreed to 
the request made by me and our state's Congressional delegation to 
fully fund the National Center for Preservation Technology and Training 
(NCPTT) after a two year hiatus.
    This National Park Service (NPS) office located on the campus of 
Northwestern State University in Natchitoches, Louisiana is the only 
preservation research and technology center of the NPS, and the only 
one in the federal government. Now more than ever the work of the 
Center will be vitally important to the whole nation, especially to the 
rebuilding of communities which include thousands of historic 
structures badly damaged by the recent Gulf Coast hurricanes. While the 
funding included in the Administration's budget is equivalent to what 
Congress appropriated last year, I am hopeful we can work together to 
increase this funding so the Center can provide the cutting edge 
research, technology and training opportunities to the NPS and its 
partners in these most challenging times.
    Unfortunately, much else of what I found was disappointing.

                            STATE SIDE LWCF

    For the second year in a row, the Administration is proposing to 
eliminate the state side of the Land and Water Conservation Fund 
(LWCF). On the one hand, the program is recommended for termination 
because, according to OMB, it does not adequately measure performance 
or demonstrate results. They make this claim at exactly the same time 
the Park Service, another branch of the Administration, publishes and 
distributes a brochure that says ``the real impact of Land and Water 
Conservation Fund projects . . . is more than acres, facilities and 
dollars leveraged . . .  [it] is the role of our projects in 
strengthening community public health. Park and recreation directors 
all over the country tell us that the physical activity these parks 
provide are essential for the health of the community.''
    Disingenuous? Perhaps. In any case, one has to wonder why the 
Administration appears to be making arguments for and against the 
program simultaneously.
    In 2005, 88% of the states reported an unmet need exceeding 50%. 
So, how does the Administration respond to this challenge? By zeroing 
out the program altogether.
    There are two dozen state parks, historic areas and preservation 
areas in Louisiana that have a significant impact on our economy 
through tourism and recreation. Each one of these facilities leverages 
federal and state funds through the state side of the LWCF to generate 
significant revenue for state and local government as well as private 
businesses.
    At full funding, Louisiana would receive approximately $7.5 million 
in grants through the state side program. Not a tremendous amount of 
money by any stretch given the enormous needs. However, in FY 2005, 
when Louisiana received only $1.5 million, the unmet need was still 
84%. Cutting the state side of the LWCF means preventing states from 
building or developing parks and recreation facilities, providing 
riding and hiking trails, enhancing recreation access, conserving open 
space and preserving forests, estuaries, wildlife and natural 
resources. Perhaps most importantly, not funding this program 
eliminates the certainty that state and local governments rely on to 
help them plan to meet the recreational needs of their citizens. An 
administration that champions the power of partnerships to leverage 
resources and achieve results, has turned its back on a partnership 
program that can provide both for years to come.

                                  OCS

    I would be remiss if I did not comment on how much the 
Administration's budget touts the role of the Outer Continental Shelf 
(OCS) in providing domestic energy production for the nation: 
contributing more to the total U.S. oil and natural gas supply than any 
single state or country in the world. Not only will OCS production 
account for more than 40 percent of U.S. oil production and 23 percent 
of U.S. natural gas production over the next five years alone, but the 
OCS will continue to be a critical source of future supplies. It is 
estimated that the OCS contains more than 60 percent of the Nation's 
remaining undiscovered oil and as much as half of our country's 
undiscovered recoverable natural gas.
    Almost all of this production comes from the Gulf of Mexico off the 
coasts of four states. This will continue to be the case for years to 
come: over the next decade, oil production in the Gulf of Mexico is 
expected to increase by 43 percent and natural gas production by 13 
percent. Without the ports, fabrication facilities and tens of 
thousands of miles of pipelines located in Texas, Louisiana, 
Mississippi and Alabama it would be literally impossible to access 
these vital mineral assets at all.
    However, aside from merely including as part of its FY 2007 
submission the good work of Congress last year which under the 
leadership of Chairman Domenici and Senator Bingaman established an 
important policy precedent by providing a significant stream of coastal 
impact assistance funding to coastal producing states. Still, nothing 
in this budget acknowledges the role these states play in supplying our 
nation with its energy supply.
    As we all know, other states receive significant revenues from 
mineral production on federal lands within their boundaries. For 
example, the State of Wyoming, with a population of just under 500,000, 
is projected to receive almost $1.3 billion in 2006. But, there is no 
similar provision in law for Texas, Louisiana, Mississippi and Alabama 
to share federal oil and gas revenues generated on the OCS off their 
shores. For both onshore and offshore production, the justification for 
sharing with the state is the same: the state serves as the platform 
which enables the federal government to support a basic element of our 
daily lives--turning on our lights, heating our homes and running our 
commuter trains.
    Instead of foot-dragging and excuse-making under the guise of 
budgetary concerns, it is long past time for this Administration to 
step up and show leadership on this issue. It is time for them to join 
the Louisiana delegation and other Gulf Coast states to establish a 
reliable revenue source over time to fund vitally coastal protection 
and flood control systems.
    Hurricanes Katrina and Rita clearly demonstrated the extent to 
which America depends upon the central and western portions of the Gulf 
for our nation's energy supply and economic security. Ensuring that the 
nation's energy hub, which centers on Louisiana and our neighboring 
coastal states, can continue to be so is not just smart energy policy--
it is necessary to the nation's economic strength. It is truly a 
national priority that requires a national commitment, and we urge this 
Administration to join us in the proclamation of that commitment 
through consistent budget policies and priorities that make sense for 
all of America.
                                 ______
                                 
       Prepared Statement of Hon. Robert Menendez, U.S. Senator 
                            From New Jersey

    Thank you, Mr. Chairman, for giving us the opportunity to more 
closely examine the proposed Department of Interior (DOI) budget for 
Fiscal Year 2007. I'd also like to thank Secretary Norton for taking 
the time to discuss the details of the department's budget. 
Unfortunately, I'm not very happy with many of these details. An 
overall departmental decrease of $614 million. A $100 million cut in 
park appropriations. Eighty-four million cut from National Park Service 
construction projects, and another $10 million cut from repair and 
rehabilitation projects. The proposed sell-off of vast swaths of public 
land. A $12.4 million reduction of the Land and Water Conservation Fund 
for federal land acquisition, and the complete elimination of the 
stateside LWCF grant program. These cuts make me wonder what kind of 
parks we will be leaving for our children and grandchildren to visit in 
the years to come.
    I was pleased to see an important new program for New Jersey in the 
budget, with $2 million included to implement the Highlands 
Conservation Act. However, this is far short of the authorized level of 
$10 million, and I hope we can get closer to that level to help fund 
some crucial land conservation projects in all four states that share 
the Highlands region.
    The zeroing out of the stateside LWCF program is an even greater 
threat to the landscape of New Jersey. This program is an invaluable 
resource for all 50 states, providing funds for land acquisition and 
rehabilitation as well as protection of natural resources such as open 
space and clean water. Since 1966, when the LWCF program was 
instituted, New Jersey has received over $110 million in LWCF stateside 
grant funding, which has been used to preserve nearly 74,000 acres of 
open space and fund 241 park and recreation projects statewide. These 
projects span the state, from large acquisitions in the Highlands and 
Pinelands to small acquisitions along New Jersey's Hudson River 
waterfront. Liberty State Park in Jersey City has gone from a derelict 
waterfront to being one of the premier urban waterfront parks in the 
United States, thanks to $6.5 million in LWCF assistance. The State's 
county and municipal parks also benefit through the addition of land 
and new recreation facilities.
    In addition to having one of the nation's strongest open space 
preservation programs, New Jersey was the only state in the Park 
Service's Northeast Region to completely obligate its entire LWCF 
balance in FY05, and generated over $10 million in leveraged funding 
from the State's local governments and conservation organizations. Yet 
the state still has over $726 million in total land conservation 
funding needs, the second highest total in the nation, meaning cuts to 
the stateside LWCF program hit New Jersey particularly hard.
    Land preservation is one of the most cost effective and efficient 
methods of environmental protection. New Jersey has, over the years, 
used its LWCF apportionments to protect water resources throughout the 
state and along river corridors. These acquisitions help prevent the 
loss of drinking wells and fight the intrusion of salt water intrusion 
into aquifers, both of which are the result of New Jersey's ever-
growing population. The economic benefits of public conservation and 
recreation projects are substantial, many of which accrue to the 
federal government, and will help to offset the federal funding 
necessary to solve these problems in the long term.
    Our parks are not the only part of our heritage endangered by 
downsizing at the Department of Interior. The budget proposes only $33 
million for Preservation and Recreation Programs, down from $55 million 
last year. This decrease will affect programs such as the National 
Register of Historic Places, certifications for investment tax credits, 
management planning of federally-owned historic properties as well as 
government-wide archaeological programs, and documentation of historic 
properties. Furthermore, the recommendation for State Historic 
Preservation Offices and Tribal Historic Preservation Offices is less 
than $40,000,000, a decrease from last year's level for basic 
administration of federal preservation policy, and a cut in half for 
Save America's Treasures. If enacted, the proposed halving of Save 
America's Treasures would hurt New Jersey preservation and 
rehabilitation projects desperately in need of funding.
    Our parks and our historic places are an important component of our 
collective American heritage. Our children are raised on family trips 
to places such as the Jersey Shore, school field trips to local 
historic places such as Thomas Edison's laboratory, and afternoons with 
their friends in our local parks. Will our children be able to share 
such formative experiences with their children? Our love of the 
outdoors is a shared value of the American people, and an important 
part of our daily lives. In my opinion, this budget does not reflect 
these values, and I look forward to working with my colleagues to 
ensure that we do not shortchange our commitment to our natural 
resources.
                                 ______
                                 
   Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado

    Thank you, Mr. Chairman and Ranking Member Bingaman. I want to 
welcome my fellow Coloradan, Secretary Norton. Secretary Norton served 
as Colorado's Attorney General from 1991 to 1999, after which I was 
honored to serve as Colorado's Attorney General for six years.
    The Department of the Interior manages over eight million surface 
acres and over five million subsurface acres in Colorado. These lands 
include four National Parks, seven National Wildlife Refuges, vast 
Bureau of Land Management holdings, and numerous National Monuments, 
Recreation Areas, and Historic Trails.
    Almost every Coloradan is in some way affected by the budget and 
priorities of the Department of the Interior. Millions of Coloradans 
visit the National Parks, hike the Historic Trails, hunt on BLM lands, 
or heat their homes with natural gas extracted under a BLM lease.
    But it is the people who live in Colorado's rural counties who are 
most affected by this budget. People who live in counties like Rio 
Blanco and San Miguel, Conejos and Saguache, Grand and Gunnison.
    It is out of concern for these rural communities, in particular, 
that I am troubled by this budget. These communities are a part of an 
America that has long been forgotten by our government, and they are, I 
fear, once again forgotten in the Administration's budget priorities.
    Rural counties in Colorado will be hurt first and foremost by this 
year's proposed cuts to the Payment in Lieu of Taxes Program. PILT 
provides money to communities that include federal lands (such as 
National Forests and/or Bureau of Land Management lands) to compensate 
for the fact that these federal lands do not pay taxes. In 2005, this 
program helped pay teachers, police neighborhoods, and pave roads in 57 
counties in Colorado. The President's budget would cut this program by 
16% to $198 million. This is a body blow to Rural America.
    Many of Colorado's rural counties are experiencing rapid growth in 
energy production on BLM lands. These communities are often 
enthusiastic about expanded BLM oil and gas leasing activities in their 
area because they want to play a role in moving America toward energy 
independence. But these rural communities also care deeply about their 
land and water. They want to contribute to expanded domestic energy 
production while still preserving their natural heritage and a quality 
of life that attracts residents, visitors, and businesses. I want to 
make sure that this budget provides the resources the BLM needs to 
conduct vigorous oversight when producers are drilling in these 
counties. This should include unannounced visits by BLM inspectors to 
drilling pads. Our rural communities deserve high standards and 
safeguards if they are to help carry us toward energy independence.
    Recreation and tourism is a growing segment of the economic base in 
Colorado's rural counties. The cuts to the National Park Service's 
maintenance and construction budget--combined with the dangerous 
proposed revisions to Park Service policies--could expand the deferred 
maintenance backlog and erode the integrity of our National Parks.
    Furthermore, the budget proposes to eliminate the Land and Water 
Conservation Fund stateside grants program, which provides matching 
funds for Great Outdoor Colorado (GOCO)'s parks, recreation, and open 
space projects. This cut of a broadly supported and highly effective 
program will limit recreation options for all Coloradans and will hurt 
rural communities that want to protect open spaces and parks for future 
generations.
    I am hopeful that we will have the opportunity to address these 
issues today with Secretary Norton.
    Thank you, Mr. Chairman.
                                 ______
                                 
 Prepared Statement of Hon. James M. Talent, U.S. Senator From Missouri

    As you know, natural gas prices set record highs this winter, 
exceeding $15 per thousand cubic feet (Mcf). Natural gas still costs 
two to three times traditional levels, due in part to increasing world 
demands for energy.
    Missouri farmers and manufacturers are big users of natural gas as 
feedstock for fertilizer and chemical products. The Industrial Energy 
Consumers of America reported that ``since 2001, natural gas prices 
have significantly contributed to the loss of 3.0 million manufacturing 
jobs and the shifting of future investment overseas.'' We can't 
continue to export jobs and manufacturing capability overseas simply 
because our energy costs are too high, and they are: in Europe, natural 
gas sells for $7.00 per thousand cubic feet and in China, less than 
$5.00.
    As a result, we will soon be asked to vote on additional funding 
for LIHEAP. This is a clear signal that home heating costs are too 
high. It seems to me and I expect, based on the MMS's five-year leasing 
plan, you'd agree that the only way we are going to bring prices down 
is to responsibly produce our own clean burning natural gas.
    I've joined with Senators Domenici, Bingaman and Dorgan to propose 
a bill that opens the untapped portion of just one small, unexplored 
area 100 miles offshore in the Gulf of Mexico. Lease Sale Area 181, as 
it is known, has enough natural gas to heat 6 million homes for 15 
years.
    This is a good first step that is easily achievable. But we'll 
likely have to do more exploration outside of the Gulf of Mexico. A 
next step would be to allow States to opt out of the moratoria to allow 
exploration for natural gas off of their own shores. I have co-
sponsored a bill with Sens. Pryor, Warner, and Allen to open up more of 
the OCS to natural gas exploration by providing an incentive for States 
to take advantage of the resources that lie off of their coasts.
    I know that your 5-year leasing plan would take similar steps as 
these. So, I expect it is the case that your budget has prepared with 
increased offshore leasing in mind.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you very much, Mr. Chairman. Madam 
Secretary, thank you for coming again this year, and let me 
just make a few observations about the administration's 
proposed budget. First, on the proposal to sell off the BLM 
lands, as I understand it, the administration's proposal is 
they want to sell over $800 million worth of Forest Service 
lands and nearly $200 million to be raised over the next 5 
years from the sale of BLM lands, and the funds would be used 
for deficit reduction and for BLM operational funding needs. I 
have concerns with both of those provisions.
    I supported Senator Domenici's provision that was attached 
to the Valles Caldera legislation a few years ago which 
permitted the BLM and Federal land management agencies, more 
generally, to keep all of the money that was used that they 
received from the sale of surplus lands in order to acquire 
important in-holdings within federally designated areas. That 
was the way the legislation was drafted as I understand it. And 
the administration now wants to redirect 70 percent of the net 
sale proceeds from land sales to the Federal Treasury. I think 
selling public lands for deficit reduction or for operational 
funding of the agency is very shortsighted. I don't think it's 
wise to sell permanent assets to fund operational needs. In 
this case, it appears that OMB has specific revenue targets 
that they want to meet by the sale of permanent assets.
    Let me also state my disappointment again with the 
administration's budget on the Land and Water Conservation 
Fund. Once again, you have proposed drastic cuts in that 
funding, that $900 million is credited to the fund each year. 
But as I read this budget, it proposes to spend only $91 
million for Federal land acquisition; nothing for State open 
space and recreational grants.
    On PILT, Payment In Lieu of Taxes, again, the 
administration is proposing to cut funding. The proposed cut 
this year is about $35 million, recommended funding of $198 
million. It's far below the authorized level, of course, of 
$350 million. I hope that additional funding will be included 
in the Interior Appropriation bill for this important function. 
While I support the re-authorization of the County Payments 
bill, I'm not sure I understand why the administration is 
seeking full funding for that program while it continues to 
propose cuts in the Payment In Lieu of Taxes Program. It 
doesn't seem to me to be a good set of priorities.
    Let me mention also water issues. Many of us, including 
Senator Domenici, myself, and others on the committee here, 
have struggled and continue to struggle with the water issues. 
The President's Budget for all Federal water resource programs, 
I think, is deficient. From my perspective, the Federal 
Government needs to be partnering with the States and local 
communities to help them to address infrastructure needs, to 
identify new sources of water and the sustainability of 
existing supplies, and to develop the new technologies that are 
needed to increase available water supplies and resolve 
environmental issues, as well as work on conservation projects.
    As I read the administration budget, it is deficient in 
virtually all of these areas. So, I know the budget situation 
is tight. There are still a lot of priorities that get set in 
the budgeting process, and I think the decision to cut away at 
the water-related programs is out of step with the priorities 
of the people I represent in New Mexico and I think out of step 
with the priorities of many members of this committee. Thank 
you again, Mr. Chairman, for letting me comment.
    [The prepared statement of Senator Bingaman follows:]

 Prepared Statement of Hon. Jeff Bingaman, U.S. Senator From New Mexico

    Good morning and welcome, Secretary Norton. I would like to take a 
few minutes to highlight a few of my observations and concerns on the 
Administration's budget proposal, both with respect to new legislative 
initiatives and the funding levels proposed for key departmental 
programs.

                             BLM LAND SALES

    During the hearing on the Forest Service's budget earlier this week 
there was a lot of discussion, and considerable opposition, to the 
Administration's proposal to sell over $800 million worth of National 
Forest lands. Likewise, the Department of the Interior's budget assumes 
almost $200 million will be raised over the next five years from the 
sale of Bureau of Land Management lands, which the Administration 
proposes to use for deficit reduction and BLM operational funding 
needs. I have strong concerns with both of these land sale proposals.
    I supported the provision that Senator Domenici authored as part of 
the Valles Caldera legislation which permitted the BLM and other 
Federal land management agencies to keep all of the money used from the 
sale of surplus lands to acquire important inholdings within Federally-
designated areas. As I understand the budget proposal, the 
Administration now wants to redirect 70 percent of the net sale 
proceeds from land sales to the Treasury.
    Selling public land for deficit reduction or agency operational 
funding needs is, my view, an extremely short-sighted policy. Not only 
do I think it is unwise to sell permanent assets to fund operational 
needs, in this case it appears that OMB has set specific revenue 
targets of $180 million over the next five years and $350 million over 
the next decade, without regard to which lands actually are suitable 
for sale.

                                  LWCF

    I am disappointed that this budget continues this Administration's 
tradition of slashing funding for the Land and Water Conservation Fund. 
Although $900 million is credited into the fund each year, this budget 
proposes to spend only $91 million for Federal land acquisition and 
nothing for State open space and recreational grants. Although the 
Department once again is trying to fund other programs out of the Land 
and Water Conservation Fund, its request for authorized funding 
represents only 17 percent of the full authorization. I believe there 
is still strong bipartisan support for both the Federal and State Land 
and Water Conservation Fund programs and I hope this funding can be 
significantly increased.

                                  PILT

    As has been the case in its previous budget proposals, the 
Administration is again proposing to cut funding for the Payment in 
Lieu of Taxes, or PILT program. The proposed cut this year is almost 
$35 million, and the recommended funding of $198 million is far below 
the authorized level of about $350 million. I hope that additional 
funding will be included in the Interior Appropriations bill, but it's 
too bad the Administration is not trying to help. While I support 
reauthorization of the County Payments bill, I'm not sure I understand 
why the Administration is seeking full funding for that program while 
it continues to short change PILT.

                              WATER ISSUES

    Finally, I'd like to discuss water issues and assess what role the 
federal government should play in helping our country meet its future 
water needs. The President's budget for all federal water resource 
programs raises significant concerns from my perspective. Beyond its 
obvious role in sustaining life, a stable and reliable water supply is 
one of the core foundations for the economic activity that sustains our 
communities.
    With issues related to population growth, environmental needs, 
protection of agricultural communities, and ongoing drought, the 
challenges with respect to water resources in the 21st Century is 
endless. From my perspective, the Federal government needs to be 
partnering with States and local communities in helping them to (1) 
address infrastructure needs; (2) identify new sources of water and the 
sustainability of existing supplies; (3) develop new technologies to 
increase the available water supply; (4) resolve environmental issues; 
(5) implement water conservation projects; and (6) quantify federal 
water rights claims to promote effective water management.
    Unfortunately, the President's budget misses the mark in all these 
areas and does not reflect the importance of water in this country. Nor 
does it help deal with the challenges already facing many regions.
    While I know the FY 2007 budget is tight, there are still a lot of 
choices to be made, and the decision to go after water programs seems 
to be out of step with the needs I hear from my constituents and others 
across the country.
    I look forward to discussing these issues in greater detail after 
we hear from Secretary Norton. Thank you.

    The Chairman. Thank you, Senator Bingaman. Now, Madam 
Secretary, your statement will be made a part of the record. 
Please proceed. Once again, welcome.

STATEMENT OF HON. GALE A. NORTON, SECRETARY, DEPARTMENT OF THE 
                            INTERIOR

    Secretary Norton. Thank you very much, Mr. Chairman and 
members of the committee. It's a pleasure to be with you today 
to discuss our fiscal year 2007 budget for the Department of 
the Interior.
    Before we get into the substance, I would like to note two 
transitions. First of all, I am joined today by Tom Weimer, who 
is our new Assistant Secretary for Policy, Management and 
Budget. He takes the place of Lynn Scarlett, who has now moved 
on to become Deputy Secretary of our Department. Although this 
is Tom's first appearance here as Assistant Secretary, he is 
certainly no stranger to the Department of the Interior. He was 
Chief of Staff to Manuel Lujan when he was the Secretary, and 
Tom has played a very key role as the principal Deputy 
Assistant Secretary for Water and Science. We've called on him 
many times for some tough issues in the Department. I'm also 
accompanied today by John Trezise, who is our Budget Director. 
This will be John's last year of doing our budget hearings. 
He's announced that he's going to be retiring at the end of the 
year after 35 years with the Department. He has a truly 
incredible knowledge of all aspects of the Department of the 
Interior, so we are certainly going to miss him. I'm pleased to 
say that we have selected Pam Haze to succeed John, and Pam has 
been the Deputy Budget Director and is going to provide 
continuity to our programs.
    The President's government-wide 2007 budget reflects his 
commitment to provide critical resources needed for our 
Nation's highest priorities, fighting the War on Terror, 
strengthening homeland defenses and sustaining a strong 
economy. This budget maintains fiscal discipline through 
improved management and by focusing on top priorities. Our 
overall 2007 request is $10.5 billion. In addition to the funds 
requested in the 2007 budget, the President's February 16, 2006 
supplemental funding request for hurricane recovery includes 
$216 million for Interior agencies. This funding will be used 
to conduct significant cleanup, debris removal, repair and 
reconstruction of facilities at park units, refuges and science 
facilities. We'd certainly appreciate the members' support on 
this legislation.
    In formulating the 2007 budget, we had to set priorities 
and make difficult choices. The budget includes reductions for 
programs that are a lower priority, lack clearly defined goals 
or duplicate activities of other agencies. In this priority-
setting process, our focus was to maintain core bureau-
operating programs. The budget maintains the increases provided 
in the past several years for park operations and continues 
refuge funding at the record-high levels of recent years. To 
help maintain core operations, the 2007 budget includes $126 
million for fixed cost increases. This request will cover 70 
percent of the anticipated 2007 pay raise and will help all of 
our bureaus. As President Bush noted in his State of the Union 
speech, a dependable energy supply is vital for our Nation's 
economy.
    I thank this committee for your bipartisan efforts that 
played a key role in shaping the Energy Policy Act of 2005. To 
help implement the goals of the Act and of the President, our 
budget includes $468 million for energy programs, a $44 million 
increase over 2006. This investment will help us achieve our 
goal of secure affordable energy in the context of strong 
environmental protection.
    Subsurface areas managed by the Bureau of Land Management 
in the Rocky Mountain States represent one of the best 
opportunities to augment domestic natural gas supplies in the 
short term. The BLM estimates that basins in five Western 
States contain 139 trillion cubic feet of natural gas, enough 
to heat 55 million homes for almost 30 years. Together with 
base funding and funding available from the Energy Policy Act, 
an increase of $9 million will enable BLM to process a record 
12,000 applications for permits to drill, more than twice the 
number that we received in 2003 and increase inspections and 
monitoring to ensure operations are conducted in compliance 
with environmental standards and other permit requirements.
    The Minerals Management Service manages over 8,200 Outer 
Continental Shelf leases, covering more than 43 million acres. 
Within the next 5 years, offshore production will likely 
account for more than 40 percent of domestic oil and 20 percent 
of domestic natural gas production. The 2007 budget includes a 
$3.6 million increase that will allow the Minerals Management 
Service to keep pace with permitting and inspections for 
existing OCS leases and to conduct environmental studies in 
support of the new 5-year plan. The 2007 budget includes an 
increase of $12 million for Alaska north slope energy 
activities. This increase will support preparation and 
implementation of the ANWR leasing program. It will also enable 
BLM to effectively manage anticipated increases in energy 
development activities in the National Petroleum Reserve-
Alaska. And very importantly, it will also enable BLM to 
remediate old, abandoned energy-related infrastructure that has 
become an environmental problem. There are several decades-old 
wells that are very expensive to remediate.
    Our budget also includes new funding for unconventional and 
renewable energy resources. Under the Energy Policy Act, the 
Minerals Management Service is given authority to permit and 
regulate ocean energy resources for renewable energy. This will 
include wind energy, and we have several applications that are 
pending already. It can also include tidal, current and thermal 
energy. The budget includes $7 million for MMS to carry out 
this authority.
    Mr. Chairman, you mentioned oil shale, and I'd like to 
share with the committee a chart that indicates the extent of 
our oil shale resource in this country. The oil shale resources 
that are in place in Colorado, Wyoming and Utah represent the 
largest- known concentrations in the world, 1.2 to 2 trillion 
barrels of oil. If you look at the chart in the light-blue area 
at the bottom, we have a representation of all of the world's 
traditional energy resources. That's the proven reserves, the 
undiscovered resources, basically everything for traditional 
oil. The maroon area is the Canadian Oil Sands. Those are a 
very significant resource, and those currently are being tapped 
and are expected to increase. The purple area at the top 
represents our oil shale resource in place in the United 
States. And clearly, it is very significant in comparison to 
the other world oil resources. The recoverable portion of this 
resource has been estimated as being at least four times the 
proven reserves of Saudi Arabia.
    Our 2007 budget includes a $3 million increase to 
accelerate implementation of an oil shale development program. 
We're currently finalizing research and development leases. The 
Energy Policy Act requires that we have in place a commercial 
leasing program by 2008. We are working on significant 
environmental analysis and other work to get that project done. 
The very big difference between this oil shale cycle and what 
we've experienced in the past is that the companies this time 
are investing their own money on these projects, and we've seen 
very significant interest. We received about 20 applications 
from companies for our research and development leases.
    Another source of energy that is also unconventional is 
gas-hydrates. The 2007 budget contains a $2 million increase 
for a coordinated effort to accelerate gas-hydrates. This is 
essentially frozen natural gas as a commercially viable energy 
resource. The United States has vast amounts of gas-hydrates, 
an estimated 200,000 trillion cubic feet of in-place gas-
hydrates. These are found both at the far north in Alaska as 
well as at very deep levels of the ocean. There's significant 
international research underway with promising indications that 
production technology is not much different from current 
technologies. It is something that is still at its very early 
phases, and it's largely been government research by the United 
States as well as Japan, India, Canada and other countries. 
This chart shows a comparison between the existing known 
natural gas resources of the United States and the natural gas 
versus gas-hydrate resources.
    A common theme throughout our budget is working with 
partners. By working with local communities, Interior employees 
benefit from local knowledge, ideas and assistance to achieve 
conservation results that can transcend jurisdictional 
boundaries. These partnerships benefit America's national 
parks, wildlife refuges and other public lands. In August of 
last year, we held the White House Conference on Cooperative 
Conservation, and there were well over a thousand people from 
all over the country who are involved in local conservation 
efforts. They are very enthusiastic about their projects and 
provided us with their insights about how the Federal 
Government can improve our ability to work with and foster 
those kinds of local conservation efforts.
    The 2007 budget builds on the lessons we learned at that 
conference. It includes $322 million for cooperative 
conservation programs, an increase of $10 million over 2006. 
From 2001 to 2006, we have achieved significant results from 
our cooperative conservation programs. For example, our Private 
Stewardship and Land Owner Incentive grants have funded over 
900 projects with close to 1,500 partners. These are all 
intended to improve habitat for endangered or at-risk species. 
We work with people who are enthusiastic about protecting birds 
and wildlife without the conflicts of our standard regulatory 
program. The 2007 budget funds these programs at $34 million, 
an increase of $5 million over the appropriated level. The 
Challenge Cost Share Program gives resource managers greater 
flexibility to address high-priority needs at individual sites 
while promoting cooperative conservation with local partners. 
In 2005, the program supported over 800 projects in 45 States 
with over 1,300 partners. The 2007 budget includes $21 million 
for Challenge Cost Share grants, a $2 million increase over 
2006.
    In addition to joining with citizen stewards to protect 
wildlife and habitat, Interior is a steward for our Nation's 
cultural legacy. The 2007 budget includes $32 million for 
locally focused historic preservation and Heritage Tourism 
programs. We propose combining Preserve America, Save America's 
Treasures and the Heritage Partnership Program under a unifying 
theme: the American Heritage and Preservation Partnership 
Program. This coordination will give communities broader 
options to link and pursue preservation opportunities. There 
are many communities around the country that are working on 
local efforts with Heritage Tourism as their focus. Obviously, 
it would take a huge amount to fund all of their projects. Our 
approach creates an appropriate Federal role through relatively 
small grants that facilitate local and private efforts. As 
another component of our historic preservation program, the 
budget includes $4 million for grants to preserve Civil War 
battlefields threatened by development and a $2.3 million 
increase for cultural resources stewardship in the Park 
Service.
    The Chairman. Madam Secretary, are you ready to close?
    Secretary Norton. Yes.
    The Chairman. If we run out of time, we won't have any time 
left for questions.
    Secretary Norton. Okay. I'll stop at that and let you all 
go ahead.
    [The prepared statement of Secretary Norton follows:]

         Prepared Statement of Hon. Gale A. Norton, Secretary, 
                       Department of the Interior

    Good morning. I am pleased to be here today to discuss the fiscal 
year 2007 budget for the Department of the Interior. I appreciate the 
opportunity to highlight our priorities and key goals.
    The Department's broad, multi-faceted mission and geographically 
dispersed services and programs uniquely contribute to the fabric of 
America by maintaining and improving the Nation's natural and cultural 
resources, economic vitality, and community well being. Interior's 
70,000 employees and 200,000 volunteers live and work in the 
communities, large and small, that they serve. They deliver programs 
through partnerships and cooperative relationships that engage and 
invite citizens, groups, and businesses to participate.
    The challenges of the Department's diverse responsibilities are 
many, but they are made more manageable through an integrated approach 
that defines common mission goals for all bureaus and offices. The 
Department's integrated strategic plan is key to this approach. The 
plan defines four mission categories, which include resource 
protection, resource use, recreation, and serving communities. 
Capabilities in partnerships, management, and science are at the 
foundation of the plan and weave throughout the four mission goals.
    Using the strategic plan as a road map, since 2001, the Department 
has:

  <bullet> Completed nearly 6,000 national park facility improvements 
        and maintained high park visitor satisfaction rates, according 
        to surveys;
  <bullet> Helped meet the Nation's energy needs by nearly doubling 
        annual energy permit processing on Federal lands;
  <bullet> Advanced cooperative conservation through Private 
        Stewardship and Landowner Incentive grants that have funded 943 
        projects with 1,466 partners;
  <bullet> Protected habitat on 8.8 million acres managed through 
        partnerships; and
  <bullet> Improved forest health on 5.6 million acres of Interior-
        managed lands through the Healthy Forests Initiative, a 108 
        percent increase over the previous five years.

    The 2007 budget seeks to maintain performance across the 
Department's strategic plan goals and improve performance in areas that 
are high priority Administration initiatives, within the context of the 
President's commitment to reduce the deficit by more than half by 2009. 
The 2007 budget incorporates Program Assessment Rating Tool reviews and 
program evaluations and a broad analysis of base programs considering 
cost and performance information, financial information, staffing, and 
the budgetary benefits of more effective and efficient utilization of 
resources. These efforts shaped the budget by highlighting the effect 
of allocation decisions on strategic goals and identifying 
opportunities to realign priorities and improve efficiency.
    Although the details of the respective missions of Interior's 
bureaus and offices differ, the central focus is the same. A focus on 
excellent performance requires mission clarity, good metrics, and 
management excellence. Management excellence requires a focused 
approach to maintain and enhance program results, making wise 
management choices, routinely examining the effectiveness and 
efficiency of programs, finding effective means to coordinate and 
leverage resources, and the continuous introduction and evaluation of 
process and technology improvements.
    The 2007 budget reflects the Department's commitment to these 
management strategies and management excellence.

                            BUDGET OVERVIEW

    The 2007 budget request for current appropriations is $10.5 
billion. Permanent funding that becomes available as a result of 
existing legislation without further action by the Congress will 
provide an additional $5.6 billion, for a total 2007 Interior budget of 
$16.1 billion.
    The 2007 current appropriations request is a decrease of $392.2 
million or 3.6 percent below the 2006 funding level. If emergency 
hurricane supplemental funding is not counted, the 2007 request is a 
decrease of $321.9 million or 2.9 percent below the 2006 level.
    The 2007 request includes $9.6 billion for programs funded in the 
Interior, Environment, and Related Agencies Appropriations Act, a 
decrease of $190.9 million or 1.9 percent from the 2006, excluding the 
emergency hurricane supplemental.
    The request for the Bureau of Reclamation and the Central Utah 
Project, funded in the Energy and Water Development Appropriations Act, 
is $923.7 million. This request includes a net programmatic reduction 
of $43.1 million, or 4.1 percent, from the 2006 funding level. It also 
includes the proposed cancellation of $88.0 million in prior year 
balances of appropriations for the Desert Terminal Lakes program.
    Receipts collected by the Department in 2007 are projected to be 
$17 billion, an increase of $99.4 million over 2006. That is $6.5 
billion more than Interior's current appropriations request and nearly 
$1 billion more than the total 2007 Interior budget.

                       MAINTAINING CORE PROGRAMS

    With these resources the Department manages over 500 million acres 
and some 40,000 facilities at 2,400 operating locations. These 
responsibilities engage Interior as a principal manager of real 
property and other assets that require ongoing maintenance, direct 
services to public lands visitors, and ongoing activities to ensure 
public access, use, and enjoyment.
    In order to deliver these services, the 2007 budget includes 
funding for pay and health benefits and other nondiscretionary cost 
increases for workers and unemployment compensation payments, rental 
payments for leased space, and operation of centralized administrative 
and business systems. Providing for these costs will allow the 
Department to maintain performance across strategic goals, improve 
performance in priority areas, and effectively serve the public.
    The budget includes $125.9 million for nondiscretionary, fixed cost 
increases. Of this total, two-thirds, or $82.5 million, will cover 70 
percent of anticipated 2007 pay raises. The budget assumes a January 
2007 pay increase of 2.2 percent.
    In addition to paying for nondiscretionary fixed costs, the budget 
includes focused investments for tools to enable the department's 
employees to do their jobs more efficiently and generate long-term cost 
savings including implementation of standardized systems and 
streamlined business practices. One of the Department's enterprise 
investments is the Financial and Business Management System. The 2007 
budget includes $22.2 million to continue deployment of this integrated 
financial and business management system that will facilitate the 
retirement of duplicative, outdated legacy systems.

                        PROGRAMMATIC HIGHLIGHTS

    The 2007 budget maintains and improves performance across the 
Department's strategic goals to achieve healthy lands and water, 
thriving communities, and dynamic economies throughout the Nation. Key 
goals for 2007 include:

  <bullet> Enhancing America's energy supplies through responsible 
        energy development and continued implementation of the Energy 
        Policy Act;
  <bullet> Building on successful partnerships across the country and 
        expanding opportunities for conservation that leverage Federal 
        investments;
  <bullet> Continuing to advance trust reform;
  <bullet> Coordinating existing efforts under a unified program that 
        focuses on high-priority historic and cultural protection under 
        the Preserve America umbrella;
  <bullet> Preventing crises and conflicts over water in the West 
        through Water 2025;
  <bullet> Continuing to reduce risks to communities and the 
        environment from wildland fires; and
  <bullet> Providing scientific information to advance knowledge of our 
        surroundings.

    As part of the President's effort to reduce the budget deficit by 
half over five years, the 2007 budget for the Department makes 
difficult choices to terminate or reduce funding for programs that are 
less central to the Department's core missions, have ambiguous goals, 
duplicate activities of other agencies, or require a lower level of 
effort because key goals have been achieved. Terminations and 
reductions include lower priority and earmarks enacted in 2006. For 
example, the 2007 budget reduces funding for the Land and Water 
Conservation Fund State Assistance Grant program. These grants support 
State and local parks that have alternative sources of funding through 
State revenue and bonds. In addition, a PART review found the current 
program could not adequately measure performance or demonstrate 
results.

                           ENERGY DEVELOPMENT

    The Department's energy programs play a critical role in providing 
access to domestic oil, gas, and other energy resources. To enhance 
domestic production, the 2007 budget proposes a $43.2 million 
initiative to implement the Energy Policy Act of 2005 and continue 
progress on the President's National Energy Policy. In total, the 
budget includes $467.5 million for the Department's energy programs.
    APD Processing--In 2003, the Department released an Energy Policy 
and Conservation Act-mandated report identifying five basins in 
Montana, Wyoming, Utah, Colorado, and New Mexico as containing the 
largest onshore reserves of natural gas in the country and the second 
largest domestic resource base after the Outer Continental Shelf. These 
onshore basins contain an estimated 139 trillion cubic feet of natural 
gas, enough to heat 55 million homes for almost 30 years. These 
resources offer the best opportunity to augment domestic energy 
supplies in the short term.
    Before any leasing for oil and gas production can occur on the 
public lands in these areas, the Bureau of Land Management must have a 
land-use plan in place. Beginning in 2001, with the support of 
Congress, BLM initiated the largest effort in its history to revise or 
amend all of its 162 resource management plans. Within areas designated 
in plans as appropriate for mineral development, BLM has made a 
concerted effort to help bring additional oil and gas supplies to 
market. In 2002, 2.1 Tcf were produced from Federal, non-Indian lands. 
In 2003 and 2004, 2.2 Tcf and 3.1 Tcf, respectively, were produced from 
these lands.
    The BLM is experiencing a steady increase in the demand for 
drilling permits. In 2000, BLM received 3,977 applications for permits 
to drill. In 2005, BLM received 8,351 APDs. The bureau estimates that 
the number it will receive in 2006 will exceed 9,300, more than double 
the number processed five years ago. To address this demand, BLM has 
taken steps to ensure that drilling permit applications are processed 
promptly, while at the same time ensuring that environmental 
protections are fully addressed. These measures, along with increased 
funding, have allowed BLM to make significant progress in acting on 
permit applications. In 2005, BLM processed 7,736 applications, nearly 
4,000 more than it was able to process in 2000.
    Section 365 of the Energy Policy Act established a pilot program at 
seven BLM field offices that currently handle 70 percent of the 
drilling permit application workload. The pilot program is testing new 
management strategies designed to further improve the efficiency of 
processing permit applications. The Energy Policy Act provides enhanced 
funding for the pilot offices from oil and gas rental receipts. During 
2006, with more efficient processes and authorities and funding 
provided through Section 365, BLM anticipates processing over 10,000 
permits.
    The efforts of BLM have achieved significant results. Almost 4,700 
new onshore wells were started in 2005. This level of activity is 56 
percent higher than in 2002.
    For 2007, the budget proposes an increase of $9.2 million to focus 
on the oil and gas workload in BLM's non-pilot offices, which are also 
experiencing a sharp and sustained increase in the demand for APDs. 
This increase will provide $4.3 million for drilling permit processing 
and $2.8 million for inspection and enforcement activities. It will 
also provide $2.1 million for monitoring activities. The budget also 
includes $471,000 for the Fish and Wildlife Service to increase 
consultation work with the non-pilot offices.
    With the funding proposed for 2007, we expect that BLM pilot and 
non-pilot offices will collectively be capable of processing nearly 
12,000 APDs and conducting over 26,000 inspections in 2007.
    The budget assumes continuation through 2007 of the enhanced 
funding for pilot offices from oil and gas receipts to facilitate a 
smooth transition to funding from drilling permit processing fees, 
effective September 30, 2007. Legislation to be proposed by the 
Administration will allow a rulemaking to phase in full cost recovery 
for APDs, beginning with a fee amount that will generate an estimated 
$20 million in 2008, fully replacing the amount provided by the Energy 
Policy Act.
    Alaska North Slope--The most promising area for significant long-
term oil discoveries and dramatic gains in domestic production in the 
United States is the Alaska North Slope. The U.S. Geological Survey 
estimates a 95 percent probability that at least 5.7 billion barrels of 
technically recoverable undiscovered oil are in the ANWR coastal plain 
and five percent probability of at least 16 billion barrels. USGS 
estimates the mean or expected value is 10.36 billion barrels of 
technically recoverable undiscovered oil. At $55 a barrel, more than 90 
percent of the assessed technically recoverable resource estimate is 
thought to be economically viable. At peak production, ANWR could 
produce about one billion barrels of oil a day, about 20 percent of our 
domestic daily production and more oil than any State, including Texas 
and Louisiana.
    The 2007 budget assumes the Congress will enact legislation in 2006 
to open ANWR to energy exploration and development with a first lease 
sale held in 2008 and a second in 2010. The budget estimates that these 
two lease sales will generate a combined $8.0 billion bonus revenues, 
including $7.0 billion from the 2008 lease sale.
    The 2007 budget includes an increase of $12.4 million for BLM 
energy management activities on the Alaska North Slope. The additional 
funds will support the required environmental analyses and other 
preparatory work in advance of a first ANWR lease sale in 2008. The 
requested increase will also support BLM's leasing, inspection, and 
monitoring program in the National Petroleum Reserve-Alaska and BLM's 
participation in the North Slope Science Initiative authorized by the 
Energy Policy Act. In addition, a significant share of the $12.4 
million increase will be used by BLM to respond to the environmental 
threat posed by abandoned legacy wells and related infrastructure on 
the North Slope.
    Outer Continental Shelf Development--Deepwater areas of the Gulf of 
Mexico currently account for 17 percent of domestic oil and six percent 
of domestic gas production. However, over the next decade, oil 
production in the Gulf is expected to increase by 43 percent and 
natural gas by 13 percent. The increase will come from deepwater and 
greater depths below the ocean floor. The 2007 budget includes an 
increase of $2.1 million for OCS development, to allow MMS to keep pace 
with the surge in exploration and development in the deepwater areas of 
the Gulf and $1.5 million for OCS environmental impact statements on 
future lease sales.
    New Innovations in Energy Development--The 2007 budget includes an 
increase of $6.5 million for MMS's new responsibilities under the 
Energy Policy Act for offshore renewable energy development. MMS will 
establish a comprehensive program for regulatory oversight of new and 
innovative renewable energy projects on the OCS, including four 
alternative energy projects for which permit applications were 
previously under review by the U.S. Army Corps of Engineers.
    Oil shale resources represent an abundant energy source that could 
contribute significantly to the Nation's domestic energy supply. Oil 
shale underlying a total area of 16,000 square miles in Colorado, Utah, 
and Wyoming represents the largest known concentration of oil shale in 
the world. This area may contain in place the equivalent of 1.2 to 2 
trillion barrels of oil, several times the proven oil reserves of Saudi 
Arabia. The budget proposes a $3.3 million increase, for a total 
program of $4.3 million, to enable BLM to accelerate implementation of 
an oil shale development program leading to a commercial leasing 
program by the end of 2008, in compliance with section 369 of the 
Energy Policy Act. This request is accompanied by $500,000 budgeted for 
USGS to determine the size, quality, and quantity of oil shale deposits 
in the United States.
    Gas hydrates, found in some of the world's most remote regions such 
as the Arctic and deepwater oceans, could dramatically alter the global 
balance of world energy supply. The estimated volume of natural gas 
occurring in hydrate form is immense, possibly exceeding the combined 
value of all other fossil fuels.
    The 2007 budget includes a $1.9 million package of increases for 
gas hydrate research and development by MMS, BLM, and USGS. This will 
fund a coordinated effort in the Gulf of Mexico and the North Slope of 
Alaska to accelerate research, resource modeling, assessment, and 
characterization of hydrates as a commercially viable source of energy.

                      PARTNERSHIPS IN CONSERVATION

    The 2007 budget proposes $2.6 billion for resource protection 
activities that improve the health of natural landscapes, sustain 
biological communities, and protect cultural and heritage resources. 
Key initiatives in resource protection include:
    Cooperative Conservation Programs--At field locations throughout 
the country, bureau employees and volunteers are learning by doing, 
working side-by-side with neighbors, and tapping into best practices 
from others working on similar issues. By working with local 
communities, Interior employees benefit from local knowledge, ideas, 
and assistance to achieve conservation results that can transcend 
jurisdictional boundaries. At the national level, conservation 
partnerships leverage resources, broaden our knowledge base, and help 
coordinate actions to achieve strategic goals.
    Under the broad framework of Executive Order 13352, the Chairman of 
the White House Council on Environmental Quality convened a White House 
Conference on Cooperative Conservation. The Departments of the 
Interior, Agriculture, Commerce, and Defense, and the Environmental 
Protection Agency co-hosted the event. On August 29-31, 2005, 
representatives from the public and private sectors convened in St. 
Louis, Missouri to discuss the advancement of this cooperative 
conservation vision. The conference emphasized the need to create a 
culture of responsibility to enhance opportunities for citizen stewards 
to work together. To improve its partnering efforts in cooperative 
conservation, the Department is developing and utilizing government 
tools that inspire and complement citizen stewardship and environmental 
entrepreneurship.
    From 2002 through 2006, Interior's conservation partnership 
programs have provided $2.1 billion. These programs leverage Federal 
funding, typically providing a non-Federal match of 50 percent or more. 
The 2007 budget includes $322.3 million to support continued 
partnership success through a suite of grant and technical assistance 
programs.
    The FWS administers natural resource grants to governmental, 
public, and private organizations, groups, and individuals that focus 
on at-risk species and their habitats. The Landowner Incentive and 
Private Stewardship programs are funded at a total of $33.8 million, an 
increase of $4.9 million from 2006. Through these programs, Interior 
employees work with States, Tribes, communities, and landowners to 
provide incentives to conserve sensitive habitats, while maintaining 
the fabric of the local communities and continuing traditional land 
management practices such as farming and ranching.
    The North American Wetlands Conservation Fund, the Cooperative 
Endangered Species Conservation Fund, and State and Tribal Wildlife 
grants program are funded at a total of $196.3 million, an increase of 
$9.4 million over 2006. This includes a $7.2 million increase for State 
and Tribal Wildlife Grants, which contains $5 million for a new 
competitive component of the program.
    Challenge cost share programs in the Fish and Wildlife Service, the 
National Park Service, and the Bureau of Land Management are funded at 
$20.3 million. These cost share programs give the land management 
agencies opportunities to work together and with adjacent communities, 
landowners, and other citizens to achieve common conservation goals. 
The 2007 proposal represents an increase of $1.6 million.
    The Fish and Wildlife Service budget also includes $11.8 million, 
an increase of $1.0 million, for joint ventures. The increase will 
result in a 1.1 million acre increase in the number of acres of 
landscapes and watersheds managed through partnerships and networked 
lands. The budget includes $13.0 million for the Coastal program, 
providing an increase of $604,000 for general program activities to 
address the growing demand for habitat conservation activities for FWS 
trust species. In 2007, coastal program activities will also expand to 
address the decline of aquatic habitat in areas such as the Gulf Coast, 
affected by Hurricanes Katrina and Rita.
    Sustaining Biological Communities--The Department's 2007 budget 
request includes $60.0 million for invasive species and continues the 
government-wide, performance-based crosscut budget effort that began in 
2004. The budget provides an increase of $994,000 for work in three 
priority geo-regional areas: South Florida, the Northern Great Plains, 
and the Rio Grande River Basin. The 2007 budget will focus on invasive 
species that present significant threats to ecosystem health, including 
lygodium, leafy spurge, and tamarisk.
    National Fish Habitat Initiative--The Fish and Wildlife Service has 
brought together States, Tribes, and others to develop a coordinated 
plan to implement a geographically-focused, partnership effort to 
protect, restore, and enhance aquatic habitats and reverse the decline 
of fish and aquatic species. The 2007 budget includes $3.0 million for 
the National Fish Habitat Initiative, an increase of $2.0 million. This 
effort is modeled on the North American Waterfowl Management Plan Joint 
Ventures and will harness the energies and expertise of existing 
partnerships to improve aquatic habitat health.

                            INDIAN PROGRAMS

    Trust Responsibilities--The budget provides $536.0 million to 
continue the Department's ongoing efforts to reform management of its 
fiduciary obligations to Tribes and individual Indians, to continue 
historical accounting efforts for trust funds, and to reduce the 
exponentially growing costs of maintaining fractionated interests of 
Indian lands.
    The 2007 budget continues funding for efforts initiated in 2002 to 
re-engineer trust business processes. The comprehensive changes 
underway are intended to bring about dramatic improvements in the 
management of fiduciary trust assets and better meet the needs of 
individual Indians and Tribes. A comprehensive and systematic plan 
known as the Fiduciary Trust Model is guiding reform efforts, including 
reorganization of Interior's fiduciary trust offices to improve service 
delivery and enhance accountability of trust operations. Working in 
partnership with beneficiaries to implement the FTM, Interior has 
implemented changes in operations and staffing at agencies and many 
other changes to ensure fulfillment of fiduciary trust goals and 
objectives. Implementation of integrated systems to support the FTM was 
completed at the Bureau of Indian Affairs Anadarko and Concho agencies 
in Oklahoma. These agencies now use the re-engineered trust processes 
and interfaced systems; trust data have been reconciled and validated, 
and numerous backlog cleanup projects have been completed.
    The greatest challenge facing successful fiduciary trust management 
is the fractionation, or continuing subdivision, of individual Indian 
interests in the land held in trust by the Federal government. Because 
individual Indian trust lands are subject to a permanent restriction 
against alienation, they are primarily transferred through inheritance. 
With each successive generation, individual interests in the land 
become further subdivided among heirs, each of whom holds a smaller and 
smaller interest in the land. The ownership of many disparate, small 
interests generates significant management costs, benefits no one in 
Indian Country and creates an administrative burden that drains 
resources away from other Indian programs.
    The Department currently administers and manages more than 3.2 
million undivided interests in these lands owned by 223,245 individual 
Indian owners. In many cases, the cost to account for and probate 
highly fractionated tracts far exceeds either the revenue or the value 
of the underlying property. Interior has demonstrated success over the 
past several years acquiring these highly fractionated interests 
through the Indian Land Consolidation Program. Through December 31, 
2005, the Department has acquired 202,775 fractional interests in 
individual Indian allotted lands, 100 percent ownership in 166 tracts 
with over 1,142 owners, and 100 percent ownership of interests held by 
5,253 individuals.
    The 2007 budget includes $59.5 million, an increase of $25.4 
million, to acquire additional selected highly fractioned individual 
Indian land interests. The $59.5 million will fund an acquisition 
program of about 80,000 additional fractionated interests. In order to 
maximize the effectiveness of the program, the Department is 
transitioning to a new long-term strategy for acquisition of individual 
Indian interests. The strategy will use a tiered process to select 
which interests to acquire. As of March 2005, there are 2,173 highly 
fractionated tracts owned by 98,905 individuals. A focus on these 
tracts will begin in 2006 and target 1,557 of these tracts.
    Other trust increases include $6.5 million that would streamline 
and strengthen efforts to provide cadastral surveys for Indian land 
transactions, $3.0 million to continue efforts to address the backlog 
of unresolved probate cases, and $2.0 million to provide for BIA 
technical assistance and grants to Tribes for Indian energy resource 
development.
    The 2007 budget funds historical trust accounting at $59.4 million, 
including $39.0 million for Individual Indian Money accounting and 
$17.4 million for tribal accounting.
    Strengthening Indian Self-Determination--A key factor in 
strengthening Indian self-determination and fostering strong and stable 
tribal governments is the Tribes' ability to contract or compact for 
BIA operated programs. The Indian Self Determination Act requires BIA 
to provide tribal contractors with contract support costs, which 
include payment of indirect costs, as determined through negotiation 
between tribal representatives and Interior's National Business Center. 
Contract support funds pay a wide range of administrative and 
management costs, including finance, personnel, maintenance, insurance, 
utilities, audits, communications, and vehicle costs. Full funding of 
contract support costs encourages tribal contracting and promotes 
progress in achieving Indian self-determination. The 2007 budget 
proposes a $19.0 million increase for BIA to fully fund indirect costs 
for contracting Tribes, a total funding level of $151.6 million.
    Improving Indian Education--Rigorous educational programs help 
ensure a viable and prosperous future for tribal communities. Providing 
Indian students with a quality education prepares American Indian 
children to compete in a dynamic economy. The BIA school system 
accommodates almost 48,000 Indian children in 184 elementary and 
secondary schools and dormitories, includes two schools of higher 
education, and administers operating grants for 24 tribal colleges. The 
BIA school system has experienced significant change in recent years 
with implementation of the No Child Left Behind Act. The Act 
established an Adequate Yearly Progress accountability system that 
measures student proficiency in math, reading, and language arts. BIA 
is accountable for helping schools achieve AYP targets and achieving 
AYP in all BIA funded schools is a top objective of the BIA. Student 
performance at BIA schools, while improving, remains lower than 
national averages and in the school year 2004-2005, 30 percent of BIA 
schools met the AYP measure.
    Working with Tribes, BIA developed a Program Improvement and 
Accountability Plan to improve the effectiveness of the education 
services provided in the Bureau school system. The Plan identifies six 
major objectives such as achieving AYP and the tasks to achieve the 
objectives, including hiring, training, and retaining highly qualified 
staff. The 2007 budget includes an increase of $2.5 million to realign 
education offices and meet the staffing requirements identified in the 
Plan.
    The Indian education program also includes a new initiative to 
address the needs of juveniles detained in BIA funded detention 
centers, a segment of youth that has been underserved in the 
educational system. The request of $630,000 will be used to provide 
education services to students temporarily detained in the 20 BIA 
funded juvenile detention centers.
    From 2001 through 2006, BIA received $1.6 billion for the Indian 
education program to replace 37 schools and undertake major facility 
improvement and repair projects at 45 schools. The funding has resulted 
in significant improvements, increasing the number of schools in good 
condition. In 2001, 35 percent of the BIA schools were in good or fair 
condition. After completion of work funded through 2007, approximately 
65 percent of the schools will be in good or fair condition. To 
continue improvement of facility conditions at BIA schools, the budget 
includes $157.4 million for education construction. In order to focus 
on the 27 school replacement projects funded in previous years that are 
in the design phase or under construction, the education construction 
budget reflects a reduction of $49.3 million from 2006.
    Johnson-O'Malley--The budget proposes to eliminate the $16.4 
million Johnson-O'Malley grant program. These grants, identified in the 
Tribal Priority Allocations of some Tribes, are distributed by the 
Tribes to address Indian student needs in local public schools. The 
grants duplicate similar funding made available by other Federal and 
State assistance programs. The Department of Education, for example, 
provided $115.9 million in 2006 to public schools on or near Indian 
reservations. In addition, JOM grants do not address a focused goal for 
academic achievement, and lack a means to measure and report on its 
impact to student performance. Eliminating JOM grants allows BIA to 
strengthen its commitment to the BIA school system and avoid redundant 
Federal programs.
    Law Enforcement--Indian Country comprises 56 million acres of land 
and 1.6 million people. Indian Country has less than two law 
enforcement officers per thousand people served, as compared to more 
than four officers per thousand people in comparable rural communities. 
One of the largest challenges facing the BIA law enforcement program is 
violent crime. The violent crime rate in Indian Country is twice the 
national average. The 2007 budget proposes an increase of $1.8 million 
for law enforcement in Indian Country. An additional $2.7 million is 
requested to staff newly constructed tribal detention centers that will 
be operational in 2007.

                           CULTURAL RESOURCES

    The 2007 budget supports the leading role of the National Park 
Service's in the preservation of nationally significant natural and 
historical resources. Through complementary historic preservation 
programs, NPS helps to protect heritage resources through initiatives 
to inventory, manage, and preserve artifacts and monuments and 
encourages community efforts to preserve local and regional cultural 
landscapes. The BLM is also a caretaker of significant cultural 
resources, managing what is perhaps the largest and most diverse 
collection of cultural properties in North America.
    American Heritage and Preservation Partnership--Through its 
Preserve America initiative, the Administration is encouraging 
community efforts to preserve our cultural and natural heritage. The 
goals of the initiative include a greater shared knowledge about the 
Nation's past, strengthened regional identities and local pride, 
increased local participation in preserving the country's cultural and 
natural heritage assets, and support for the economic vitality of our 
communities.
    The 2007 budget request for NPS includes $32.2 million for locally 
focused historic preservation and heritage tourism programs, as part of 
Preserve America initiative. This budget presents a more seamless 
approach to these programs by combining Preserve America grants, Save 
America's Treasures, and the Heritage Partnership program, and 
operating these programs under a unifying theme.
    Preserve America grants help States and communities preserve their 
historic resources by incorporating them into their local economies. 
The 2007 budget includes $10.0 million, an increase of $5.1 million 
above the 2006 level, for grants to help communities develop resource 
management strategies and business practices for continued preservation 
of heritage assets.
    NPS Asset Management--The NPS is responsible for maintaining over 
7,500 facilities for more than 273 million visitors annually. Over 
previous decades, a backlog of maintenance accumulated in the parks. 
Starting with the 2002 budget, the Administration has invested $4.7 
billion and undertaken nearly 6,000 facility improvements within the 
parks, resulting in improved roads and trails, rehabilitated visitor 
centers, more accessible campgrounds, stabilized historic structures, 
and visitor satisfaction rates that are high.
    Ensuring the state of disrepair experienced in the past does not 
recur requires an asset management plan that addresses all phases of an 
asset's lifecycle and encompasses the total cost of ownership for each 
asset. Effective facility management requires a comprehensive inventory 
of needs, assessment, and a facility condition assessment survey 
process, which provides the necessary information for determining 
resources that are necessary to maintain facilities and infrastructure 
in acceptable condition. At the end of 2005, NPS had performed 
comprehensive condition assessments on 57 percent of its asset 
inventory and is on track to meet its goal of completing the first 
cycle of assessments by the end of 2006. The 2007 budget continues to 
support implementation of the NPS asset management program. Total 
construction and maintenance funding is $622.8 million, a decrease of 
$80.6 million from 2006, but still above the funding levels during any 
prior Administration. This reflects a return to sustainable funding 
levels after the completion last year of a five-year surge in funding. 
The budget request focuses on protecting and maintaining existing 
assets rather than funding new construction projects.
    Cultural Resource Protection--Thousands upon thousands of cultural 
properties have been reported in surveys of BLM public lands, including 
cliff dwellings, mines, ground figures, rock art renderings, military 
outposts and homesteads, and others. These resources represent the 
tangible remains of at least 13,000 years of human adaptation to the 
lands, and span the spectrum of human experiences since people first 
set foot on the North American continent. Many of these valuable and 
irreplaceable properties and artifacts are threatened by unauthorized 
use, theft, and vandalism. The 2007 budget proposes a $3.0 million 
initiative to improve the protection, preservation, access to, and 
interpretation of these cultural resources to enhance their economic, 
scientific, cultural, and educational value to all Americans.

                              RESOURCE USE

    The Department's strategic goal for Resource Use includes programs 
that manage natural resources to promote responsible use and sustain a 
dynamic economy. Included in the $1.5 billion supporting this goal are 
programs focused on enhancing the Nation's energy security and 
availability, increasing timber production and improving forest health, 
and maximizing water availability through improved delivery and 
efficiency of water use. In addition to the energy initiatives 
discussed above, the following are the areas of emphasis in the 2007 
budget.
    Water 2025--As water supply challenges increase in the West, the 
Bureau of Reclamation is positioning itself over the long term to help 
prevent crises and conflict. Water 2025 affirms this goal by focusing 
resources on increasing certainty and flexibility in water supplies, 
diversifying water supplies, and preventing crises through added 
environmental benefits in many watersheds, rivers, and streams. The 
2007 budget request includes an increase of $9.6 million for Water 
2025, for a total funding level of $14.5 million. The additional 
funding will allow the Bureau to promote the use of effective, low cost 
approaches to increase water supplies, including improvements to 
existing irrigation facilities, installation of computerized water 
measurement and canal control devices, increasing water marketing 
opportunities, and making water purification more affordable. In many 
basins in the West, where water demands for people, cities, farms, and 
the environment exceed the available supply even in normal, non-drought 
years these changes will significantly help to prevent crises and 
conflicts.
    CALFED--Critical to California's economy, the Sacramento-San 
Joaquin Delta serves as the hub of the State's water management system. 
The Sacramento and San Joaquin Rivers provide potable water for two-
thirds of California's homes and businesses, and irrigate lands on 
which 45 percent of the Nation's fruits and vegetables are grown. The 
Sacramento-San Joaquin Delta provides habitat for 750 plant and animal 
species. Established in May 1995, CALFED is a comprehensive, long-term 
program to address the complex and interrelated problems in the Bay-
Delta, the watersheds that feed it, and the areas served by the waters 
diverted out of it. A consortium of Federal and State agencies fund and 
participate in the program.
    The Calfed Bay-Delta Authorization Act of 2004 provides a six-year 
Federal authorization to implement the CALFED collaborative plan for 
restoration and enhancement of the Delta estuary. The CALFED plan 
provides a long-term solution to the complex and interrelated problems 
in the Bay-Delta and is the foundation for the actions taken by the 
Federal and State consortium, which is focused on goals to improve 
water management and supplies and the health of the ecosystem. The 2007 
budget includes $38.6 million for the Bureau of Reclamation to 
implement CALFED activities, nearly $2 million more than the 2006 
enacted level.
    Increasing Timber Products--Working in conjunction with the U.S. 
Forest Service, Interior manages timber tracts on public lands and 
follows the goals of the Northwest Forest Plan and forest management 
plans. The 2007 BLM budget will generate increased timber production 
with a $3.0 million increase in the Oregon and California Forest 
Management program that supports the commitments of the settlement 
agreement in the lawsuit American Forest Resource Council v. Clarke. 
The additional funding will focus on implementing the Northwest Forest 
Plan under commitments of the settlement agreement, which directs BLM 
to produce the allowable sale quantity of 203 million board feet and an 
additional 100 MMBF through the thinning of late-succession reserves. 
The increase will allow BLM to ramp up to meet the commitment level of 
303 MMBF by 2009. It will result in an additional 20 MMBF of timber 
offered in 2008 and 2009, which are projected to generate $6.5 million 
in additional timber receipts.
    Payments in Lieu of Taxes--The 2007 budget proposes $198.0 million 
for the Payments in Lieu of Taxes Program. PILT payments are made to 
local governments in counties, townships, and other jurisdictions where 
certain Federal land is located within their boundaries based on the 
concept that local governments incur costs related to maintaining 
infrastructure on Federal lands but are unable to collect taxes on 
these lands. The budget funds $197.6 million for PILT payments and 
$400,000 for program administration. Although this is $34.5 million 
below the 2006 record high level, it is comparable to historical 
funding levels.

                             WILDLAND FIRE

    The Department's 2007 budget for the Wildland Fire Management 
program continues implementation of the National Fire Plan and the 
President's Healthy Forests Initiative. Interior's fire bureaus, 
working collaboratively with the Forest Service, will continue meeting 
the Department's Strategic Plan goal of reducing risks to communities 
and the environment from wildland fire. Since adoption of the National 
Fire Plan, significant investments in preparedness resources have 
strengthened initial attack capability and combined with improvements 
in management and operation, have led to improved firefighting 
capability. The Department's success rate for containing wildfires at 
initial attack was 92 percent in 2000. Interior anticipates that it 
will maintain at least a 95 percent success rate in 2007. The 
Department has also made substantial progress in addressing the threat 
posed by heavy fuels buildup and over the last five years, 2001-2005, 
has treated nearly 5.6 million acres. By contrast in the five years 
preceding the National Fire Plan, Interior treated few than 2.7 million 
acres. The management and effectiveness of the hazardous fuels 
reduction program have also improved. Treatments in the wildland-urban 
interface have grown from 22 percent of acres in 2001 to nearly 44 
percent in 2006.
    In 2007, Interior will maintain its high success rate for 
containing wildfires at initial attack through more effective and 
efficient use of preparedness and suppression resources. The Department 
will also continue to strategically implement hazardous fuels reduction 
projects to reduce risks to communities and improve forest and 
rangeland health. The 2007 budget proposes $769.6 million for the 
Wildland Fire management program. This includes an increase of $26.3 
million for fire suppression operations, to reflect the ten-year 
average cost of fire suppression.
    Rural Fire Assistance--The 2007 budget for Wildland Fire continues 
partnerships with local fire departments. Interior fire agencies will 
continue efforts begun in 2006 to use $1.9 million in preparedness 
funding to provide training and personal equipment to local 
firefighters to help build a ready-reserve of local firefighters that 
can support initial and extended attack on large forest and thereby 
improve the effectiveness of Federal cooperation with local 
firefighting agencies. The $9.9 million rural fire assistance program 
is proposed for elimination as a separate funding source because the 
types of equipment and basic training needs it provides will be met 
through the U.S. Forest Service and the Department of Homeland 
Security.

                           SCIENCE PRIORITIES

    Science forms the foundation of Interior's land management 
decisions and strengthens the ability of land managers to address a 
range of issues. The U.S. Geological Survey serves as the Department's 
primary source of scientific research, earth and biological sciences 
data, and geospatial information. The 2007 budget includes $944.8 
million for USGS science related initiatives to protect lives and 
resources and provide scientific leadership through improved hazards 
detection and warning, improved energy research, streamgaging, and 
participation in the Landsat Data Continuity Mission.
    Multi-Hazards Pilot--The USGS is responsible for the assessment, 
monitoring, and prediction of geologic hazards. The 2007 budget 
proposes a multi-hazards initiative aimed at merging information about 
different hazards into integrated products to support land-use 
planning, hazards mitigation, and emergency response. The pilot will be 
funded by a redirection of base resources and, in addition, the budget 
calls for an increase of $2.2 million to enhance these resources.
    Landsat Data Continuity Mission--Landsat satellites collect data 
about the Earth's land surfaces for use in wildland fire management, 
detecting and monitoring invasive plant species in remote regions, 
assessing water volume in snow pack and large western aquifers, 
assessing the stewardship of Federal grazing lands, monitoring the 
land-use and land change in remote regions, global crop monitoring, and 
global mapping. USGS and NASA are partnering to build a new landsat 
satellite set to launch in 2010. The budget requests an increase of 
$16.0 million for USGS to finish designing and begin building a ground 
system to acquire, process, archive, and distribute data from the new 
satellite.
    Streamgages--The USGS operates and maintains approximately 7,000 
streamgages that provide long-term, accurate, and objective streamflow 
and water quality information that meets the needs of many diverse 
users. The 2007 budget includes an increase of $2.3 million to allow 
USGS to continue operations at high priority Federal interest sites as 
well as increase the number of streamgages reporting real-time data on 
the Internet.

                               CONCLUSION

    The budget plays a key role in advancing our vision of healthy 
lands, thriving communities, and dynamic economies. Behind these 
numbers lie people, places, and partnerships. Our goals become reality 
through the energy and creativity efforts of our employees, volunteers, 
and partners. They provide the foundation for achieving the goals 
highlighted in our 2007 budget. This concludes my overview of the 2007 
budget proposal for the Department of the Interior and my written 
statement. I will be happy to answer any questions that you may have.

    The Chairman. Thank you very much. Senator Bingaman, do you 
want to go first, and then I'll follow.
    Senator Bingaman. Thank you very much, Madam Secretary, for 
being here, and let me raise a few specific issues that concern 
me in the budget. Is there an explanation--I mentioned in the 
opening comments I had there that it seems the administration 
supports full funding for the County Payments Program, and 
proposes to cut the PILT Program. Is there a reason why the 
PILT program is a lower priority than the County Payments 
Program?
    Secretary Norton. The Secure Rural Schools program is a 
proposal that has been put forward by the Forest Service. The 
Department of the Interior benefits from that in that they 
assume some of the payments that we would otherwise be taking 
care of ourselves. PILT is something that we have supported. It 
is one of those things that we simply did not feel that we had 
the resources to fund at as high a level as I know people would 
like to see.
    Senator Bingaman. I think I'm right. This is the third year 
in a row you have proposed cuts in the PILT Program, fairly 
significant cuts, so it's a concern which I wanted to raise. 
Let me ask about--there's a National Park Service rule that's 
been proposed to allow National Park Service employees to 
solicit funds. That strikes me as contrary to my view of what a 
park employee ought to be doing.
    Secretary Norton. Senator, we have had a long-standing 
cooperative approach of working with friends organizations in 
our Park Service. We have 150 friends organizations that are 
great partners for us in our parks. We have the National Park 
Foundation that is the only national organization that is the 
charitable arm of the National Park Service.
    Senator Bingaman. They've traditionally done the fund 
raising, right?
    Secretary Norton. The idea that a park superintendent would 
never even ask those groups to do any activities for them and 
would have no involvement at all in fund raising is really not 
consistent with reality. What we have tried to do is put in 
place something that is consistent with reality that has 
guidelines that try to differentiate between work being done by 
a Girl Scout or Boy Scout troop on a new trail compared to some 
things that really ought to have some significant oversight to 
avoid conflicts of interest.
    Senator Bingaman. You're not contemplating that national 
park employees actually solicit funds, or you are?
    Secretary Norton. I know some people have expressed a 
concern that we might, in essence, be having performance 
standards that would say park employees have to raise funding 
or things like that. That is not at all what is contemplated. 
What we contemplate is what we think is an appropriate role 
that recognizes that you can't say no Park Service employee can 
ever tell somebody, ``Gee, it would be nice to have this kind 
of an improvement at the park,'' or ``We'd like to see this 
kind of funding.'' It recognizes that there ought to be an 
appropriate role and ought to be guidelines that are based on 
reality.
    Senator Bingaman. Let me ask about fire assistance. We've 
had a series of grass fires in my State, in Oklahoma, in a lot 
of different States, but in my State, a lot of it's on BLM 
land, and your proposal is to terminate the $10 million Rural 
Fire Assistance Program. The explanation in the budget is that 
it's in order to avoid potential overlap with the Department of 
Agriculture or the Department of Homeland Security fire 
assistance programs. I can't figure out what that overlap would 
be. It doesn't seem to me that any of those departments are 
meeting the need for rural fire assistance. And since a lot of 
this is BLM land, it seems to me we ought to be putting money 
into it.
    Secretary Norton. Both of those organizations have funding 
that is available for fire departments, including rural fire 
departments, and the Forest Service is specifically targeted in 
that way. We recently updated an agreement with the Department 
of Homeland Security that will ensure a greater role for 
wildland fire agencies in reviewing and issuing grants to 
States through the programs that they administer. We have 
provided considerable funding to local fire departments through 
time to purchase fire engines and other equipment and, 
certainly, those remain available.
    Senator Bingaman. Well, my information is that the Forest 
Service is proposing to cut their support for fire assistance 
programs by 30 percent. The Department of Homeland Security is 
proposing to cut theirs by 55 percent, and you folks have 
proposed to eliminate yours, so it just strikes me that there 
must be a high-level decision in the administration that this 
is not something that the Federal Government needs to worry 
about. It can be a local problem or a local concern. I just 
wanted to register my strong disagreement with that. Let me ask 
about the water funding. I guess my time is up, Mr. Chairman. 
Thank you.
    The Chairman. All right, I'm going to ask three or four 
questions and then submit a number of them for the record. 
First, in the Energy Policy Act, we established seven pilot 
centers where you were to consolidate the agencies and 
activities that had to do with granting permits for drilling. 
As I recall, two were in New Mexico, five in other States. I 
understand you are moving along with that?
    Secretary Norton. Yes, we have instructed the Bureau of 
Land Management to move quickly on staffing those offices, and 
they have been doing so. And so, I think they've done a very 
good job in getting people in place. We've reached agreements 
with the other affected agencies so that we're moving together 
in a coordinated way.
    The Chairman. All right. Now, those are the ones that we 
expect to eliminate the delay that would occur because you have 
to move from office to office, starting over again with each 
office bringing them together. Who will be in charge of seeing 
that we don't just set it up, but that it works? Are you going 
to have some way of, say in a year, being able to tell us that 
there was some effectiveness to these consolidated permitting 
centers?
    Secretary Norton. We're working to very closely monitor the 
applications for permits to drill and how those are being 
handled by the agencies. We have also requested funding for the 
non-pilot offices because some of our significant processing 
requests are also in those offices. So, in both the pilot 
offices and the non-pilot offices, we are working to see that 
we don't have a backlog and also very importantly, that we're 
doing the inspections and monitoring that will make sure those 
are done in a responsible way.
    The Chairman. Now, the funding for that is the one we have 
a disagreement with. You have the money in the law now the way 
we wrote it. And if we don't change it, money flows and you 
don't have any new permit fees that have to be started to set 
this in motion. Is that correct?
    Secretary Norton. Yes.
    The Chairman. I think that's correct.
    Secretary Norton  Our proposal is to change that.
    The Chairman. On OCS Area 181, I really don't think we want 
to get into an argument over who's doing what best, but it 
seems like we don't understand your proposal the way some are 
interpreting it. Our bill, the Domenici-Bingaman bill, it 
appears to me has a different piece of property involved than 
yours. We have a larger part of 181 involved. Is that not 
correct?
    Secretary Norton. That is correct. That is proposed under 
our 5-year plan is 2 million acres in the Lease Sale 181 area. 
My understanding is that yours is 3.6 million acres. We've also 
proposed to at least consider opening the 6 million acres that 
are south of Lease Sale 181.
    The Chairman. I understand. Now, you would have to start 1 
year sooner under ours than yours as we understand it, from 
what our interpretation of your rules versus our mandate and 
our law. Is that not correct?
    Secretary Norton. Let me say, Senator, it depends on when 
your legislation is passed.
    The Chairman. Gotcha.
    Secretary Norton. If your legislation were passed today, we 
would have 1 year from today to get that lease sale done, and 
we would make sure that happened. If your legislation is passed 
in the fall, then we would all be on the same time track 
because our proposal is to have a lease sale in that area in 
the fall of 2007.
    The Chairman. All right. Senator, I am going to turn it 
over to you to chair if you would for me.
    Senator Thomas. All right.
    The Chairman. Thank you, Madam Secretary. We'll be working 
together closely.
    Secretary Norton. Thank you.
    Senator Thomas [presiding]. Thank you. That being the case, 
I'll ask the next questions. Some discussion on the reduction 
in the number of audits they conducted on oils and gas leases, 
and relation, the amount of spending on audits, how much is 
generally recovered from underpayments?
    Secretary Norton. We go through a cycle of doing audits. It 
used to be that within 5 years after the production occurred, 
that the audits would be completed and companies would be asked 
to pay any additional revenues. We now are working on a 3-year 
cycle so that any additional amounts would be paid sooner. 
Since 1982, our audits have caused collection of an additional 
$2.6 billion in royalties.
    Senator Thomas. Right.
    Secretary Norton. We are working to see that our audits are 
done in a targeted way. We're also, through usage of royalty in 
kind, able to simplify the kinds of auditing that needs to be 
done.
    Senator Thomas. That was my next question. How effective 
has that been in reducing the need for audits?
    Secretary Norton. Extremely effective. Royalty in kind 
essentially requires us to just verify whether the volume of 
oil or natural gas that has been provided to us is the 
appropriate share, as opposed to having to determine volume and 
price and imputed deductions and so on and so forth that has to 
be done. It's essentially the equivalent between a complex 
income tax system and a flat tax. It's a very different 
approach.
    Senator Thomas. Well, I certainly agree with your comment 
about having to hold down the expenditures, but we also need to 
look at increasing efficiency in some of these kinds of things, 
and I think that can be done. You mentioned increase for the 
parks. As a matter of fact, we're told that there's a reduction 
in the budget for the Park Service.
    Secretary Norton. We have focused on the things that matter 
most to the visitors. First of all, in park operations, we have 
increased our park operations by 25 percent since 2001, and we 
have a chart that indicates our visitor service funding.* We 
have been looking at ways that we can keep our spending under 
control across the Department, and one of those ways that we've 
looked at is in capital construction. We are not initiating 
very much anywhere in the Department in the way of new capital 
construction. There is a decrease in the construction program 
for the National Park Service. Despite this decrease, we are 
still proposing $933 million for park construction maintenance. 
This is the third highest funding level ever and more than 
twice the level of just 10 years ago. There are some reductions 
in the parks that show up in the Park Service budget that are 
pass-through funds that go to States or the private sector.
---------------------------------------------------------------------------
    * The chart has been retained in committee files.
---------------------------------------------------------------------------
    Senator Thomas. But I guess the conflict in the information 
is you said it's going up, and the fact is the overall park 
budget is down.
    Secretary Norton. That's correct, yes.
    Senator Thomas. I guess I misunderstood when you said 
increase. A couple of things are kind of interesting, the sale 
of BLM land, some of that identified for disposal, but 70 
percent of the receipts would go to the Treasury. As these are 
done, why aren't they maintained to be used to manage the lands 
that are remaining?
    Secretary Norton. The legislation that exists right now is 
one that allows for the sale of BLM lands. BLM has had that 
authority since the passage of FLPMA in 1976, but the current 
process essentially allows BLM to sell lands that then go to 
pay for in-holdings in Park Service or Forest Service 
properties. That, frankly, just has not operated very well. I 
think it's very important for us to have a land management tool 
that lets people at a local level look at the excess property 
that has been identified in our land use planning process as 
appropriate for disposal, the isolated tracts and so forth, and 
to be able to use those for local projects and local 
operations. The proposal that we have would also provide 
funding for the Federal Treasury from that. One thing I do want 
to clarify from a comment or question that Senator Bingaman 
had, and that is that we do not have a target that we are 
intending to raise, to identify acres and sell those off as a 
target. That was simply an estimate that was done of what the 
effect of this proposal might be.
    Senator Thomas. But the overall Federal program has set 
aside certain numbers--specifically, a number of acres that are 
to be sold.
    Secretary Norton. That is----
    Senator Thomas. 300,000.
    Secretary Norton. That is not the reality of the way in 
which we see this operating. There are acres that are 
identified routinely in our land use plans that would be 
available for disposal or appropriate for disposal and an 
estimate of about what might be expected to arise from local 
BLM applicants to do that.
    Senator Thomas. Okay. A little different view within the 
administration apparently on how that's going to be handled, 
and we've heard it just a little differently than that.
    Secretary Norton. Oh, I'm sorry. I think you're thinking of 
the Forest Service proposal that does have a target amount.
    Senator Thomas. And when they talked about BLM lands as 
well.
    Secretary Norton. And that is not accurate.
    Senator Thomas. Okay.
    Secretary Norton. To the extent that is the way our budget 
documents appear, that's not an accurate reflection of the way 
in which this would work.
    Senator Thomas. One quick, final question. What about 
funding for de-listing of endangered species and so on? That 
seems to drag on and on, and often, we hear we don't have the 
administrative time to do it. Is there funding to get this job 
done on wolves and on grizzly bears?
    Secretary Norton. We do have robust levels of funding for 
our Fish and Wildlife Service. I know that we have, I believe, 
a million for grizzlies in the Yellowstone area that are a part 
of our budget proposal and have been working with your State, 
as well as Montana and Idaho on the de-listing of wolves. That 
has been not so much a budgetary issue as a----
    Senator Thomas. I realize that. I wish--just an 
observation, I wish we could just sit down and say all right, 
we want to finish this job instead of holding out for this or 
holding out for that and say how do we get this done. It's been 
going on far too long and needs to be done. Okay. Let's see. We 
switch over to the other side.
    Ms. Landrieu.
    Senator Landrieu. Thank you. Madam Secretary, let me begin 
with a positive comment and thank you all for including the 
National Technology Preservation Center, which had been zeroed 
out the last couple of years. Your Department has worked very 
closely with Congressman McCreary, whose district that center 
is in, but the center takes on even more significance because 
of the tremendous loss of historic properties all along the 
gulf coast in this hurricane. It's the only center, as you 
know, in the Nation that focuses on technology regarding the 
preservation of historic buildings. And so, to have lost that 
center, particularly at this time, would have been devastating 
for the Nation, but particularly for the gulf coast. So, I want 
to just commend you all for funding it. Although we have a 
level funding, I'd like to work with you to see if we can at 
least keep up with the expansion of the research that's going 
on there that's been extremely helpful, located at one of our 
fine colleges there in Louisiana. On a positive note, I wanted 
to say that for the record.
    Also, thank you for your focus and interest on restoring 
the many miles of devastation of refuges that occurred along 
the gulf coast of Louisiana. Let me ask you to comment about 
what your department is doing, particularly in the parks--Jean 
Lafitte, Bayou Segnette. There's a tremendous amount of debris, 
as you know, a huge amount of debris that is scattered from 
Pascagoula to Beaumont. And of the refuges there--of course, 
the Nation's first refuge was established on the coast of 
Louisiana. Can you or anyone from your Department just briefly 
give an update on the focus and extra resources you all are 
bringing to bear on clearing some of that out and how you're 
working with FEMA to get these parks stood up again and 
operating, because I understand that visitation is somewhat 
limited?
    Secretary Norton. We have been working in our parks and our 
refuges to try to remove debris and to restore those areas. As 
I mentioned earlier, and I'm not sure if it was before you came 
in, that we have a $216 million supplemental request as part of 
the overall Administration supplemental request that would be 
for Interior agencies, and we do anticipate that a significant 
amount of that would be for our parks and refuges.
    Senator Landrieu. Okay. And is there a process for 
application for those moneys that you could talk about just 
briefly, or is it a competitive process or a grant process 
that's being established?
    Secretary Norton. These are all for funds to be used within 
the Department of the Interior for our activities, for our 
parks and our refuges. And so, we would try to prioritize those 
needs as we see them, from park to park and refuge to refuge.
    Senator Landrieu. Okay, because I'd like to compare at 
least what we know the needs are with the amount of money to 
see how short we are, or if we are short, we need to know that 
amount, so that we can try to fix that in the budget, because 
getting these refuges stood up is a big part of the 
environmental restoration that's going to take place on the 
gulf. And I realize that money is short, but these are very 
significant areas that we need to focus on and they have been a 
little bit lost in the discussion of levees and housing, but 
these environmental areas of wetlands restoration and refuges 
are critical for the redevelopment of the gulf coast. Did you 
want to add anything, Tom?
    Mr. Weimer. Well, the Secretary has correctly stated that 
the $216 million we feel is adequate for handling our lands, 
the refuges and the parks.
    Senator Landrieu. Do you know how much of that has been 
spent already or allocated already?
    Mr. Weimer. I don't. John, do you have that number?
    Mr. Trezise. Senator Landrieu, the Congress, in the 
supplemental passed in December, provided $70 million to the 
Department, and the Fish and Wildlife Service and the Park 
Service are actively spending those funds today. For example, 
at Bon Secour National Wildlife Refuge in Alabama, we've 
removed 14,000 cubic yards of debris and were able to reopen 
that refuge. The President's supplemental request, which was 
submitted about 3 weeks ago, includes an additional $216 
million for the Department, which, as Tom Weimer said, we 
believe is adequate to do everything that we need to do and can 
do over the next year.
    Senator Landrieu. All right. I want to move on, but just 
for the purposes of the record, as we talk about rebuilding New 
Orleans and the region--I'm going to submit this, Mr. Chairman, 
for the record, but to my knowledge, no city in America has 
donated more of its land to create a refuge than has New 
Orleans, that refuge being Bayou Sauvage, which is about half 
of New Orleans East. So, when we talk about making the city 
greener, it's about as green as any city in America could be, 
with the largest urban park, Audubon Park, which is another 
large park. A great portion of the city's property was donated 
back in the 1970's to create this great refuge. It's within 5 
minutes of downtown. I'm not sure there's any other city in 
America that can boast of that kind of set aside of Federal 
lands that need to be, of course, managed and maintained.
    Let me ask again, on the Energy Policy issue, about a 
Coastal Impact Assistance program that was established by 
Senator Domenici and Senator Bingaman last year, the $1 billion 
to coastal States, which establishes, for the first time, a 
real partnership with the five States that allow for offshore 
oil and gas drilling, which, for the record, as this committee 
knows, is going to be estimated to be, in 2007, $8.8 billion, 
up from $2 billion 10 years ago. That is contrasted with 
onshore receipts of the same year being only about $2 billion. 
So, Outer Continental Shelf revenues are rising significantly 
as onshore revenues have been either level or decreasing, which 
brings me to the reason that that's happening, which is because 
you've got four States in America that are basically serving as 
hosts for this offshore industry. What is the Department doing 
to develop the program and guidelines that we began in 2006 to 
apply this formula and disburse the money to these coastal 
States, Madam Secretary?
    Secretary Norton. We have begun the analysis for those 
guidelines, and the Minerals Management Service has redirected 
$600,000 to begin implementing that program. We'll be happy to 
work with you as we are going through the process of getting 
those guidelines in place.
    Senator Landrieu. Because as we establish that this year, 
it really lays a precedent down what I think makes a great deal 
of sense. We're hoping that as we move forward with additional 
legislation, that that can become a model of what we can build 
on as we seek to open up other areas of exploration in the Gulf 
of Mexico, that this program can really lay down a marker for 
the kind of partnership that is mutually beneficial, respectful 
of what States do that host it and protect the billions of 
dollars of infrastructure that exist that are threatened by 
hurricanes and natural disasters. We saw that happen in the 
recent barrages of wind and rain that came from Katrina and 
Rita. I know my time is up.
    Senator Thomas. Your time has expired.
    Senator Landrieu. Thank you. Just two, not questions, but 
markers for the record. The cuts to historically black colleges 
is very concerning, particularly the two that we have, Xavier 
and Dillard, that received tremendous flooding. I'm going to 
work with you to try to restore that. And the Land and Water 
Conservation Fund, which, if our country's going to focus on 
obesity, the Federal Government had better be a partner in 
helping States to set up bike trails, walking trails, parks 
throughout urban and rural areas, or we're not going to 
accomplish that goal. Thank you, Madam Secretary.
    Senator Thomas. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. Welcome, Madam 
Secretary. Appreciate you being here. I, too, will start out 
with a compliment to you. Thank you for your personal efforts, 
that of your Department, as we worked to advance ANWR last 
year. We'll go at it again certainly. And given the revised 
estimates, the updated estimates of the economically 
recoverable oil, released last fall, I again am assuming that 
within the Department of the Interior, you will continue to be 
supportive and aggressive as we try to impress upon the rest of 
the country the need to open up ANWR. So, I'll just throw you 
the first softball.
    Secretary Norton. Well, we certainly will. We recognize 
that this is our largest onshore source of oil for the country 
that is a traditional source of oil. We will be working very 
hard again to explain to people how you can have that oil 
supply for the country's needs and protect the environment 
there. I certainly believe that can be done.
    Senator Murkowski. We will continue to work with you on it 
and appreciate your assistance. I also want to thank you for 
your enthusiasm.
    Speaking to the gas-hydrates issue, this is something that 
Senator Akaka and I have been working on in advancing our 
legislation on this. I'm pleased to see that you have increased 
by a $2 million increase from last year for this gas-hydrate 
research. We just think that the potential there is so huge. 
And it is something that, quite honestly, most people do not 
recognize that potential, but we've got to have the research, 
we've got to have the stuff on the ground to understand what it 
is that we have before we get moving forward. I would ask for 
your assistance in working with your colleague, the Secretary 
of Energy. As you know, the Energy Department has not been as 
aggressive in the funding for the gas-hydrates research on 
their side. I think we're going to need the support from both 
departments in order to make this happen.
    I need to ask you about the support for the Alaska Land 
Transfer Acceleration Act. As you know, we passed this in 2004 
with the Department's help in an effort to get the lands that 
have been conveyed to the State of Alaska at statehood, get 
them conveyed before our 50th anniversary of statehood coming 
up in 2009. We've had some setbacks last year in the 2005 
budget that was proposed, but we were fortunate that Congress 
didn't follow the administration's recommendation. We moved 
forward with it, but now we've got within the 2007 budget a 
proposal which is a $4.9 million reduction over what was 
appropriated in 2006. That concerns me. This is supposed to be 
a lands acceleration act, not a lands deceleration act. And 
given the reduction in funding, we believe that's where it 
goes.
    In your comments, you mentioned that it is tough budget 
times, and we have to make a determination, and you look to 
lower priorities, or you look to perhaps those programs that 
don't have clearly defined goals, and I would just suggest that 
the goals in this are about as clearly defined as we could 
possibly have. Now, recognizing that a report on the progress 
of this is due by the end of 2007, can you give me the 
assurance that we in fact are on track, that we will be able to 
conclude with the conveyances within the time period prescribed 
by the act given the funding decreases that the Department is 
suggesting?
    Secretary Norton. We've been working to operate more 
efficiently and to be sure that we have the staff to be able to 
do the work. We are on track in 2007 to patent or close 
selections to 500,000 acres of Native corporation lands and 
about 500,000 acres for the State of Alaska with the funding 
that is proposed under this budget.
    Senator Murkowski. I am going to be asking the chairman of 
the Public Lands and Forests Subcommittee to conduct an 
oversight hearing, convene a hearing on this particular issue 
just to kind of determine the status, so it'll be important to 
hear from the Department's perspective where you think you are, 
where we think you are in an effort to get this very important 
land issue advanced in a timely manner.
    One more question for you, and Senator Bingaman raised this 
as an issue, and that is the Payment In Lieu of Taxes. I just 
attended a Forest Service budget committee, and we discussed 
the Secure Rural Schools Act and the reduction to the local 
governments and the school districts by 50 percent over the 
next 5 years. This is a huge kick in the stomach to so many of 
our small communities, particularly in southeast that were 
timber-reliant communities. Ninety-one percent of their land is 
owned by the Federal Government. They've got economies with no 
place else to turn. So, on the one hand, they're hit with that, 
and now, we're looking to the reductions in the PILT money. 
This is just the one-two punch that we don't think many of our 
communities will be able to sustain. Again, I hear what you 
have said in response to Senator Bingaman, but we've got to 
look at this very critically. This is going to be huge to so 
many of our communities.
    Madam Secretary, we have 64 percent of our lands in Alaska 
that are owned by the Federal Government. It is a situation 
where, when we look to the lands that we are not able to 
collect taxes on because of the Federal ownership status, we're 
in a real bind. And so, this is certainly one area where we 
need you to understand our situation in the State of Alaska. 
And we've got to do something because otherwise, we're going to 
be shutting down a fair number of our communities.
    Secretary Norton. If I can point out, the Department of the 
Interior, through its revenue sharing on minerals and through 
other programs, pays about $4 billion to States and to 
counties. And so, PILT is only a part of that. The Rural 
Schools Program was set to end after a 5-year transition. The 
administration has proposed to continue that with the funding 
from land sales to the Forest Service, so we are working to try 
to address those issues for local communities.
    Senator Thomas. Okay, thank you.
    Senator Murkowski. Thanks, Mr. Chairman.
    Senator Thomas. Senator Salazar.
    Senator Salazar. Thank you, Senator Thomas, and welcome, 
Secretary Norton. It's always good to see a fellow Coloradan in 
front of this committee and I enjoy our work together. I have a 
series of questions. The first one relates to the Payment In 
Lieu of Taxes Program, and I will just tell you my concerns 
with respect to the proposed budget from the Department of the 
Interior. It has a 16 percent cut in that program, which seems 
to continue this effort to put another spear in the back of 
rural America. When you look at the $308 million cuts and the 
Department of Agriculture budget for rural economic 
revitalization, 25 percent of the budget cuts are going on the 
back of agriculture. It just seems to me that for the sparsely 
populated parts of rural America, many of them in the Western 
States, that this is just one of those other spears in the 
back, and let me be specific.
    Secretary Norton. Senator Salazar, I have to object very 
strongly to that characterization.
    Senator Salazar. Hold on, Secretary Norton.
    Secretary Norton. We have considerably stronger funding 
levels--
    Senator Salazar. I'm the Senator.
    Secretary Norton [continuing]. Than we've had in the past.
    Senator Salazar. You just--you answer my question, Okay? 
Here is the deal: If you look at my State, your State, 57 
counties of our State today receive Payment In Lieu of Taxes. 
We have counties like San Juan and Hinsdale, you know the 
counties just like I do, and you go to my very Republican 
county, Hinsdale County, that's probably 95-97 percent owned by 
the Federal Government, how do you explain to those county 
commissioners that they are going to see a 16 percent decrease 
in the Payment In Lieu of Taxes going into that county?
    Secretary Norton. We have a stronger funding level than 
existed for PILT throughout the 1990's. We have made 
significant efforts to fund that program even though I have to 
make a choice between paying for employees of the Department of 
the Interior and paying for those funds that go outside the 
Department. Colorado is receiving $146 million in mineral-
leasing payments, which I believe makes it third among the 
States in the level of mineral-leasing payments. The PILT money 
for Colorado is about $17 million in 2006, and the decrease 
would be about $3 million. It is very, very small in comparison 
with the other funds that are coming from the Department of the 
Interior and going to local governments and to the State 
government.
    Senator Salazar. You know, perhaps for large counties with 
huge revenues, that kind of a cut may not be a huge problem for 
them, but I will tell you for many of the rural counties which 
are mostly in Federal ownership, that kind of cut starts 
affecting their ability to hire law enforcement officers to do 
the work on the roads, and it creates a very major problem for 
those counties that are mostly in Federal land ownership when 
they don't receive some of the other revenues that go through 
the other counties through oil and gas leasing.
    Let me move to another set of questions, and that's with 
respect to the BLM oil and gas inspection and enforcement. We 
in this Nation somehow are all contributing to the energy 
engine that we require to keep our economy and our country 
strong. I sometimes look at our own State of Colorado, and I 
see Colorado being the Saudi Arabia, if you will, of the West 
because we have so much oil and gas drilling activity that is 
taking place throughout the western slope, and now even out on 
the eastern plains. And my question to you has to do with 
respect to the inspections from the Department of the Interior 
and BLM with respect to oil and gas activities and the 
functioning of the consolidated office in Glenwood Springs. How 
is that going, and do you feel like we're doing what we can to 
address the issues of concern to local land use impacts that I 
keep hearing about in my office and I'm sure you hear about in 
yours as well?
    Secretary Norton. I visited our areas in Colorado, Utah and 
Wyoming, looking at our oil and gas programs, making sure that 
we had enough in the way of inspections and monitoring. We 
anticipate that with the funding that we're requesting now, 
that BLM will be able to conduct nearly 50 percent more 
inspections than the 17,000 inspections that were conducted in 
2005. We are going to be spending more than six times the level 
spent on monitoring in 2005, so we are very significantly 
ramping up this program to make sure that we do have adequate 
monitoring and that that continues for the long run.
    Senator Salazar. Okay. May I ask you, Madam Secretary, if 
you would provide me a response also in writing in terms of 
just the functioning of the Glenwood Springs office and the 
activity in Colorado with respect to monitoring?
    Secretary Norton. Okay. I would be happy to, Senator.
    Senator Thomas. Thank you, sir.
    Senator Salazar. Chairman Thomas, I have some other 
questions, but I will wait. Will there be another round?
    Senator Thomas. There will be another round.
    Senator Salazar. Okay.
    Senator Thomas. Madam Secretary, a couple of more details. 
Seven BLM offices have received about $20 million for the NACT 
Pilot Program to speed up permitting. Can you provide where do 
you stand on that in the Department and what's happening to 
implement those provisions?
    Secretary Norton. We have more people who are now being 
hired for those pilot offices. I believe there are about 130 
people that are to be hired for those pilot offices, and we are 
well on track for getting that hiring done very quickly.
    Senator Thomas. Well, I hope so. All this delay is not all 
money. We need to get a little more cooperation among the 
agencies so that you don't have one agency making the decision 
and then have another agency come in and have to go over the 
whole thing again. And I know you're familiar with that, and I 
hope we can do something. Money you propose is to zero out the 
BLM Range Improvement Fund and to amend FLIPMA so that grazing 
receipts are deposited rather than going to improvements. That 
approach was defeated last year. Why are you bringing it up 
again?
    Secretary Norton. That is an approach of having funds not 
to be earmarked for particular purposes, but instead, have that 
be done through the regular appropriations process. We have 
provided funding that is not specifically targeted funding or 
mandatory spending for that.
    Senator Thomas. Well, as you know, there is a feeling that 
if you pay the leased lands, you kind of like to have some go 
back into the Range Improvement from those fees. And as I said, 
it didn't pass last year, so I guess it's a question again. 
Does the Historic Preservation Act allow use of those funds for 
national heritage areas?
    Secretary Norton. I'm not sure I follow your question.
    Senator Thomas. The National Historic Preservation Act, 
does that allow you to use historic preservation funds to pay 
for heritage areas?
    Secretary Norton. Let me ask John Trezise to respond to 
that question.
    Mr. Trezise. Senator, as you know, we have a proposal to 
group together the three historic preservation-related outreach 
programs that we have: The Save America's Treasures Program, 
the Heritage Area Program and the Preserve America Program, 
which provides funding for heritage tourism. So that we have 
synergy between the programs, we've grouped them together under 
the Historic Preservation Account. This is a proposal, as part 
of the appropriations process, to provide authority to use 
Historic Preservations funds to fund the heritage areas. 
However, the key purpose is not the funding mechanism, but the 
programmatic benefits that we think will come from linking the 
three programs together.
    Senator Thomas. Well, that's good. I guess that was sort of 
the follow-up to that, what changes should we make in the 
heritage areas to benefit this management issue. And we've 
proposed some kinds of changes, some kind of criteria for 
managed heritage areas so that they do reflect some national 
need and national benefit.
    Secretary Norton. We think it's beneficial to have the 
criteria for the heritage areas and do appreciate the move 
toward legislation that would clarify what we mean by a 
heritage area. The Preserve America funding and the grants 
under that are somewhat different. Instead of creating an 
ongoing Federal involvement in particular areas, we would be 
providing essentially year-by-year competitive grants that 
might be smaller amounts for particular areas.
    Senator Thomas. Good. Well, I hope we can work together to 
make that program be a little bit more efficient. One of the 
things that over the years has been a high priority for the 
parks, of course, has been maintenance backlog. For 5 years 
we've been addressing the backlog and having funding there; 
where are we on terms of doing something with backlog?
    Secretary Norton. We have a chart that shows our 
maintenance backlog funding over time.* We have been working to 
see that our facilities are in improving condition. The 
condition of our facilities is the best measure, and we have 
been working to see that all of them are in an improved 
condition from the visitor perspective. Our proposal this year 
will move some funding from the repair and rehabilitation 
category over to the cyclic maintenance category, and that is 
to further make sure that we're focusing on preventing little 
problems from becoming big problems. One of the things we've 
learned over time is that by addressing problems early, we can 
avoid some of the bigger expenses that come up.
---------------------------------------------------------------------------
    * The chart has been retained in committee files.
---------------------------------------------------------------------------
    Senator Thomas. Where would you say in general terms are we 
compared to 5 years ago in terms of the backlog?
    Secretary Norton. Let's see.
    Mr. Trezise. Senator Thomas, 5 years ago, we didn't really 
know what the backlog was. There was much anecdotal evidence 
about large backlogs of $5, $10, $15 billion, but none of that 
was based on any kind of systematic evaluation of the condition 
of the parks. We have put in place a systematic and state-of-
the-art system for monitoring and evaluating the condition of 
parks. The Park Service is in the process and will finish this 
year a set of comprehensive condition assessments.
    Senator Thomas. So, you aren't prepared to measure the 
procedure, how much you've advanced over the last several 
years?
    Mr. Trezise. The baseline is a problem because we don't 
know where we started, but we believe, based on the work that 
the Park Service has done, that the condition of its assets 
overall has improved significantly, particularly with respect 
to visitor centers and other facilities.
    Senator Thomas. We really need some numbers sometime. 
Instead of just asking for more money all the time, we need to 
know what kind of progress we are making.
    Secretary Norton. Senator, we can now tell you that today, 
our facility condition index for non-road assets is .17 and for 
paved roads, it is .45.
    Senator Thomas. Compared to?
    Secretary Norton. That's the problem, it's ``compared to 
what,'' because we didn't use to have those kinds of measures.
    Senator Thomas. I see.
    Secretary Norton. We also have a significant advancement 
that we anticipate over the next few years because of funding 
from the highway bill. One of the significant aspects of the 
backlog is roads.
    Senator Thomas. That's great. I guess my point is that as 
we look at spending and look at budgets, we also have to look 
at performance and have to look at what's happening. So, we 
need to have some reports of what's been accomplished in 
addition to just requests for more money.
    Secretary Norton. We have undertaken and have completed 
almost 6,000 facility improvements over the last 5 years. We 
have many, many projects that have been completed across the 
country.
    Senator Thomas. Let's try and stay in touch on that. 
Senator Landrieu, are you going to do it again?
    Senator Landrieu. I am. I have a few more questions. If I 
could just hand you this map, Madam Secretary, I have some 
questions. I'm sorry I don't have one for all the members of 
the committee. One of the most important things this 
committee's going to decide is whether to open up additional 
areas in the Gulf of Mexico and under what terms and conditions 
that will be opened. And this committee is contemplating a 
markup on a piece of legislation that the chairman has put 
forward, and that debate will take place next week. If you'll 
look at the map that I've shaded under Lease Sale 181, which 
I'm factually referring to as 182 because it has no number, do 
you have any estimates of the resources that might be available 
in that section there?
    Secretary Norton. Yes, we do, and we will----
    Senator Landrieu. Directly south of 181?
    Secretary Norton. We will try to locate that. I know we do 
have an estimate for that. It's an area that has not had quite 
the extensive work that the other parts of Lease Sale 181 area 
have.
    Senator Landrieu. But do you have a rough estimate for the 
record this morning about--first of all, we confirmed minerals 
exist there. We do have an estimate. Do we know what it is?
    Secretary Norton. We do have that. We will provide it for 
the record, because I know somewhere in these documents, we 
have that number.
    Senator Landrieu. Okay, and if we could get that in the 
next few days, prior to this debate, because this committee is 
going to do a lot of work in this area trying to identify new 
possibilities in the gulf for oil and gas leasing and under 
what terms and conditions.
    Secretary Norton. This is, I believe, from Johnnie Burton's 
testimony on this legislation. The area south of the original 
Lease Sale 181--and these are based on the lines that we drew 
in our 5 year plan, but they're similar resource amounts--is 
estimated to have 700 million barrels of oil and 3.68 trillion 
cubic feet of natural gas.
    Senator Landrieu. So, almost 4 trillion cubic feet of 
natural gas is in an area just south of the proposed Lease Sale 
181?
    Secretary Norton. That's correct.
    Senator Landrieu. For the record, could you just restate 
what dollar amounts the interior States, I think starting with 
the highest State, which is New Mexico, is going to receive 
this year in terms of the revenue sharing that's on the books?
    Secretary Norton. The highest State is actually Wyoming, 
which in 2006 is estimated to receive almost $1.3 billion.
    Senator Landrieu. So, the State of Wyoming, under their 
revenue sharing plan that's been on the books for a while, is 
going to receive $1.3 billion next year?
    Secretary Norton. Yes.
    Senator Landrieu. And what about New Mexico?
    Secretary Norton. New Mexico is $655 million.
    Senator Landrieu. And what about Colorado?
    Secretary Norton. Colorado is $157 million.
    Senator Landrieu. And then in addition to those States, 
there are also some PILT payments. Although they're being 
decreased, there are PILT payments that come from the resource 
of timber, correct?
    Secretary Norton. The PILT payments are actually from 
general tax revenues, and they are appropriated based on a very 
complex formula.
    Senator Landrieu. Because of Federal land taken out of 
commerce, correct?
    Secretary Norton. That's correct, yes.
    Senator Landrieu. But the principle of sharing revenues 
that would otherwise be lost with States is a similar principle 
to minerals found.
    Secretary Norton. This is in essence because the local 
governments cannot levy property taxes against the Federal 
Government as they would against any other property owner. 
These are payments in lieu of those property taxes.
    Senator Landrieu. And are there any payments being received 
today by Texas or Louisiana or Mississippi or Alabama outside 
of their State waters?
    Secretary Norton. They are receiving funds for the 8(g) 
area, which would be the first three miles of Federal waters in 
which there's revenue sharing.
    Senator Landrieu. And do you have a record of how much that 
is per State?
    Secretary Norton. Louisiana received approximately $2.3 
million for 2006. Texas, almost $8 million.
    Senator Landrieu. Say that again. Two what?
    Secretary Norton. $2.3 million.
    Senator Landrieu. $2.3 million is what Louisiana would 
receive relative to the numbers that you just spoke about, the 
Western States, the $1.3 billion for Wyoming? Okay. And what is 
the volume of either a trillion cubic feet of gas or oil 
produced off the coast of--like off of the two planning 
regions? Do we have those totals for 2006, the resources 
themselves, from the central planning and the western planning? 
What are we estimating in that way?
    Secretary Norton. I don't believe we have those broken down 
at this point right now. We could provide those for the record.
    Senator Landrieu. Okay. And Mr. Chairman, as you know, 
because we've worked together on this issue, this discrepancy 
between the interior States and the coastal States, basically 
doing the same thing, offering themselves as platforms for an 
industry to produce the oil and gas necessary to keep this 
economy going, really needs to be fixed, and it's long past the 
time. And so, I'm hoping as we move my colleagues to this 
debate next week, we will come up with a fairer way to allocate 
these resources based on the contributions that our interior 
States and our coastal States are making to the economic 
security of the Nation, and I'll submit a further statement to 
the record on that. Thank you.
    Senator Murkowski [presiding]. Thank you, Senator Landrieu. 
Madam Secretary, this committee heard some testimony, I guess 
it was a couple weeks ago, about the fire situation and talking 
about the Federal plan to restore the fleet of retardant 
tankers, looking to retrofit the retired military aircraft. And 
certainly, this proposal is better than having none. We want to 
make sure that they're safe and working with you in that. We 
also learned about the Department's plan, in conjunction with 
the USDA, to procure the new tankers, and I understand that 
this is a process that could take us potentially 10 to 15 
years. And in that hearing, we took a look at the fire 
prediction or the fire threat for this next year. And from the 
lower 48 perspective, it doesn't look good. Certainly, from 
Alaska's perspective, that swath that they're predicting is 
worse than ever. So, of course we want to know that we are on 
top of it. Why is it that it takes us--or why is it that we are 
looking at a 10- to 15-year period in order to have a new 
tanker fleet?
    Secretary Norton. Our tankers--and especially the smaller 
tankers that we are talking about as the new, more mobile 
approach for our system--are ones that are owned by the private 
sector. This is purchasing that would take place by private 
companies, and then they would become available for the Federal 
Government to utilize. We've been working with the companies on 
these newer generation models.
    Senator Murkowski. Is there any way to speed it up?
    Secretary Norton. We believe we have adequate resources 
that are available this year for addressing our fire situation. 
We are doing a better job in deploying our aircraft and making 
sure that we have strategized where the best places are to have 
our aircraft, other facilities, and other resources located at 
any particular point in time. The results that we've seen by 
using these newer aircraft have been very good. We have a 
minimum of 782 fire aircraft available this season, and 223 of 
those are exclusive-use contracts including 16 large air 
tankers.
    Senator Murkowski. Let me ask you a question about--and 
this is not necessarily a budget issue so much as a management 
issue, and this relates to the Indian Reservation Roads Program 
within the Bureau of Indian Affairs. The tribes in Alaska have 
been complaining for years that in an effort to get an 
inventory, an accurate inventory upon which the funds are 
released, you basically--it's based on the inventory system. We 
haven't been able to get an accurate inventory for our Indian 
Reservation Roads, and so, as a consequence, we don't see the 
dollars there. I understand that submissions have been made to 
look at the Alaska roads, but they've been rejected. And I 
understand that this is not just an Alaska issue, but that 
other tribes in the lower 48 have also submitted their requests 
for a new inventory, and those have been rejected. I guess I 
would just ask you to be aware of this, look into the 
situation, and let me know what is being done to deal with this 
situation. It's going to be important to us, and we just can't 
seem to get that traction that we need to get an updated 
inventory.
    Secretary Norton. Okay. And thank you for bringing that to 
my attention. I will look into that.
    Senator Murkowski. Just one last thing to put on your list 
of things to be following, at the Indian Affairs budget hearing 
a couple weeks ago, I brought up my objections at that time to 
the proposed elimination of the Johnson-O'Malley Program. I get 
so many constituents--I met with some this morning--who have 
expressed great concern about elimination of this program 
that's been around since 1934. What we've been told is that 
really the only reason that the Department is suggesting 
eliminating the program is that you've been unable to collect 
the data to find out whether or not it's been working. So, I 
guess I would suggest that perhaps a better approach to it is 
to get the data before just eliminating the program. Again, 
just leaving you with the concerns that we have about 
elimination of that program.
    Secretary Norton. That may be one aspect of the evaluation 
of the program, but it primarily is a question of duplication 
with Department of Education funding. Their Impact Aid Program 
for Federal and Indian land is expected to provide payments to 
districts of about $548 million. They have a very significant 
program that is similar to our Johnson-O'Malley Program.
    Senator Murkowski. Well, what we've been told by the 
Department of Education is that they don't have a duplicate 
program. We've got a difference in an approach there, but it's 
important that you know how important this program is to so 
many in my State.
    Senator Salazar, and then we'll go to Senator Alexander.
    Senator Salazar. Thank you, Senator Murkowski. Secretary 
Norton, I want to spend a few minutes with you on the Land and 
Conservation Fund stateside program. Last year, when the 
administration suggested that the program be zeroed out, there 
was a finding by DOI that the results had not been 
demonstrated. I think that was the language in the report. This 
year, the Park Service has acknowledged that the stateside 
grants program indeed delivers excellent results. We went 
through a battle on the Land and Water Conservation stateside 
program last year and ultimately were able to restore funding 
into that program. I will just tell you that I expect we'll go 
through that same fight again because I think this is a high 
priority to our Nation as we continue to try to protect and 
preserve important lands. And I would ask you why it was that 
given the findings that this was a program that delivered 
excellent results, that you've come forward with a 
recommendation that the program be zeroed out.
    Secretary Norton. This is a program that, you know, I 
personally think is a good program. It is one that is much more 
capable of being scaled depending on how much funding is 
available, and it is not something that has significant amounts 
of full-time employees. It is largely a land acquisition 
program, so it's something that can be adjusted upward and 
downward, depending on funding availability much more so than 
most of our other programs.
    Senator Salazar. It's a funding priority issue.
    Secretary Norton. It was evaluated by OMB through its PART 
program. That evaluation has not changed, and so I'm not sure 
exactly what you're talking about in terms of a change between 
this year and last year.
    Senator Salazar. It's actually an acknowledgment that was 
made by the Park Service of the efficiency of the stateside 
Land and Water Conservation Program. But let me just say that 
for me, that's a very important program and, I know, for 
Senator Alexander, who's been a great leader and defender of 
the stateside Land and Water Conservation Fund Program, and 
we're going to continue to work on that issue with you.
    Let me move on to another question. Sometimes I disagree 
with the administration, sometimes I agree with the 
administration. As I told the President last week, I agreed 
with his statement that we need to get rid of our addiction on 
foreign oil, in his State of the Union, and I look forward very 
much to working with him and Secretary Bodman and others to get 
us to that end. I have a question with respect to Lease Sale 
181 and the legislation that this committee will be dealing 
with in a markup next week. And I know it's a controversial 
issue, not exactly sure how it's going to come out. My question 
to you is this: I understand from my colleagues that there will 
be Federal revenue somewhere in excess of $4 billion that could 
come from the leasing of Lease Sale 181 and the royalties from 
that area; would it be, in your mind, worthy of consideration 
to designate perhaps half of those revenues or a percentage of 
those revenues into a renewable energy and technology fund? It 
seems to me that that would be very consistent with what we 
collectively believe, Republicans and Democrats, we need to do 
that to get our way to energy independence by investing more in 
technology and more in renewable energy.
    Secretary Norton. The offshore revenues are ones that, 
first of all, need to have new areas of development in order to 
maintain a constant level. The decline in natural gas 
production, especially in the Gulf of Mexico, is very steep. 
When we have a new well that comes online, it produces a lot 
for a fairly short amount of time and then declines. Just to 
maintain the current levels of natural gas production we have 
from the Gulf of Mexico, we need to have new areas. The revenue 
projections from this area, from which we do anticipate 
significant amounts from a lease sale, would be within about 
the same budget amounts that we would anticipate, essentially 
what the Federal Government is already projecting.
    Senator Salazar. And I'm certain before we get to our 
hearing next week that we'll have more information on what 
those projections are. I would appreciate you sharing those 
revenue projections with me, but also with the committee, 
because I think that's one of the things that we're going to be 
grappling with in terms of how we ultimately decide to vote on 
Senator Domenici's and Senator Bingaman's proposal.
    Secretary Norton. Well, I do know that there are a lot of 
discussions taking place about those revenues and certainly, 
revenue sharing with the States has been a very significant 
aspect of those discussions as well. We'd be happy to provide 
the revenue projections for you.
    Senator Salazar. I'll just conclude with this comment. The 
President visited the National Renewable Energy Lab in Colorado 
10 days ago or so, and I think he was very impressed with the 
technology development that's going on at NREL and how we end 
up deploying that research and technology out into the private 
market. And creating incentives is, I think, one of the 
challenges that we face in our Nation and that we are going to 
face as an energy committee, that you face as the Secretary of 
the Interior. So, I hope to be able to work with you on that 
agenda in the future, and I appreciate your participation in 
the committee hearing this morning.
    Secretary Norton. Thank you.
    Senator Alexander. Thank you, Senator Salazar. Madam 
Secretary, I'm all that's standing between you and lunch, so I 
welcome the opportunity to ask you a few questions, but I'll 
try to keep them brief. Do you have further questions, Senator 
Salazar, that you'd like to ask?
    Senator Salazar. I do have one or two more questions.
    Senator Alexander. Okay. Well, let me go ahead with these, 
and then we'll go back to Senator Salazar. Let me make sure I 
understand what you said about the revenues from Lease 181. Say 
that again. How much money is there going to be, or did you say 
that you were going to--what did you say? I didn't quite 
understand it.
    Secretary Norton. There would be two sources of revenue 
from that. One would be bonus bids from a lease sale. I don't 
know if we have a projection for those amounts, but they would 
probably be fairly significant amounts. The second is the 
ongoing revenue from royalties that----
    Senator Alexander. Which would be on down the road a little 
bit.
    Secretary Norton. On down the road, yes.
    Senator Alexander. But you would expect significant new 
revenues from bonus bids?
    Secretary Norton. Yes, we leased an area that--it was a 
smaller part of the original Lease Sale 181 and received, I 
believe, about $340 million in bonus bids from that area, so I 
know there is significant interest. We would anticipate 
similarly high bonus bids in this area.
    Senator Alexander. Thank you. I have three or four areas 
that I want to touch briefly. And if I don't get finished, I'll 
go to Senator Salazar, then come back for the last of it. Let 
me go to the first one, which is the difficult issue of the so-
called Road to Nowhere in the Great Smoky Mountain National 
Park. And the reason I'm going to bring it up is not because I 
think you can resolve it today or tomorrow, but just to remind 
us all that the Federal Government does have a commitment to 
Swain County, North Carolina. But since 1946, the Supreme Court 
has said that the Federal Government doesn't have to build a 
road to fulfill that commitment, and the Supreme Court said in 
a lawsuit on that very question that a common-sense adjustment 
would be appropriate. And that's been the case for 40 years 
now, and no common-sense adjustment has been made. I think it's 
time that we go ahead and come to some conclusion about this. 
The National Park Service is in the middle of collecting 
comments about it.
    I know there's disagreement from elected officials, but I 
just wanted to emphasize that the Great Smokies are different 
than any other park in several ways, but one way is that it's 
the only park that was given to the United States by the people 
of Tennessee and North Carolina in the two States. And the 
Governors of both States that gave the land for the park have 
said they endorse the idea of a cash settlement to Swain 
County, and they're opposed to the idea of a $600 million road 
through the Great Smoky Mountain National Park. The Swain 
County elected officials have said they endorse the idea of a 
settlement. Senator Frist and I both are for a settlement and 
opposed to the road. It seems to me it's entirely impractical 
to even imagine that there could possibly be a $600 million 
road through the Great Smoky Mountain National Park for, among 
other reasons, that it is 75 times the annual roads budget for 
the Great Smoky Mountain Park and three times the amount of the 
roads budget for the entire National Park Service.
    So, it would be my hope that we could recognize that it 
would be a waste of money, and unnecessary because there's a 
good road right on the other side of the water connecting the 
same points, and an environmental disaster if we did it. I 
would hope that over the next few months that maybe you could 
become a Henry Kissinger-type diplomat and bring this to some 
sort of conclusion. And I think the conclusion should not be to 
build any road. Even a short road costs $100 million, which is 
half the entire budget of the National Park Service for roads. 
So, I think a settlement with Swain County, which the elected 
officials say they want, the Governors of both States say they 
want--those are the parties to the agreement. The Federal 
Government really has less of an interest in this than the 
States and the local governments do in this unique situation. I 
wondered if you had any comment on that.
    Secretary Norton. I recognize there are strongly-held views 
on both sides of this issue. The Park Service is expecting to 
close its comment periods this month on its environmental 
analysis. I would hope that the delegations of Tennessee and 
North Carolina could find a unified position on this issue.
    Senator Alexander. Well, I'm sure you would hope that, but 
I just want to emphasis that in this case, the States that gave 
the park to the country, the Governors of those States and the 
elected officials of the county to which the obligations is 
owed say that the settlement is the better conclusion.
    Senator Salazar, do you have additional questions you'd 
like to ask?
    Senator Salazar. I do. Senator Alexander, thank you very 
much.
    Secretary Norton, this is a question related to the 
proposed changes and policies for the management of the 
National Park Service. It seems that for a hundred years the 
National Park Service has abided by the principle of do no 
harm, and the protection of the park resources has been 
essentially the value that has superceded all other values with 
respect to the national treasures of our country. The proposed 
revisions, which are now out for comment, I believe, by the 
National Park Service, from the point of many of us, from our 
perspective, it would take a retreat from that long-standing 
doctrine of protecting our national parks, and I would ask you 
if you would want to comment on the justification for moving 
forward with the proposed changes in the National Park 
Service's management policies.
    Secretary Norton. The policies that are currently being 
considered are ones that were formulated with the involvement 
of a hundred career employees of the National Park Service. 
They are going through a continuing process, and we believe 
reach the right point in saying we have the dual missions of 
the Park Service, which have always been both preservation and 
enjoyment, and we think those are goals that are achieved under 
these policies. We look forward to having continuing input on 
exactly the way in which those policies meet those goals.
    Senator Salazar. Can you give the committee a sense of 
timing with respect to how the Department of the Interior and 
the National Park Service intend to move forward to conclusion 
of the new proposed rule?
    Secretary Norton. We've just recently concluded the comment 
period, which was 120 days. The Park Service is going to be 
analyzing those comments. And then, these policies will be 
reviewed by the National Leadership Council, which are the 
leaders, the regional directors and other senior officials 
within the Park Service and also by the National Park Service 
Advisory Board, and then there will be a service-wide review 
before the release of a proposed final draft. There's a very 
extensive process continuing of review of those policies.
    Senator Salazar. Do you have a sense of how long it's going 
to take to go through those various levels of review?
    Secretary Norton. I'd say that's another 6 months or so 
probably.
    Senator Salazar. Okay. I would ask you, Madam Secretary, to 
keep me informed, and I'm certain that members of this 
committee, as well as the Subcommittee on National Parks, would 
be very interested in getting information.
    Secretary Norton. We've certainly planned a very open 
process with a lot of input in that process, and we'd certainly 
look forward to working with you all on that.
    Senator Salazar. Okay. Well, I appreciate that very much 
and also look forward to a summary of the comments that you've 
received, I'm sure, from throughout the Nation on this very 
important issue. I will tell you it is one issue that I will be 
watching carefully and hopefully getting us as a Nation to 
reach the right result in terms of the protection of our crown 
jewels in America. Mr. Chairman, I think that's all the 
questions I have.
    Senator Alexander [presiding]. Thank you, Senator Salazar. 
While you're still here, let me pick up on two of the areas 
that you talked about. One is the Land and Water Conservation 
Fund. In Tennessee, we very strongly support the State side of 
the Land and Water Conservation Fund. We have a lot of rapidly 
developing open space around the Great Smoky Mountain National 
Park that the citizens of our State and the Governor and the 
legislature would like to acquire to provide a buffer zone for 
the park. That would be the view of virtually everybody in our 
highly Republican area there. I'm a strong supporter of it and 
was, as we've discussed before, Chairman of President Reagan's 
Commission on the American Outdoors in 1986, which recommended 
that we set aside a billion of offshore drilling in a mandatory 
way so that we could fully fund the Federal and the State side 
of Land and Water Conservation Fund.
    Now, insofar as Lease 181--and I'll be working with Senator 
Salazar to try to see if we can restore some of the funding for 
the State side of Atlanta water, but as far as Lease 181, 
before we get to spending all that money for other good 
purposes, I think it's important to recognize that we already 
have in the law provisions that say that the Land and Water 
Conservation Fund is supposed to be funded from revenues from 
leasing of the Outer Continental Shelf. Now, it's not 
mandatory. It has to be appropriated every year, but it would 
seem to me that before we start spending new revenues for other 
purposes, that we ought to recognize the existence of a 
conservation royalty and spend some of that money to properly 
fund the Federal Land and Water Conservation Fund.
    Now, the other area you mentioned, Senator, and I want to 
ask the Secretary about this, the concern about the management 
policy of the National Park Service is not just a concern on 
the Democratic side. I wrote a letter with six other Republican 
Senators in October to the Secretary expressing concern about 
it. The whole process got off to a terrible beginning. If it'd 
been at the Grand Ole Opry, it would have been a warm-up act, 
it would have emptied the house. And Fran Mainella has worked 
very hard, and the professional staff there has worked very 
hard to explain the process to those of us who are concerned, 
and I respect that, and I respect the efforts, and I appreciate 
the time they've put into it, but because it got off to such a 
bad start, it's making us more skeptical about it.
    And Madam Secretary, you said something I want to make sure 
you said, that there's the dual mission of conservation and 
enjoyment. That's not what the Organic Law says. The Organic 
Law says that when there's a conflict between conserving 
resources and values and providing for enjoyment of them, 
conservation is to be the predominant. That's been the law 
since 1916.
    Secretary Norton. No, sir. If I can--
    Senator Alexander. You didn't mean to lower the status of 
conservation in your statement, did you?
    Secretary Norton. May I quote for you the exact language of 
the statute? ``To conserve the scenery and the natural and 
historic objects and the wildlife therein and to provide for 
the enjoyment of the same in such manner and by such means as 
will leave them unimpaired for the enjoyment of future 
generations.''
    Senator Alexander. But don't you agree that since 1916, 
that's always been interpreted to mean that where there is a 
conflict between conservation and enjoyment, that conservation 
has been the predominant value?
    Secretary Norton. That is a much more recent interpretation 
than 1916.
    Senator Alexander. Well, then we have a big difference of 
opinion about the management policies because it has been my--
maybe this is a subject that we ought to have another 
discussion about. You don't agree with that?
    Secretary Norton. Senator, perhaps I can clarify. What we 
are talking about is making sure that we are preserving things 
and not impairing for future generations, but not every 
decision is going to be one that will always put preservation 
as the only thing that really matters, because otherwise, we 
would close our parks and not let people come in. We have to 
make sure that we are both providing for current and future 
enjoyment, as well as having conservation of those resources.
    Now, on a practical level, I think that there is a great 
deal of agreement, and we have managed our parks in a way that 
has a huge amount of protection for our resources. Our park 
policies are written by people who care so tremendously and so 
deeply about their parks, and our park policies put in the 
hands of the park superintendents the important decisions about 
the management of resources. You can't find a group of people 
that are more committed to protection of their parks than our 
career park employees. That's the basis for our management 
policies.
    Senator Alexander. Well, I agree with you about the 
personnel, and I agree with you about practicality and of the 
hundreds of park areas, many are different and should be 
treated differently. Some places are wilderness areas, and some 
places have snowmobiles, and I understand that. That's all 
practical. But it has been my view that since 1916 and the 
Organic Act, that the management policies of the National Park 
Service have unambiguously provided that the conservation of 
park resources is the National Park Service's primary purpose. 
That doesn't mean there's no other purpose to be served, but if 
one had to say what is the primary purpose of the National Park 
Service, the predominant purpose, I've always thought it was 
conservation of park resources.
    Secretary Norton. A key part of the mission is conserving 
those resources and providing for their enjoyment to make sure 
that those resources are conserved for the long term. I think 
we're saying basically the same thing.
    Senator Alexander. Well, I'm not sure that we are, with all 
respect, because that's the fundamental issue in the management 
policies. The first question is why we even need a review of 
management policies this quickly, and the second--really, 
almost all of the issues that have--almost all the concerns I 
have have to do with the rewriting of the management policies, 
and it come down to whether it's still true that conservation 
is the predominant purpose of the National Park Service. And if 
that's not true, then I imagine it would be very difficult for 
park managers all throughout the country to have a clear 
understanding of what their priorities ought to be.
    Senator Salazar. Senator Alexander?
    Senator Alexander. Yes, sir.
    Senator Salazar. If I may, you know, I very much agree with 
your perspective, and in my own reading of the 1916 Organic 
Act, I think it's very clear that that was the mission that was 
given to the Park Service, and I think that that's why we've 
had this doctrine of do no harm, which has become a guiding 
principle to all park employees. So, I agree with your 
interpretation of what the doctrine is for our National Park 
System.
    And that's why I think you have heard, Secretary Norton, 
with all due respect, such a great concern that has been raised 
among Republicans and Democrats and everyone else about what we 
believe is a diminution and change in the standard that applies 
to the National Park Service. And so, that's why this, as you 
move forward to the final rule, is something which I think a 
lot of us have question marks about.
    Secretary Norton. We believe very strongly in the 
protection of our National Park system and in making sure that 
that is an enduring system for the long-term future of this 
country. Within that, some of the day-to-day decisions are 
difficult ones that need to be weighed and balanced by local 
park managers. And we've gone through an extensive process of 
involving those park managers and the very experienced regional 
directors that we have to try to provide guidance. We have, 
within these new policies, taken into account things like 
Homeland Security, things like my approach in believing that we 
should involve local communities and work with cooperative 
conservation, that we ought to be reaching out and having input 
from a variety of different people as we make our decisions. 
And those things are reflected in our policies, and we look 
forward to input as we bring those policies into their final 
stages.
    Senator Alexander. Senator Thomas is planning another 
hearing in his subcommittee on these policies, and I'm looking 
forward to that hearing. For example, if--not to belabor this, 
but if Homeland Security is equal to conservation, then you 
could build a row of cell towers right across the Great Smoky 
Mountain National Park. If conservation is predominant, you'd 
look for different ways to deal with that, or you'd disguise 
the cell towers so they couldn't be seen. So, whether the 
predominant goal is conservation is a very important decision 
to me in any event, and that's a subject that we can discuss at 
the hearing. And as I said, I do appreciate the work Fran 
Mainella and her team have been doing. They've been diligent 
about keeping us informed about the process they're going 
through, and I'm hopeful that the result will be a good one.
    Do you have other questions, Senator Salazar, before we 
adjourn the hearing?
    Senator Salazar. Thank you, Senator Alexander.
    Senator Alexander. Madam Secretary, thank you for coming, 
and thank you for staying such a long time. We appreciate your 
appearance very much.
    Secretary Norton. Thank you.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]

                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

     Responses of the Department of the Interior to Questions From 
                            Senator Domenici
                       Bureau of Land Management

                               OIL SHALE

    Question 1. You are aware of my interest in oil shale and making 
sure we have programs in place that will give every opportunity for 
developing this vast American resource. I appreciate that you have seen 
fit to increase funding by $3.3 million in your request.
    Can you discuss what the Department is doing with respect to oil 
shale?
    Answer. Prior to the EPAct 2005, the BLM initiated an Oil Shale 
Research, Development and Demonstration (R,D&D) program. The R,D&D 
program allows small tracts to be leased for oil shale research, 
development and demonstration, pursuant to BLM's authority to lease 
Federal lands for oil shale development under section 21 of the Mineral 
Leasing Act, 30 U.S.C. 241. Following announcement of the R,D&D program 
in the Federal Register on June 9, 2005, the BLM received 20 
nominations. On January 17, 2006, 8 nominations were selected for 
further consideration and evaluation. On March 23, 2006, two 
nominations were eliminated from further consideration. Following 
further evaluation and NEPA analysis of the remaining nominations, 
R,D&D lease issuance is anticipated to begin in the summer of 2006.
    Congress directed that the Secretary complete a Programmatic EIS 
(PEIS), the purpose of which is to analyze impacts of a commercial 
leasing program for oil shale and tar sands resources on public lands, 
with an emphasis on the most geologically prospective lands in 
Colorado, Utah, and Wyoming. The Oil Shale and Tar Sands Resource 
Leasing PEIS currently being developed meets this mandate. The BLM 
published a notice of intent for a PEIS for commercial oil shale 
leasing in the December 13, 2005 Federal Register. We have already 
completed public scoping meetings, and established a PEIS website.
    Upon completion of the PEIS, the Secretary has been directed to 
publish final regulations establishing the commercial oil shale and tar 
sands leasing programs. The Bureau of Land Management is in the 
preliminary stages of development of the regulatory framework for 
commercial oil shale and tar sands leasing program.
    Question 2. What kind of response have you received from industry?
    Answer. The response from industry has been positive, indicating a 
significant interest in obtaining commercial oil shale leases. As 
discussed in the response to question 1, there were 20 proposals 
submitted to the BLM's June 9, 2005, Federal Register Notice seeking 
oil shale Research, Development, and Demonstration lease proposals.

                       PAYMENTS IN LIEU OF TAXES

    Question 3. I'm disappointed in the cut proposed in this year's 
PILT request. Let's not forget that just as budgets are tight here in 
Washington, they are also tight in rural America. As long as there are 
federal lands in these counties, this nation has an obligation to 
provide local governments funding for the important role they play in 
providing public services on lands they do not own and over which they 
cannot levy property taxes.
    Why does the Department propose reductions in PILT, please tell me 
what your thinking is here?
    Answer. The 2007 budget proposes $198.0 million for the Payments in 
Lieu of Taxes program. Although this is $34.5 million below the 2006 
record high level, it is well above historical funding levels. In FY 
2000, PILT was funded at just under $134 million. Our proposed FY 2007 
level represents about a 47% increase over that amount. As part of the 
President's effort to reduce the budget deficit by half over five 
years, the 2007 budget for the Department makes difficult choices, and 
this was one of them.
    Question 4. Does this represent a change in commitment to counties 
that over time we can anticipate the administration to further reduce 
PILT funding?
    Answer. No. While I cannot commit the administration with regard to 
future budgets, I can assure you that the administration continues to 
be committed to the program, as evidenced by the funding level proposed 
in the FY 2007 budget.

                         LEGISLATIVE PROPOSALS

    Question 5. Your budget request includes a number of legislative 
proposals that would affect spending levels in future years. These 
proposals to remove or change the mandatory funding for:

  <bullet> the BLM project office program established in the Energy 
        Bill to address drilling permits;
  <bullet> the range improvement program that has been funded from 
        grazing receipts for 30 years; and
  <bullet> conservation programs provided through the sale of federal 
        land suitable for disposal.

    Your Department has proposed to amend these laws to make treatment 
of these funds a discretionary rather than mandatory matter. I believe 
the availability of these funds is essential to maintaining a solid 
foundation for management of public lands.
    What is your thinking here?
    Answer. With regard to the BLM project office program, the 
administration's proposal is to replace the mandatory funding provided 
by the Energy Policy Act with cost recovery from APD processing fees 
effective at the end of 2007. The administration will be requesting 
authority to conduct a rulemaking to phase in full cost recovery for 
APDs, beginning with a fee amount that will generate an estimated $20 
million, replacing the amount provided by the Energy Policy Act. This 
proposed increased reliance on cost recovery is consistent with the 
findings of previous Inspector General reports and the 2005 PART review 
of this program, which found that the program does not adequately 
charge identifiable users for costs incurred on their behalf.
    With regard to the range improvement program, the budget for BLM 
proposes to discontinue mandatory appropriations from the Range 
Improvement Fund totaling $10.0 million annually. Instead, revenues 
will be deposited to the U.S. Treasury. The BLM's new grazing rule will 
allow permittees to share title to certain range improvements. 
Therefore, this will encourage permittees to bear more of the cost of 
these improvements in the future.
    Finally, the proposed FY 2007 budget proposes changes to the 
Federal Lands Transaction Facilitation Act (FLTFA). The administration 
will propose legislation to amend BLM's land sale authority under the 
FLTFA. The legislation will both expand the public lands available for 
disposal under FLTFA and change the distribution of the proceeds of 
those sales. Under the Act, BLM is currently limited to selling lands 
identified for disposal in land-use plans that were in effect prior to 
the enactment of FLTFA, and makes the proceeds available for the 
acquisition of other non-Federal lands within specially-designated 
areas such as national parks, refuges, and monuments. The 2007 budget 
proposes to amend FLTFA to: allow BLM to use updated management plans 
to identify areas suitable for disposal; allow a portion of the 
receipts to be used by BLM for restoration projects; return 70 percent 
of the net proceeds from the sales to the Treasury; and cap receipt 
retention by the Department at $60 million per year. This proposal will 
minimize the amount of Federal spending not subject to regular 
oversight through the appropriations process and will ensure that 
taxpayers directly benefit from these land sales.
    Question 6. My concern is the effect of eliminating the 
availability of the funds during times of lean budgets. How would this 
be good for the resource you are trying to manage?
    Answer. As described above, with regard to the permit office 
program, we expect appropriate user fees will take the place of 
mandatory funding and result in no lessening of availability of funds 
and, with regard to the Range Improvement Fund, that permitees will be 
induced to invest in range improvement projects. With regard to FLTFA, 
the proposed amendments would allow BLM to use a portion of the sale 
proceeds to fund resource restoration projects, which FLTFA currently 
does not allow.

                      Minerals Management Service

                          EPACT IMPLEMENTATION

    Question 7. In the Energy Policy Act of 2005, we established a 
Coastal Impact Assistance Program that provides $1 billion to coastal 
states over a period of four years.
    The Department's FY 2007 budget request states that MMS will 
continue to develop program guidelines begun in 2006 to apply a formula 
to disburse this money to coastal states.
    Please comment on the status of these guidelines.
    Answer. MMS recently sent draft guidelines for the Coastal Impact 
Assistance Program (CIAP) to the States of Alaska, California, Texas, 
Louisiana, Mississippi, and Alabama. MMS will work with each State and 
evaluate the written consolidated State responses before developing 
final CIAP guidelines. We project that the final guidelines will be 
made available by the fall of 2006. As directed under the Energy Policy 
Act of 2005, the Governors of each State will carry out a public 
consultation process to elicit the view of their citizens. This input 
will be critical to the development of priorities and the use of the 
CIAP funds to be included in the State's Coastal Impact Assistance 
Plan.

                            ROYALTY PAYMENTS

    Question 8. What steps has the Department of the Interior taken to 
ensure that the Federal Government is receiving all payments of 
royalties due under all applicable federal laws?
    Answer. The Minerals Management Service (MMS), through its office 
of Minerals Revenue Management, ensures that revenue from Federal and 
Indian mineral leases is effectively, efficiently, and accurately 
collected, accounted for, and disbursed to recipients by routinely 
performing compliance reviews and audits. Compliance reviews are 
designed to determine if the royalties received are in reasonable 
compliance with the laws, lease terms, and regulations. For royalties 
paid in-value, compliance reviews apply a series of tests to the 
volume, royalty rate, value, and allowances to determine if the royalty 
payment is reasonable on a property basis. For royalties received in-
kind, MMS applies a series of tests designed to assure that it has 
received the proper royalty volume for the contract.
    The MMS, States, and Tribes, also perform audits, in accordance 
with the Generally Accepted Government Auditing Standards. Audits are 
performed on specifically targeted companies or properties, many times 
resulting from a compliance review. In addition, MMS randomly selects 
companies targeted for audit. Audits can also include gas plants, 
transportation systems, and issue-based audits.
    The MMS will continue to aggressively pursue its mission of 
providing for the timely and accurate collection, distribution, 
accounting for, and auditing of revenues owed by holders of mineral 
leases on Federal onshore, offshore, and Indian lands.

                              OCS AREA 181

    Question 9. I am concerned about a news report from March 1, 2006 
that suggested that the Department believed that the timetable for 
leasing in 181 under S. 2253 would be the same as under the 5-year 
plan.
    Please clarify the difference in size of the area in 181 offered 
under S. 2253 versus the area offered under the draft proposed plan.
    Answer. S. 2253 would make 3.6 million acres available for lease. 
Under the bill, leasing in the area east of the Military Mission Line, 
an area of approximately 725,000 acres, would be subject to the 
agreement and approval of the Secretary of Defense. Under the Draft 
Proposed Program (DPP) for 2007-2012, the additional area that would be 
available for leasing is approximately 2 million acres. The 1.5 million 
acres of the original Sale 181 area that was already offered for 
leasing under the current 2002-2007 5-year program would continue to be 
available under both proposals. Both S. 2253 and the DPP proposal 
maintain a 100 mile buffer zone along the Florida coast.
    Question 10. Most importantly, please clarify whether the 
Department intends to comply with a maximum one-year statutory deadline 
to lease the 181 area when Congress passes S. 2253.
    Answer. If enacted, MMS will move forward with implementation in 
the time frames established under the bill.
    Question 11. Finally, what is the earliest possible timeframe that 
the Department could offer parts of 181 without this 1-year requirement 
and what is the latest possible timeframe?
    Answer. The Draft Proposed Program for 2007-2012 proposes a sale in 
the 181 area in the fall of 2007.

                        OUTER CONTINENTAL SHELF

    Question 12. MMS requests $159.4 million in 2007 for OCS program 
activities, a net increase of $10.6 million above the 2006 enacted 
budget.
    Please comment on the factors that necessitate this increase.
    Answer. The net increase in OCS program activity funding includes 
an increase of $7.6 million to implement the Energy Policy Act, 
including $6.5 million to establish a comprehensive program to manage 
new and innovative alternative energy projects on the OCS and $1.0 
million towards a coordinated Departmental effort to accelerate 
research, resource modeling, assessment, and characterization of gas 
hydrates in the Gulf of Mexico and North Slope of Alaska. The budget 
also includes $2.1 million to fund helicopter contract increases 
associated with transporting inspectors to offshore oil and gas 
facilities at greater distances. The increase will also allow MMS to 
keep abreast of the innovative developments and environmental concerns 
in deepwater technology. The MMS also proposes a $1.5 million OCS lease 
sales initiative to prepare NEPA analyses necessary for the Gulf of 
Mexico and Alaska.
    Question 13. Please comment on what lessons the Department learned 
in the aftermath of Hurricanes Katrina and Rita with respect to 
operations on the OCS.
    Answer. Hurricanes Katrina and Rita confirmed that our offshore oil 
and gas industry produces environmentally safe energy for America. Even 
in the face of two back-to-back major hurricanes, there was no 
significant spill from production wells.
    In addition, the Katrina/Rita scenario confirmed that our domestic 
offshore oil and gas resources are key components in the energy mix 
which provide some of the basic necessities Americans have come to 
expect gasoline for our cars, heating fuel for our homes, and natural 
gas to cook our meals, power our factories, and generate the 
electricity that is critical to our way of life and critical to 
powering our advanced economy.
    As a result of the hurricanes, damage reports post-Rita have 
highlighted a problem with Mobile Offshore Drilling Units (MODU). 
Nineteen MODUs broke loose from their moorings and were set adrift, 
some causing damage to pipelines as anchors dragged along the ocean 
floor. Last November, the Department hosted a Conference on Mobile 
Offshore Drilling Units with other Federal agencies and industry to 
address MODUs and lessons learned. As a result of the conference, there 
is a strong commitment from both industry and the Federal government to 
continue to take short-term and long-term steps to improve the building 
of MODUs.

                       U.S. Bureau of Reclamation

                    INDIAN WATER RIGHTS SETTLEMENTS

    Question 14. Un-adjudicated Indian water rights claims in the 
western Untied States are a great source of uncertainty and are, in my 
view, the greatest impediment to effective water management. I have 
contacted you repeatedly regarding Indian water rights settlements and 
their great importance to the Reclamation States. As you are aware, 
there are three settlements that are near completion in New Mexico. 
These include the Aamodt, Abeyta and Navajo settlements.
    I am concerned that such a small amount of money was included in 
the President's proposed budget to fund Indian participation in the 
settlements. Many Indian nations rely heavily on Bureau and Indian 
Affairs 340 and 344 monies to participate in settlement negotiations.
    Acquiring water in the Rio Grande Basin is required for both the 
Abeyta and Aamodt settlements. Have you made any progress in either 
identifying or acquiring water to fulfill the terms these two 
settlements? If not, why? What is the status of the money that has been 
appropriated for water acquisition to date?
    Answer. A number of possible sources for water have been explored 
for fulfilling the needs of these two settlements. One option that is 
under consideration would be using the unallocated water from the San 
Juan Chama project for these settlements. The feasibility of this 
option, and others, is still being explored. Appropriated funds 
continue to be used to provide technical support for the settlement 
negotiations.
    Question 15. In general, what progress have you made with respect 
to the Aamodt, Abeyta, and Navajo settlements?
    Answer. Since the San Juan River settlement agreement was signed in 
2005 by the Navajo Nation and the State of New Mexico, without Federal 
agreement, Departmental staff has worked with the parties to identify 
potential Federal issues with the settlement agreement and proposed 
Federal legislation. The Pueblos and non-Federal parties for both the 
Aamodt and the Abeyta settlements plan to have signed settlements in 
the coming year. The administration believes that the Federal 
contribution proposed by the parties to these settlements is excessive.
    Question 16. How do you anticipate that the Indian nations will 
represent their interests in settlement negotiations with the small 
amount of money you have proposed for the 340 and 344 accounts?
    Answer. Last year, the Bureau of Indian Affairs issued guidance for 
preparing water program funding requests and refined the process under 
which it prioritizes the approximately 400 funding requests it receives 
annually for water program money. Our goal is to continue to support 
the highest priority activities while eliminating funding for duplicate 
work that the Bureau or other agencies have already accomplished and 
administrative overhead costs, which should not be a Federal 
responsibility.
    Question 17. How do you plan to secure a commitment from OMB that a 
reasonable federal contribution will be made available for Indian water 
rights settlements?
    Answer. The administration remains committed to the longstanding 
policy guidance on Indian water settlements, found at 55 Fed. Reg. 9223 
(1990), Criteria and Procedures for the Participation of the Federal 
Government in Negotiations for the Settlement of Indian Water Rights 
Claims (``Criteria''). Since the Criteria were adopted, the Executive 
Branch's policy has been, where possible, to support negotiated 
settlements between Indian water rights claimants, the Federal 
Government, and third-party claimants. The Federal Government also has 
specific responsibilities to ensure that such settlements meet the 
Government's responsibility to the tribe or tribes, and are fair to the 
entire taxpaying public. To this end, the Criteria provide guidance on 
the appropriate level of Federal contribution to settlements, 
incorporating consideration of calculable legal exposure plus costs 
related to Federal trust or programmatic responsibilities.
    As contemplated by the Criteria, consultations among the Department 
of the Interior, the Department of Justice and the Office of Management 
and Budget are ongoing. The administration will continue to work with 
affected parties and members of Congress to reach an appropriate 
resolution of settlement claims. As in past settlements, once a 
settlement has been agreed to and ratified by the Congress, the normal 
practice is to propose funding in the next budget cycle.

                           ISLETA SETTLEMENT

    Question 18. The administration has entered into a Settlement 
Agreement with Pueblo of Isleta regarding the Department of the 
Interior's alleged mismanagement of the Pueblo's lands and natural 
resources. While the Settlement Agreement was signed by the Department 
of Justice, your solicitor expressed your Department's support of the 
settlement in a letter.
    The Settlement Agreement calls for a payment to the Pueblo from the 
Permanent and Indefinite Appropriations for Judgments as well as a 
payment from Congressional appropriations through the Department of the 
Interior. Despite agreeing to this division of funding, your FY2007 
budget request includes no money to implement the Settlement Agreement.
    How many Settlement Agreements has your solicitor supported that 
require Congressional appropriations through the Department of the 
Interior?
    Answer. The Department does not maintain a database that enables us 
to answer this question precisely. Frequently, in settlements of Indian 
land or water rights cases, there is an understanding that the funding 
for parts of those settlements will come through the Department of the 
Interior's budget.
    Question 19. Why have you allowed your solicitor to support a 
settlement that you have not budgeted for?
    Answer. The July 12, 2005 settlement states that it is ``contingent 
upon ratification and approval by an Act of Congress and upon 
subsequent appropriation and payment to the Pueblo of the funds 
provided for in Section IV . . .''. It further states in Section IV 
that it is the Pueblo that will seek both the legislation authorizing 
the settlement and the legislation appropriating the necessary funds. 
The settlement process, in addition to addressing litigation 
settlement, also created an opportunity for the Pueblo and the Federal 
government to address certain program goals. Recognizing that the 
latter required the Pueblo's exploration of the normal budgeting 
process, the agreement gave the Pueblo through 2005 to seek 
Congressional ratification of their desired agreement. Congress has not 
enacted any legislation ratifying the settlement. It is not the 
practice of the Department to request funding for settlements that are 
subject to Congressional ratification that have not received that 
ratification.
    Question 20. Do you have plans to budget for this settlement, or 
any portion thereof, in FY2008?
    Answer. Since Congress did not ratify the settlement proposed by 
the Pueblo of Isleta, litigation has resumed in this issue and 
negotiations are underway. At this point, although we continue to 
evaluate possible program funding with the appropriate offices, it is 
too early to tell whether we will even have a viable settlement to 
budget for in FY 2008.
    Question 21. What FY2006 monies, or FY2007 requested monies, could 
be reprogrammed to support the settlement agreement your solicitor 
agreed to?
    Answer. Please see the answers to questions 19 and 20 above. Any 
potential agreement does not contemplate FY 2006 or FY 2007 money.

              NATIONAL RESEARCH COUNCIL REPORT ON THE USBR

    Question 22. As you are aware, the National Research Council, an 
arm of the National Academy of Sciences recently issued a far-reaching 
report on the USBR. The report contains assessments on human resources, 
stakeholder relations, outsourcing, policies, and management. The role 
of the USBR as a builder of large impoundments is largely over. We now 
need to focus more on maintaining existing infrastructure and reaching 
resolution among various stakeholders. I anticipate that we will 
schedule a hearing on this report late this spring.
    How do you plan to implement the recommendations contained in this 
report? Is this something that you can believe can be done 
administratively or do you need legislation to implement the findings 
of the report?
    Answer. Each of the recommendations contained in the NRC's report 
is addressed in the Managing for Excellence Action Plan that 
Reclamation published in February 2006. The Action Plan is available at 
http://www.usbr.gov/report/merweb.pdf. The Action Plan was prepared on 
the basis of crucial input from employees, customers, and other 
stakeholders in Reclamation's program. It outlines a process and 
timeframe for identifying and addressing the 21st century challenges 
Reclamation faces. More extensive input will be sought and considered 
during the course of implementing the 41 individual action items 
contained in the Action Plan. Reclamation is in the process of putting 
together internal and external teams to identify and implement needed 
managerial and operational improvements that will enable each action 
item to be accomplished. While Reclamation does not currently 
contemplate the need for implementing legislation, it is possible that 
such a need will be identified later by the teams or groups that are 
assigned to accomplish the individual action items in the Action Plan. 
We will keep the Committee informed of our progress towards meeting the 
benchmarks identified in the Action Plan.
    Question 23. What activities currently undertaken by the USBR do 
you believed could be outsourced? Do you believe that greater 
outsourcing by the USBR would result in cost savings to USBR customers?
    Answer. The Action Plan includes, on page 15, eight action items 
that specifically assess how an appropriate mix of in-house capability 
versus competitive sourcing can be achieved. One of these action items 
is to analyze the unit-to-unit costs of in-house performance of 
commercial workload versus competitive sourcing. Competitive sourcing 
would be appropriate where it would result in cost savings while also 
being consistent with the significant Federal risk management 
responsibility associated with Reclamation's large and complex 
facilities. Nevertheless, the Action Plan recognizes the need for 
Reclamation to maintain the appropriate level of core capability it 
needs to fulfill its mission responsibilities and provide optimum value 
to its customers.
    Question 24. A common complaint I hear from my constituents is that 
the USBR often charges far more than the private sector for comparable 
services. Why do you believe that this is the case? What have you found 
when benchmarking against the private sector?
    Answer. It is difficult to benchmark against the private sector for 
the full suite of services that Reclamation provides. One factor in 
Reclamation's construction costs is the design standards the agency has 
established. These standards were developed to address not only 
physical engineering concerns, but also the significant federal risk 
management responsibility associated with the management of critical 
infrastructure. These high design standards have associated costs. An 
analysis of whether these heightened costs are necessary in all of the 
construction and O&M activities performed by Reclamation and its 
customers will be part of the Managing for Excellence Action Plan.
    Question 25. Do you believe that the report will result in 
meaningful reforms within the USBR? If so, what changes?
    Answer. Reclamation is committed to a thorough evaluation under the 
Action Plan and the change that will come from it. The Department sees 
this as a significant opportunity to position Reclamation for 
excellence in managing its future as a citizen-centered agency that 
delivers optimum value to its stakeholders. The benchmarks that the 
Action Plan identifies to guide Reclamation's reform process include:

  <bullet> Improvement of the management and leadership processes, 
        applications, responsibilities, and outcomes in all Reclamation 
        activities to effectively respond to future needs and 
        challenges;
  <bullet> The attainment of a synergistic balance of centralized 
        policy development and decentralized operations;
  <bullet> The definition of Reclamation's stewardship responsibility 
        as the owner of Federal facilities; and
  <bullet> Application of Secretary Norton's 4 Cs philosophy 
        (conservation through communication, consultation, and 
        cooperation) to help multiple stakeholders combine perspectives 
        in problem-solving efforts.

               2003 BIOLOGICAL OPINION FLOW REQUIREMENTS

    Question 26. The water forecast for the Rio Grande Basin this year 
is bleak. The snow packs in the basin are at 30 percent of average for 
this time of year. The USBR is tasked with providing minimum flow 
requirements in order to comply with the Fish and Wildlife Service 2003 
Biological Opinion. Some have speculated that, if this drought 
continues, the USBR may have difficulty meeting this obligation.
    In light of potential water shortages, how will the USBR meet these 
obligations with the deceased budget proposed by the administration, 
particularly when the cost of water may increase significantly?
    Answer. Reclamation will continue to meet the requirements of the 
biological opinion with the funds provided. Reclamation will adjust 
priorities and seek to reprogram money, if necessary, and where 
practicable to meet the biological opinion requirements.
    Question 27. San Juan Chama Project water cannot be used for 
meeting the requirements of the ESA unless it is acquired by a 
``willing sellor or lessor''. If water cannot be acquired from project 
contractors, where do you anticipate you will get the water to meet the 
requirements of the ESA?
    Answer. We do not believe that this will be a problem as we 
continue to acquire water from willing sellers. In addition, the City 
of Albuquerque has offered to make additional water available to us 
which will further the management of river flows to meet the needs of 
all Middle Rio Grande water users, including endangered species.
    Question 28. In general, what are you doing to address this 
potential problem?
    Answer. As noted above, we do not anticipate that water 
availability will be a problem, but we will continue to monitor the 
situation. For the long-term, we are engage in discussions with the 
State and the Corps of Engineers to meet the needs of the users. Also, 
we are working with the collaborative program in establishing a long-
term plan to meet the needs of the Silvery Minnow.

                       COLORADO RIVER MANAGEMENT

    Question 29. As you know, the seven basin states recently reached 
agreement on a draft management plan for the Colorado River in order to 
minimize shortages in the Lower Basin and reduce the risk of 
curtailment in the Upper Basin. It is my understanding that this plan 
will require further refinement but is a good step towards addressing 
this often-contentious issue. I appreciate your leadership in the 
matter.
    When do you anticipate that the public comment period will be 
completed and you will be able to sign-off on a final plan?
    Answer. The Department is conducting a formal NEPA process, 
including preparation of an Environmental Impact Statement (EIS), to 
address these issues. The Basin States' proposal is being considered 
along with other information collected during the public scoping 
process in development of the alternatives in the EIS.
    We anticipate publishing a scoping report by the end of March 2006, 
a draft EIS in December 2006, and a Record of Decision by December 
2007. The Bureau of Reclamation will continue to solicit and accept 
public comments throughout the EIS process.
    Question 30. What additions or refinements to this plan will be 
necessary before the administration is able to implement the plan?
    Answer. Since we will be continuing analysis of the alternatives 
for the EIS in the upcoming months, we have not yet determined 
necessary additions or refinements for proposals received during the 
scoping process. We will continue to use a public process as details 
are developed, and all refinements will be fully vetted with the 
public.
    Question 31. What is the status of the implementation of the 
Colorado surplus plan developed several years ago?
    Answer. In 2001, the Department adopted Interim Surplus Guidelines 
(66 Fed. Reg. 7772) that are used by the Secretary in making annual 
determinations regarding the delivery of water to the Lower Division 
States based on conditions in Lake Mead. Since their adoption, these 
Interim Surplus Guidelines have been utilized in the development of 
Annual Operating Plans for the Colorado River. However, due to the 
known drought conditions, the Lower Division States have not requested 
surplus water in recent years.
    Question 32. How do you plan to implement the recommendations of 
the shortage plan, particularly the suggestions for increasing water 
available in the Colorado River?
    Answer. The States' recommendations will be included along with 
other proposals in the alternatives analyzed in the EIS. Details 
regarding implementation will be developed as we continue the EIS 
process.
    The EIS's Record of Decision will set final guidelines and 
management strategies that will provide guidance for the Secretary's 
decisions in developing Annual Operating Plans for the Colorado River 
and afford water users greater certainty and flexibility in meeting 
their future water demands.

                          AGING INFRASTRUCTURE

    Question 33. The administration's budget request seems to scale 
back significantly federal involvement in western water resources 
needs. The President's budget proposes $971.6 million, a 13 percent cut 
for the USBR for FY 2007. The average USBR project is over 50 years-old 
and some projects are over 100 years-old. In many instances, projects 
have exceeded their anticipated life. This has resulted in great 
operations, maintenance and rehabilitation obligations.
    This is particularly discouraging when one considers the current 
state of affairs, particularly in the southwestern United States. Snow 
pack in the middle Rio Grande Valley is currently at one third of 
average for this time of year.
    How does the administration anticipate that is will be able to meet 
these increasingly large operations and maintenance obligations with 
the budget you propose?
    Answer. The administration's budget is sufficient to meet 
Reclamation's operations and maintenance needs. The Department and the 
Bureau of Reclamation are committed to working with the Bureau's 
customers, States, Tribes, and other stakeholders to find ways to 
balance and provide for the mix of water resource needs in 2006 and 
beyond. Additionally, during the administration's Program Assessment 
Rating Tool (PART) review of Reclamation's Operations and Maintenance 
Program, the long-term maintenance and rehabilitation of Reclamation's 
aging facilities was highlighted as a major concern; one of the PART 
follow-up actions is that the administration will ``[d]evelop a 
comprehensive, long-term strategy to operate, maintain, and 
rehabilitate Reclamation facilities''. Developing a comprehensive 
solution to this long-term challenge will not happen overnight, but 
proactively addressing these issues is a priority for the 
administration.
    Question 34. Noting the average age of USBR infrastructure, are you 
concerned with the possibility of catastrophic dam failure?
    Answer. Reclamation is committed to taking all actions necessary to 
safeguard against the hazard of dam failure. Reclamation's Safety of 
Dams (SOD) program works to ensure that all Reclamation dams are 
operated and maintained in a safe manner. The program carries out 
inspections for safety deficiencies, performs analyses utilizing 
current technologies and designs, and requires corrective actions if 
needed based on current engineering practices.
    The SOD program focuses on evaluating and implementing actions to 
resolve safety concerns at Reclamation dams. Under this program, 
Reclamation identifies and accomplishes needed corrective action on 
Reclamation dams. The selected course of action relies on assessments 
of risks and liabilities with environmental and public involvement 
input to the decision making process. The 2005 PART assessment of 
Reclamation's SOD program rated it `Effective', and found that, ``[T]he 
program is forward-thinking, well-managed, and is a leader in risk-
based dam safety''. Our program staff works closely with outside 
experts to provide constructive feedback to help maintain the program's 
status as a leader in the dam safety field.
    Question 35. How is the Department dealing with the drought 
situation in the Southwest? Is Interior coordinating with any other 
federal agencies to address this problem?
    Answer. As discussed in detail in the answers to questions 44 and 
45, Reclamation is working with States and other stakeholders to update 
management of the Colorado River. This will have long-term implications 
in addressing water scarcity in the region.
    The Department collaborates closely with the U.S. Fish and Wildlife 
Service and the National Oceanic and Atmospheric Administration to meet 
the water supply requirements of irrigators, municipalities, and others 
while still taking necessary steps to meet the requirements of the 
Endangered Species Act throughout the West. An example of this type of 
collaboration (which also includes States and other entities) is the 
Multi Species Conservation Program in the Lower Colorado River Basin.
    Reclamation is working with the USDA Natural Resources Conservation 
Service to assess the drought conditions across the West and coordinate 
programs of both agencies to maximize benefits in those areas of the 
West most in need. Additionally, Reclamation collaborates with the U.S. 
Army Corps of Engineers, most recently through an interagency 
Memorandum of Understanding to enhance our historic partnership. 
Recently, Reclamation and the Corps worked closely to manage flooding 
in the Colorado River tributaries in Arizona, effectively minimizing 
spill of any unregulated water to Mexico and maximizing storage in Lake 
Mead.
    At the policy level, Reclamation and the other Federal agencies 
involved in water resources research and development are also working 
under the guidance of the White House Office of Science and Technology 
Policy to coordinate Federal R&D for water availability to ensure an 
adequate water supply for the Nation's future.

                            MINNOW SANCTUARY

    Question 36. The Reasonable and Prudent Alternatives specified in 
the 2003 Fish and Wildlife Service's Biological Opinion on the Rio 
Grande Silvery Minnow required the construction of two minnow refugia. 
In order to comply with this mandate, I have been working with the USBR 
Albuquerque Area Office to construct a minnow sanctuary. The Federal 
government has provided money for this purpose.
    What is the status of the pre-construction activities underway?
    Answer. Design work on the silvery minnow sanctuary is in the final 
stages. All environmental compliance and permits required for 
construction are in hand. Construction of the sanctuary began February 
1, 2006, and will be completed by October 31, 2006.
    Question 37. Assuming appropriations are made available for the 
project how long do you estimate it will take to complete the project?
    Answer. Construction of the sanctuary began February 1, 2006, and 
will be completed by October 31, 2006.

                               TITLE XVI

    Question 38. As you are aware, Congress authorized numerous Title 
XVI recycling and reuse projects, despite the administration's stated 
objections to the program and a backlog of authorized but unfunded 
process. In the past, Commissioner Keys appeared before this Committee 
and testified that the program has a 15-year funding backlog. Several 
days ago, Senator Murkowski held a hearing on these issues before the 
Water and Power Subcommittee.
    Despite Congressional authorization for some 30 Title XVI projects, 
the administration has requested only $1 million for Title XVI 
projects.
    How does the administration determine which authorized projects to 
fund?
    Answer. The administration's 2007 budget proposes $10.1 million for 
the Title XVI program, including funding for individual projects and 
program management. Of the 32 specific projects authorized to date 
under Title XVI, 21 have received funding. Of these, nine have been 
included in the President's budget request. Including anticipated 
expenditures during FY 2006, approximately $325 million will have been 
expended by Reclamation on these authorized projects by the end of the 
current fiscal year. Three of the projects have been funded to the full 
extent of their authorization. Two more should be fully funded in 2006.
    The administration has generally confined its funding requests to 
previously budgeted projects. The principle exception to this occurred 
in FY 2000, when Reclamation evaluated and ranked unfunded authorized 
projects for the purpose of prioritizing available construction funding 
for four new starts. Reclamation has not used a competitive process to 
allocate funds since FY 2000.
    Question 39. What additional criteria do you believe should be 
imposed, on the program? Does the administration anticipate that it 
will submit a bill for introduction?
    Answer. The administration is currently developing a legislative 
proposal to bring needed reforms to Title XVI. The proposal aims to 
create a framework under which Title XVI projects will be screened to 
ensure they complement Reclamation's mission, rather than diminishing 
Reclamation's ongoing core programs. Among the ranking criteria that 
the program will look at would be whether the project would alleviate 
water conflict, add or diversify water supply in a ``hot spot'' area, 
and be able to be brought on-line within a reasonable timeframe. The 
administration is also interested in improving the transparency of 
funded progress, increasing accountability for how funds are spent, and 
improving criteria for project development and design.
    Question 40. As you know, a number of Title XVI projects have been 
authorized for federal assistance. What criteria does the Department 
use for either supporting or not supporting projects authorized to 
receive federal assistance?
    Answer. As stated above, the administration has generally requested 
funding only for projects that have already received Federal funding. 
In FY 2000, Reclamation evaluated and ranked unfunded authorized 
projects to prioritize available construction funding for four new 
starts. We prioritized projects according to how much water would be 
produced, the extent to which the project would prevent conflict over 
water, whether the project could be completed within a reasonable 
timeframe, and whether the project could be sustainably operated and 
maintained by the project sponsor.

       MIDDLE RIO GRANDE PUEBLO WATER DELIVERY AND INFRASTRUCTURE

    Question 41. Pursuant to a 1981 agreement, the USBR is responsible 
for releasing water to meet the Pueblos ``prior and paramount'' rights. 
In the 1981 agreement, the BIA was also required to ensure that these 
obligations were met. The six Middle Rio Grande Pueblos rely on Federal 
appropriations to the Middle Rio Grande Project to rehabilitate and 
otherwise keep in working order infrastructure to provide their 
statutorily-created water rights. The Pueblos have questioned if the 
USBR is delivering water consistent with the 1981 agreement and has 
questioned if the DOI is fulfilling its trust responsibility.
    How does the DOI plan to resolve the conflict that has arisen 
between the BIA, USBR and Pueblos?
    Answer. The Department believes that such conflict no longer 
exists, and we note that there is a continuing and ongoing dialogue 
between the Department and its bureaus and the Pueblos.
    Question 42. How does the USBR plan to upgrade and maintain the 
Pueblo water delivery infrastructure? Is funding available for these 
purposes through Water 2025 or other grants? How do you plan to meet 
these trust responsibilities, particularly in light of a proposed 
decrease in funding for the Middle Rio Grande Project?
    Answer. Portions of the six Middle Rio Grande Pueblos irrigation 
infrastructure fall within the boundaries of the Middle Rio Grande 
Project and can be served by Reclamation. Through fiscal year 2005, the 
Middle Rio Grande Conservancy District received about $3 million under 
Water 2025 for water conservation and infrastructure improvements. This 
funding can be used throughout the District, including project 
facilities serving six Middle Rio Grande Pueblos.
    In addition, the Department entered into a new agreement with 
Middle Rio Grande Conservancy District with respect to project service 
to the Pueblos. Through the development of annual work plans and annual 
appropriations to pay the Middle Rio Grande Conservancy District for 
specified charges, the Middle Rio Grande Conservancy District will 
perform operations, maintenance, and betterment work on the facilities 
serving Pueblo lands.
    Through Reclamation's Native American Program, Reclamation has 
funded a variety of small infrastructure improvement projects for 
pueblos in New Mexico. Reclamation continues to look for opportunities 
using existing authority and funding to upgrade Pueblo facilities.
    As the trustee for American Indian lands and funds as well as water 
rights, Interior is committed to protecting trust assets and fulfilling 
our trust responsibilities to individual and tribal trust 
beneficiaries.
    Question 43. Do you believe that the MRGCD is showing partiality to 
MRGCD lands as opposed to Pueblo lands when performing operation and 
maintenance activities with funds made available for the Middle Rio 
Grande Project?
    Answer. To our knowledge, no assessment has been carried out that 
provides information that would allow the Bureau to make such a 
determination.

                        ANIMAS-LA PLATA PROJECT

    Despite past claims of mismanagement and poor planning and 
oversight, the A-LP project is now proceeding at an acceptable rate. 
The President's budget calls for $57 million for the project in FY 
2007. However, some of the project beneficiaries claim that the project 
requires $75 million in FY 2007 to keep it on schedule. Additionally, 
some of the non-Indian project beneficiaries claim the DOI may require 
an increased non-Indian contribution over what was originally 
contemplated.
    This project is of great importance to the communities of northern 
New Mexico and southern Colorado.
    Question 44. Do you believe that the $57 million requested by the 
administration is adequate to keep the project on schedule?
    Answer. The Project schedule was revised in December 2005 based on 
the current enacted amount of $56 million for FY 2006. The schedule 
reflects revised estimated construction completion, including filling 
of the reservoir, in the winter of 2012; Project closeout is estimated 
for 2013. This revised schedule results in an estimated construction 
completion schedule approximately 1 to 1\1/2\ years longer than was 
anticipated when the revised Construction Cost Estimate was prepared in 
2003. The amount requested by the administration will provide funding 
to continue construction of two of the Project's major features, Ridges 
Basin Dam and the Durango Pumping Plant, and to begin construction of a 
third major feature, Ridges Basin Inlet Conduit. This funding level 
will also allow preconstruction activities on the Navajo Nation 
Municipal Pipeline and County Road 211 Relocation to continue.
    Question 45. What precautions are being taken to ensure that there 
are not further cost overruns with the project?
    Answer. We have refined and streamlined reporting within 
Reclamation for the ALP. The ALP Construction Office is responsible for 
all matters pertaining to the construction of the project. This office 
is managed by a Project Construction Engineer who reports directly to 
the Regional Director of the Upper Colorado Region in Salt Lake City, 
Utah. The construction office continually evaluates ways to save costs 
and still maintain the project features. Cost tracking procedures 
implemented in 2004 now relate all project costs to the cost estimate 
(indexed for inflation) for early detection of problems. This cost 
information is shared with the Project Sponsors on a monthly basis.
    Question 46. Is it true that the DOI may require additional funds 
from the non-Indian participants above the amount required in the cost-
allocation contract? If so, how are you able to amend existing 
contracts without agreement by the contractors?
    Answer. Contracts would not be amended without agreement by the 
Contractors. However, existing contracts allow for increases in 
repayment amounts if certain triggering conditions are met. These 
conditions include that a final cost allocation be made following 
completion of construction and that additional repayment only be 
warranted for reasonable and unforeseen costs as determined in 
consultation with the repayment entities. Furthermore, the Secretary is 
authorized to forgive the obligation of the non-Indian sponsors for the 
increase in estimated total project costs that occurred in 2003.
    Question 47. What approaches has the USBR taken its communications 
with stakeholders regarding the A-LP project that may be applicable to 
other projects?
    Answer. The Bureau of Reclamation has adopted the following 
measures to improve its working relationship with the Animas La Plata 
Project stakeholders. These measures, which are consistent with the 4 
Cs philosophy, may be applicable to other projects.

  <bullet> Reclamation holds regularly scheduled meetings with the 
        Project stakeholders to improve communications and trust among 
        the involved parties.
  <bullet> Reclamation has increased the level of coordination and 
        consultation with the project stakeholders and developed formal 
        consultation protocols to allow stakeholders to have input into 
        decisions affecting the overall cost of the Project.
  <bullet> Reclamation has developed a system to allow for open and 
        complete cost accountability.

                  R&D IN WATER SCIENCE AND TECHNOLOGY

    Question 48. Drought and population growth in the western U.S. 
requires that we make more efficient use of water and develop 
technologies to make use of previously impaired or unusable water. 
During the 1960s and 1970s, the federal government funded extensive 
research in water technology which resulted in reverse osmosis-the 
desalination technique most widely used today.
    I believe that the federal government should renew its investment 
in water treatment technology. Toward this end, I have funded 
construction of a Tularosa Basin Desalination Research and Development 
Center in New Mexico. The President's budget requests only $25,000 for 
the Desalination and Water Purification Research Program.
    Does this significant cut proposed by the administration indicate 
that, from your perspective, that desalination should not be undertaken 
by the USBR?
    Answer. The President's budget requests $5.2 million for 
Reclamation's desalination research and development (R&D) programs. The 
Secretary's Water 2025 program identifies advanced water treatment 
technologies, including but not limited to desalination, as one of the 
key tools to manage scarce water resources because of the potential it 
offers to expand usable water supplies. The FY07 administration budget 
includes funding for the Tularosa Basin facility, to be renamed the 
Brackish Groundwater National Desalination Research Facility, in the 
Water 2025 advanced water purification/desalination request. In 
contrast, in FY06 Congress appropriated funds under the Desalination 
and Water Purification Research Program. Full operations of the 
Tularosa facility are expected to be initiated in FY07. Approximately 
$1.9 million of the $2.7 million requested for desalination research 
under the Water 2025 Program will support operations at the Tularosa 
facility. The balance ($800k) is for Reclamation's external, 
competitive Research and Development program, prioritizing research at 
the Tularosa facility.
    Question 49. As you are aware, the authority for the USBR's Water 
Desalination Research and Development Act of 1996 was extended through 
FY 2006. Does the administration support a greater extension of this 
authority? If so, what changes to the authority do you believe are 
necessary?
    Answer. The administration's budget proposes extending this 
authority by one year. We are considering whether it should be revised 
and extended, in the context of broader water development issues.
    Question 50. What is the status of the construction activities at 
the Tularosa Basin Desalination Research and Development Center in New 
Mexico? How will the President's request affect construction of the 
facility?
    Answer. As discussed in response to question 48, construction is 
scheduled to be completed and full operation of the Tularosa facility 
should begin in FY07.
    Question 51. Assuming appropriations are made available for the 
project, how long do you estimate it will take to complete the project?
    Answer. Since construction is scheduled to be completed in FY07, 
the FY07 request emphasizes start-up operations including hiring an 
external organization to operate the facility under Reclamation 
direction and starting initial Research and Development activities. The 
facility is currently equipped to undertake research projects and in 
2005 began with an experimental unit developed by the Office of Naval 
Research.

                       ESA COLLABORATIVE PROGRAM

    Question 52. In order to address endangered species issues in the 
Middle Rio Grande Valley, I established the Middle Rio Grande 
Endangered Species Act Collaborative Program. As you are aware, this 
provides a forum for all interested parties to discuss ways to address 
endangered species issues in a cooperative way and has been largely 
successful in reaching consensus on how to meet the requirements of the 
2003 Biological Opinion. We recently shifted a fair amount of 
responsibility from the Corps of Engineers to the USBR.
    Do you believe that the USBR is capable of undertaking this reduced 
work load?
    Answer. Yes. The Bureau continues to work toward the transition 
with the U.S. Army Corps of Engineers (Corps). The Corps has asked 
Reclamation to manage the request for proposal and award process for FY 
2006. On October 1, 2005, Reclamation implemented a streamlined 
contracting process which remains on schedule. The Corps is expected to 
assume responsibility for the proposal and award process in FY 2007.
    Question 53. How is compliance with the 2003 Biological Opinion 
proceeding? Do you feel that adequate funds for this purpose are 
included in the President's budget request?
    Answer. Yes, funding for FY 2007 will enable Reclamation to meet 
the water requirements of the BiOp, including acquisition and 
management of supplemental water and low flow conveyance channel 
pumping. This funding will also support the transfer of administrative 
functions to the Corps, allow the Bureau to continue administration of 
more than 90 contracts, grants, cooperative and interagency agreements, 
including Indian Self Determination Act contracts, and to continue to 
participate on the Executive Committee, Steering Committee, Program 
Implementation Team, and various technical work groups.
    Question 54. What construction activities required by the 2003 
Biological Opinion do you anticipate will be completed in Fiscal Year 
2006?
    Answer. Design work on the silvery minnow sanctuary is in the final 
stages. All environmental compliance and permits required for 
construction are in hand, and construction of the sanctuary began 
February 1, 2006. We expect construction to be completed by October 31, 
2006. In addition, while they will not necessarily be completed in FY 
2006, a number of habitat restoration projects, funded through the 
Middle Rio Grande Endangered Species Collaborative Program, are also 
underway and will make substantial progress toward completion during 
this fiscal year.

                               WATER 2025

    Question 55. One area in the USBR budget request where the 
President is proposing and increase is in the Water 2025 program. The 
budget requests $14.5 million for Water 2025, a $9.6 million increase 
from the FY06 enacted level. This is nearly a 300 percent increase over 
last year's enacted level. As you know, this program has not been 
authorized.
    After three years, what are some of the major accomplishments of 
the Water 2025? Specifically, how have funds that have been 
appropriated for the program reduced conflict among water users?
    Answer. There was an overwhelming response to the Water 2025 
Challenge Grant Program in FY 2004 and FY 2005, with Reclamation 
receiving over 100 proposals each year. The projects funded by Water 
2025 create new water banks, promote the use of advanced technology to 
improve water management, and increase collaboration among Federal, 
State, tribal and local organizations. In FY 2005, six Western States 
(Idaho, Kansas, Texas, Arizona, Montana, and New Mexico) were awarded 
Challenge Grants to address critical water management issues. The 
projects funded under these challenge grants reduce conflict among 
water users by encouraging cooperation among diverse stakeholders and 
by increasing flexibility of water use and enabling local stakeholders 
to more efficiently manage water resources. One particularly successful 
project is a partnership between the Central Oregon Irrigation 
District, seven irrigation districts, six cities, three tribes, and the 
Deschutes Resource Conservancy to establish a basin-wide water market 
and bank to help meet existing water needs in a water short basin. 
Another project, managed by the Sevier River Water Users Association in 
Utah, will expand a web-based, real-time flow monitoring system to 
better manage water deliveries in a five-county area. This project 
could ultimately save as much as 22,500 acre-feet of water per year.
    The program is scheduled to be evaluated under the PART process in 
2007. In anticipation of that effort, we are currently in the process 
of clarifying program goals and developing performance measures to help 
track achievement of those goals.
    Question 56. The Science and Technology Program and the Title XVI 
program have some similarities. Do you believe that activities 
authorized by both programs should be combined into one authority? Is 
there unnecessary duplication among the two programs?
    Answer. The programs do not duplicate activities and should not be 
combined. The Science and Technology Program is an internal, applied 
Research and Development (R&D) program focused on the full range of 
water resource challenges facing the Bureau of Reclamation. This 
program allows Reclamation experts and resource managers to work 
collaboratively with stakeholders in western water management issues. 
The program is Reclamation-wide and uses a competitive, merit-based 
process to select R&D that is conducted under four primary focus areas: 
(1) Improving Water Delivery Reliability, (2) Improving Water and Power 
Infrastructure Reliability, (3) Improving Water Operations Decision 
Support, and (4) Advancing Water Supply and Efficiency Technologies.
    A Reclamation program more closely tied to desalination is the 
Desalination and Water Purification Research Program (DWPR). The DWPR 
program is focused on funding external research in desalination 
technologies through the award of competitive, merit-based, cooperative 
agreements authorized under the Desalination Research and Development 
Act of 1996, which expires at the end of 2006. R&D emphasis under the 
DWPR program is on lowering desalination costs, reducing energy 
consumption, and finding more effective ways to manage concentrate. 
Like Title XVI, DWPR funds external R&D but does not fund internal R&D.
    The authority for desalination research under Title XVI complements 
the DWPR program by providing authority for research and demonstration 
projects geared toward the development of appropriate treatment 
technologies for the reclamation of municipal, industrial, domestic, 
and agricultural wastewater, as well as naturally impaired ground and 
surface water. These authorities are used in combination by Reclamation 
in developing a research program that is in keeping with national 
priorities and needs.
    We note that both of these programs have undergone evaluation under 
the PART process, and combining these programs was not one of the 
resulting recommendations. However, the administration looks forward to 
working with the Congress to make needed reforms to the Title XVI 
program.
    Question 57. As you know, Reclamation States are governed by the 
prior appropriation doctrine. An effect of the doctrine is that it 
inherently discourages conservation. How are you ensuring that the 
grants made available under the program actually result in a net gain 
of water?
    Answer. As this question suggests, the prior appropriation doctrine 
as it is applied in many States does not provide optimal incentives to 
holders of appropriative rights to conserve water and make it available 
for other users within a basin. This is one reason that a program like 
Water 2025 can make a difference. Water 2025 provides incentives for 
local stakeholders to overcome their differences and enter into 
partnerships that will qualify them for Challenge Grants under the 
program. One of the criteria that Reclamation looks at in awarding 
grants is the amount of water conserved as a percent of average annual 
supply.
    Question 58. Do you plan to submit legislation to Congress that 
would authorize the Water 2025 program?
    Answer. The Department of the Interior transmitted the 
administration's proposed permanent authorizing language for Water 2025 
to the President of the Senate and the Speaker of the House on March 7, 
2006.

                              RURAL WATER

    Question 59. Staff from the Department of the Interior worked with 
my staff very closely on a rural water bill which, in November of last 
year, passed the full Senate. It is my understanding that the House 
Resources Committee will hold a hearing on the bill this spring. The 
President's budget proposes a $14 million, 17 percent decrease for 
currently-authorized rural water projects.
    What is the administration's position on the loan guarantee program 
contained in S. 895? Do you think it would be of benefit to currently 
authorized rural water programs and for existing USBR infrastructure?
    Answer. The administration is still evaluating the value of a loan 
guarantee program, in the context of Federal budget constraints as well 
as the broader challenges facing Reclamation and other water users in 
addressing the challenges posed by aging infrastructure. A loan 
guarantee program is one mechanism that might be used to help address 
the challenges posed by aging infrastructure. We want to proceed 
deliberately on this important issue.
    Question 60. When do you anticipate that you will have a review 
prepared on the most recent design of the Eastern New Mexico pipeline? 
Are additional appropriations necessary for this purpose?
    Answer. Reclamation could prepare a review of the proposed 
pipeline's engineering design by mid-April. However, this design and 
the associated cost estimates submitted by the Eastern New Mexico Rural 
Water Authority's consultant are viewed as preliminary. Additional 
appropriations will not be required to review the preliminary design, 
but additional work would be needed to develop a complete feasibility 
analysis and report.

                         U.S. Geological Survey

                  WATER RESOURCES RESEARCH INSTITUTES

    Question 61. Once again, the administration proposes to terminate 
funding for the 54 State Based Water Resources Research Institutes 
(``WRRI'') for only a $6.4 million savings. This would eliminate a 
critical program for my state of New Mexico.
    How can the administration justify the elimination of the WRRI 
institutes?
    Answer. The State Water Resources Research Institutes have been 
highly successful in leveraging the USGS grants under the Water 
Resources Research Act Program with other Federal and non-Federal 
funding. The Department considers this program a success, as the 
initial grants from the Department were considered implementation 
funding for the Institutes. Today, the Department anticipates that the 
majority of these Institutes will be able to continue operations 
without Federal grant funding, due to the successful partnerships that 
the Institutes have been able to make with others.

                       WATER RESOURCE ASSESSMENTS

    Question 62. The administration's budget notes that the Cooperative 
Water program will initiate approximately $6 million in new water 
studies.
    What is the focus of these studies?
    Answer. The $6 million is for new studies beginning in FY 2007. 
Specific new Cooperative projects for FY 2007 will not be negotiated 
with cooperators until closer to the end of FY 2006. This is common 
practice. Since the cooperators provide two-thirds of the funding for 
the program, we do not unilaterally set program priorities, but rather 
work with them to consider their needs for the coming year along with 
our own.
    In consultation with local and regional managers, external 
cooperators, and the interagency Advisory Committee on Water 
Information, the USGS has identified seven water-related issues for FY 
2006 and 2007 that closely align with USGS mission goals that most 
require USGS involvement at State and local levels. Issues emphasized 
include: hydrologic hazards; water quality; hydrologic data networks; 
water availability and use; wetlands, lakes, reservoirs, and estuaries; 
water resources issues in the coastal zone; and environmental effects 
on human health. Studies in these areas will be conducted in FY 2007; 
specific study locations and topics will be determined in consultation 
with the program's 1,400 State, local, municipal, and tribal 
cooperators.
    Question 63. Will USGS be examining any western water issues?
    Answer. As I mentioned above, we do not yet know what studies will 
be initiated in FY 2007.

                       MINERALS RESOURCES PROGRAM

    Question 64. The administration's FY 2007 budget seeks to reduce 
the Mineral Resources Program by $22.9 million from FY 2006 levels in 
order to refocus the program on activities that are inherently 
governmental.
    Why has the administration opted to reduce funding for this program 
when numerous non-federal users rely on the critical information 
produced by the USGS?
    Answer. The administration believes the expertise exists at both 
State and university levels to take on some of this work. Given this 
fact, this work is less of a priority for USGS under current and 
foreseeable budget constraints.

                         National Park Service

                 NATIONAL PARK SERVICE BUDGET DECREASE

    Question 65. The administration's FY 2007 budget for the National 
Park Service is $100 million less than FY 2006. That represents a 5 
percent decrease in funding.
    What is the primary area or program affected most by the reduction 
in NPS budget?
    Answer. The proposed reduction in the line-item construction 
funding account of approximately $85 million is the largest single 
reduction to NPS funding in 2007. In FY 2007, NPS will focus on 
deferred maintenance instead of new construction.
    Question 66. Can we expect to see any reduction in park operations 
or visitor services as a result of the budget cuts?
    Answer. The 2007 budget request maintains the funding levels 
provided in the 2006 appropriation, which included a net increase of 
more than $24.6 million over 2005 park base funding. The 2007 budget 
request is a net increase of $23.4 million above the 2006 enacted 
level, which includes increases for salaries, benefits, and other fixed 
costs.
    The 2007 budget also proposes key investments in visitor services, 
health and safety, and law enforcement programs that impact the visitor 
experience. The budget includes an increase of $250,000 to strengthen 
the Service's capability to understand opinions about parks by 
expanding and refining the visitor services survey program. The budget 
also includes $500,000 for park-based special agents that will provide 
investigative support to park ranger staffs in parks. In addition, 
$750,000 is included to centrally fund the Federal Law Enforcement 
Training Center. An increase of $441,000 is requested to allow NPS to 
adequately respond to outbreaks and disease transmissions, as well as 
conduct safety evaluations of park food, drinking water, wastewater and 
vector-borne disease risks in the parks.
    Funding these increases, in conjunction with the combined 
implementation of ongoing management improvements, will ensure the 
continuation of enhancements to visitors and other services provided in 
2006

             NATIONAL PARK SERVICE--NATIONAL HERITAGE AREAS

    Question 67. Twenty-seven National Heritage Areas have been 
designated by Congress since 1985. Each area is locally managed and 
eligible to receive up to $1 million per year in federal funding 
through the National Park Service budget. In the FY 2007 budget, DOI 
has moved funding for National Heritage Areas from Recreation and 
Preservation to the Historic Preservation Fund.
    Does the National Historic Preservation Act allow you to use the 
Historic Preservation Fund to pay for National Heritage Areas?
    Answer. We believe that the appropriation language submitted with 
the President's budget would provide sufficient authority.
    Question 68. What changes should we make to National Heritage Areas 
to benefit DOI management and oversight?
    Answer. For many years, the Department has strongly supported 
legislation to establish a much-needed framework for the national 
heritage area program. We believe such program legislation should 
ensure that national heritage areas preserve nationally important 
natural, cultural, historic, and recreational resources through the 
creation of partnerships among Federal, State and local entities. 
National heritage areas should be locally driven, initiated, and 
managed by the people who live there and should not impose Federal 
zoning, land use controls or require land acquisition. Program 
legislation should require that a study be conducted for every proposed 
national heritage area and that the study be evaluated against 
legislatively established criteria prior to designation. We also should 
evaluate mechanisms to assist communities in achieving self sufficiency 
in funding after an initial Federal investment and effectively and 
efficiently managing their national heritage areas.

               NATIONAL PARK SERVICE MAINTENANCE BACKLOG

    Question 69. The administration estimated the maintenance backlog 
would require approximately $4.9 billion to correct.
    What type of long range program have you implemented to track the 
maintenance backlog and prioritize future maintenance requirements?
    Answer. The NPS is transforming the agency's approach to managing 
its facilities. During the past four years, NPS has been implementing 
an innovative asset management program focused on developing, for the 
first time, a comprehensive inventory and condition assessment of the 
agency's asset base. Parks have completed, for the first time, a 
prioritization of their asset inventory. Condition assessments on eight 
industry-standard assets (such as buildings, water systems, roads and 
trails) will be completed at all parks by the end of 2006. This shift 
in emphasis for the agency is based on management reforms and 
performance measures, and features a state-of-the-art software system. 
These new tools will allow NPS to have a better understanding of the 
true cost of ownership, including recurring operational costs of the 
improvements found in parks. Once condition assessments are completed, 
NPS will have a better understanding of the current deferred 
maintenance needs.
    Question 70. What progress has the National Park Service made in 
the past five years to address the maintenance backlog and how much 
funding do you estimate it will take to complete the remainder of the 
effort?
    Answer. During the past four years, the initial implementation 
phase of the NPS asset management program focused on conducting a full 
asset inventory; establishing a Service-wide baseline for facility 
conditions; utilizing the facility condition index and the asset 
priority index to target annual appropriations to improve the condition 
of high priority facilities Service-wide. The National Park Service now 
has information about its assets that it has never had before: 
systematic information about its inventory, its value, its current 
condition, and the level of investment required to sustain it over 
time. All parks have completed preliminary condition assessments, and 
NPS is on track to have comprehensive condition assessments completed 
by the end of FY 2006. Since 2002, the administration has invested 
nearly $4.7 billion and undertaken nearly 6,000 facility improvement 
projects within the national parks. By the conclusion of FY 2006, NPS 
will complete the initial round of comprehensive assessments 
Servicewide and establish a comprehensive FCI for all eight industry-
standard assets.
    The overall goal is not to completely eliminate all deferred 
maintenance. Rather, using proven industry standards, the goal is to 
get the overall inventory to a point where it's in acceptable 
condition, using performance measures to prioritize investments. To do 
that requires thoughtful investment strategies that are based on 
realistic scenarios and outcomes.

 NATIONAL PARK SERVICE SHARE OF SOUTHERN NEVADA PUBLIC LAND MANAGEMENT 
                               ACT FUNDS

    Question 71. The Southern Nevada Public Land Management Act 
authorizes the sale of certain lands in Nevada and the use of revenue 
from the sale for conservation projects in the state. The list of 
approved projects for 2006 includes over $80 million for National parks 
in Nevada, mostly at Lake Mead National Recreation Area.
    How is money from the Southern Nevada Public Land Management Act 
accounted for in the budget and is any of the money being used to 
correct the maintenance backlog in our national parks?
    Answer. The Southern Nevada Public Lands Management Act requires 
that land sale proceeds be deposited in an interest bearing account 
managed by the Bureau of Land Management. Prior to April 2005, the 
National Park Service (NPS), U.S. Fish and Wildlife Service (FWS), and 
U.S. Forest Service (FS) submitted Intergovernmental Orders and task 
orders to BLM's National Business Center to obligate funds for 
projects. Upon completion of the projects or on a quarterly basis, 
these agencies submitted detailed documentation of expenditures 
requesting approval for reimbursement.
    In April 2005, the Office of Management and Budget approved the 
establishment of an allocation account for the SNPLMA program. This 
allocation account is a delegation, authorized in law, by one agency of 
its authority to obligate budget authority and outlay funds to another 
agency. When an agency makes such a delegation, the Department of the 
Treasury establishes a subsidiary account called a ``transfer 
appropriation account', and the receiving agency may obligate up to the 
amount included in the account.
    The transfer process consists of a series of five distinct steps, 
following notification of availability of funds: Agency request; 
Request for review and approval; Cash availability determination; 
Transfer of Funds; and Treasury approval. When the BLM National 
Business Center receives the treasury confirmation from the BLM 
Washington Office Budget Group, the transfer is recorded in the Federal 
Financial System (FFS) which is the bureau's official accounting 
records.
    As with any appropriated Federal funding, each agency is 
responsible for detailed accounting of the SNPLMA funds.
    SNPLMA candidate projects are prepared and submitted by eligible 
entities, including the National Park Service, Lake Mead NRA. All 
projects are posted on the internet for public review and comments. 
Projects are ranked according to defined selection criteria, first by a 
``Sub-Group'' for the funding category. Sub-Group recommendations and 
public comment are submitted to a ``Working Group'' for additional 
review. Working Group recommendations are submitted to an ``Executive 
Committee'' for final review and recommendation to the Secretary. The 
Secretary is the deciding official.

Round 6 SNPLMA Projects
    Lake Mead National Recreation Area Round 6 SNPLMA approved capital 
improvement projects included approximately:

  <bullet> $41 million for deferred maintenance;
  <bullet> $17.7 million to maintain visitor access during record low 
        water levels; and
  <bullet> $4.5 million for visitor facility and resource enhancement

    Lake Mead National Recreation SNPLMA projects have focused 
primarily on existing facilities, deferred maintenance, and emergency 
low water needs. Over $25 million of the above approved funding is 
allocated for deferred maintenance needs directly associated with 
deficient water and wastewater utility systems. Funding is also 
addressing deteriorated launch ramps, restrooms, picnic facilities, and 
campgrounds. Emergency low water projects include: relocation of water 
intakes, positioning of navigational aids, extension of dirt roads to 
ensure continued lake access, and the relocation of courtesy docks. 
Finally, and to a much lesser degree, funding is supporting a few 
facility enhancement projects.
    Approximately $35 million was approved for interagency Conservation 
Initiatives. Interagency Conservation Initiatives generally involve the 
NPS, BLM, FWS, and FS. Interagency initiatives include: resource 
protection, Take Pride litter and desert dumping, habitat restoration, 
capacity building through volunteers and alternative work forces and 
cultural site stewardship. In addition, Lake Mead National Recreation 
Area received approximately $5 million for a three-year interagency 
water quality monitoring and assessment program.

                        Bureau of Indian Affairs

                        BIA DRUNK DRIVING POLICY

    Question 72. Madam Secretary, I am told by staff that the BIA has 
been working on the development and release of a new policy related to 
employees that are caught driving under the influence. I wrote you in 
early February to urge the Department to finalize and release the new 
policy as-soon-as possible.
    My state has the unfortunate reputation of having the highest 
fatality rate from DUI crashes in the nation. The BIA has had the 
unfortunate reputation of having allowed employees with DUI's on their 
driving records to continue to drive BIA vehicles. In fact, a number of 
employees have been involved in crashes that killed private citizens. I 
think the release of this new policy is long overdue and I don't 
understand why it has take so long for the BIA and the Department to 
respond to the fatalities that occurred nearly two years ago.
    What is the status of the new policy?
    Answer. On January 18, 2006, the Department issued a new 
Departmental Manual Chapter on Discipline and Adverse Actions, which 
included a new Table of Offenses and Penalties for the entire 
Department. This new table includes a specific charge of ``Operating a 
Government vehicle/aircraft while under the influence of alcohol'' with 
a penalty that ranges from a 30 day suspension to removal for a first 
offense and removal from service for a second offense.
    The Bureau of Indian Affairs is in the final stage of approving a 
National Policy Memorandum that states mandatory requirements that must 
be met before a BIA employee can operate a Government vehicle. These 
requirements, among others, include:

  <bullet> Having no pending citations for DWI/DUI, reckless driving, 
        or leaving the scene of an accident;
  <bullet> Having no convictions for DWI/DUI, reckless driving, or 
        leaving the scene of an accident within a three-year period 
        immediately preceding their driving application; and
  <bullet> Having no uncontested citations for DWI/DUI, reckless 
        driving, or leaving the scene of an accident within a three-
        year period immediately preceding their driving application.

    The BIA is in the final stage of incorporating management comments 
into the draft memorandum. Once completed, the Indian Educators 
Federation, American Federation of Teachers Union, Local 4524, will 
have an opportunity to review and negotiate on the policy. The Union 
will have 30 days to notify BIA as to whether they wish to bargain the 
impact and implementation of the policy memorandum. Once this process 
is completed, we will proceed to implement the terms of the policy 
memorandum. We anticipate issuing the National Policy Memorandum within 
the next 60 days.

                    REPUBLIC OF THE MARSHALL ISLANDS

    Question 73. Following the Committee's hearing on the Marshall 
Islands nuclear compensation petition last year, your Department held a 
meeting for Administration officials to hear in more detail from the 
Marshall Islands. This meeting was an important first step in the 
process. Since that meeting, there have been no additional follow-up 
meetings with officials from the Marshall Islands and Department 
officials.
    Could you please describe what came out of that first meeting, and 
what additional steps are being taken to address the concerns of the 
Republic of the Marshall Islands?
    Answer. Following up on the September 13, 2005, meeting which he 
chaired Washington, D.C., Deputy Assistant Secretary David Cohen hosted 
an interagency conference call on October 20, 2005,. The participants 
represented the Departments of Energy (DOE), Health and Human Services 
(HHS), the Interior and State. In order to move forward, Mr. Cohen 
urged his colleagues to look at existing programs, e.g. HHS programs in 
the Marshall Islands, DOE's work at Runit Dome and the division between 
Energy's health and environmental components. Cost-out options and 
analysis were requested for these issues and a renewal of the Section 
177 health care program.
    Question 74. On December 5, 2005, the President of the Republic of 
the Marshall Islands sent a letter addressed to your office, and 
forwarded a copy of that letter to our Committee.
    Could you please provide me an overview of how the Department 
intends to address the seven issues raised by President Note?
    Answer. Of the seven points in President Note's December 5, 2005, 
letter, the Office of Insular Affairs (OIA) at Interior either is 
handling or has handled three (items numbered 1, 3, and 7 of the 
letter). Item number 2 is personal injury claims, which has not yet 
been sufficiently developed. Item number 6 is the Department of Energy 
program, which OIA does not handle. Item number 4 is not an OIA issue. 
Item number 5 is the Section 177 health care program, which requires 
close consultation among several Executive branch agencies and the 
Congress. The three Interior items in President Note's letter are being 
undertaken as follows:

  <bullet> Health Care Needs. OIA has communicated to the proper 
        authorities in the Department of Health and Human Services 
        OIA's support for the short-term assignment of Stephen Ostroff, 
        M.D., of OIA's Honolulu office to explore an array of options 
        for the Marshall Islands to consider in addressing their health 
        care needs.
  <bullet> Runit Dome. As Article VII, sentence one, of the Section 177 
        Subsidiary Agreement states, ``The Government of the United 
        States is relieved of and has no responsibility for, and the 
        Government of the Marshall Islands, . . . shall have and 
        exercise responsibility for, controlling the utilization of 
        areas in the Marshall Islands affected by the Nuclear Testing 
        Program.'' The administration interprets this language to 
        include Runit Dome.
  <bullet> Land Claims. The OIA is arranging discussions among 
        appropriate Federal agencies and the mainland representatives 
        of the respective governments of Bikini, Enewetak, Rongelap, 
        and Utrik Atolls. To be reviewed are the land claims of the 
        governments of the atolls that are now before the Marshall 
        Islands' Nuclear Claims Tribunal.

     Responses of the Department of the Interior to Questions From 
                             Senator Talent

    Question 1. I want to be certain that the proposed Interior budget 
is sufficient to expeditiously carry out leasing Lease Sale Area 181 
without any adverse impact on environmental oversight. Is it?
    Answer. The FY 2007 budget request includes the necessary funding 
for the MMS to conduct and complete the environmental analyses 
necessary for the 2007 OCS lease sales and the 2007-2012 five-year 
lease program, which includes a portion of the Sale 181 area.
    Question 2. I also understand that there has been a recent press 
report alleging that Bureau of Land Management has restricted the 
ability of its own biologists to monitor wildlife damage caused by 
surging energy drilling on federal land by keeping many wildlife 
biologists out of the field doing paperwork on new drilling permits and 
by diverting agency money intended for wildlife conservation to energy 
programs. The story claims that the BLM has compromised its ability to 
deal with the environmental consequences of the drilling boom it is 
encouraging on public lands.
    I also want to be certain that the proposed Interior budget is 
sufficient to ensure that the BLM is adequately staffed to 
expeditiously process lease requests without compromising the usual 
environmental oversight. Is it?
    Answer. The BLM takes an interdisciplinary approach to approving 
Applications for Permits to Drill (APDs), which includes the work of 
wildlife biologists, archaeologists, hydrologists, and botanists. 
Wildlife biologists are required to review APDs as part of their 
overall wildlife responsibilities. The BLM enlists its wildlife 
biologists during the permitting process to help complete environmental 
analyses, assess potential impacts to wildlife, and develop appropriate 
mitigation and best management practices for minimizing impacts to 
wildlife. The agency then places limits on when drilling can occur and 
takes numerous other measures to minimize the energy ``footprint'' on 
public lands. The wildlife biologists performing this work in support 
of APD processing charge their costs to the Oil and Gas Management 
Program. The proposed budget provides sufficient staffing to ensure 
that lease processing does not compromise BLM's environmental oversight 
responsibilities.
    The 2007 budget request includes an increase of $9.2 million to 
support increased oil and gas activity in non-pilot offices (those not 
eligible to receive mandatory funding authorized by section 365 of the 
Energy Policy Act). Approximately $5 million of this increase for non-
pilot offices will support increased inspection, enforcement, and 
monitoring efforts to better ensure that energy development is 
conducted in an environmentally sound manner.
     Responses of the Department of the Interior to Questions From 
                             Senator Smith

 FUNDING FOR THE IN-LIEU AND TREATY FISHING ACCESS SITES (TFAS) PROGRAM

    Question 1. In 1995, the Corps and BIA agreed to an MOU which set 
forth procedures and funding plans for effectuating the transfer of 
facilities, lands, and operations and maintenance funds for these In-
Lieu and TFAS sites. These facilities and sites are intended to serve 
as replacements for lands and fishing access sites that were flooded by 
development of the Federal Columbia River Power System.
    The Corps has fulfilled its commitment of funding for necessary 
construction as well as long-term O&M. BIA has not kept its commitment 
of providing a minimum of $250,000 annually for enforcement, O&M, and 
tribal training.
    The Columbia River Inter-Tribal Fish Commission (CRITFC) assumed 
O&M responsibilities for the sites in 2004. This commission needs the 
BIA funds to provide site and facilities protection and law enforcement 
as well as O&M.
    The Corps has offered to increase their contribution to O&M funding 
provided that additional funds have technical justification, that 
unused funds earn interest, and that BIA makes its contributions.
    Why doesn't the FY2007 DOI budget provide the funds promised by BIA 
in 1995?
    Answer. The budget request for fiscal years 1997, 1998, and 1999 
included $250,000 for enforcement, O&M, and tribal training. However, 
the final enacted budgets for these fiscal years did not include the 
requested funding. Since the program did not receive the requested 
funding and due to competing budget priorities, no further requests 
have been made since 1999.
    Question 2. The Commission believes that $535,000 is needed to 
provide appropriate 24/7 enforcement and protection of these In-Lieu 
and TFAS properties. Can the Department identify a source for such 
funds?
    Answer. During the 2007 budget formulation process, Indian Affairs 
leadership, in consultation with the tribes, evaluated the purpose and 
performance of each BIA program. The budget incorporates the highest 
priority needs of the tribes on a nationwide basis and the programs 
that meet the outcome goals of the Department's strategic plan. 
Unfortunately, $535,000 in funding is not available for the Columbia 
River Inter-Tribal Fish Commission. While there are no easy solutions 
in meeting all natural resources development needs, we are continuing 
to evaluate ways to extend our resources to address recognized 
priorities.

                         BUREAU OF RECLAMATION

    Question 3. The Bureau of Reclamation claims that one of its main 
goals is to identify future water supply needs ``for consumptive and 
non-consumptive purposes in Reclamation states in the next 25 years 
which are likely to be unmet with existing resources.''
    In light of this goal, can you explain to me why the feasibility 
studies for the Tualatin Project and for Phase III of the Umatilla 
Enhancement project are zeroed out in the budget request?
    Answer. Reclamation's work on the Oregon Tualatin Valley Water 
Supply Feasibility Study has involved coordination with the local 
stakeholders over the past several years as they have refined their 
definition of water supply alternatives to be assessed in an 
Environmental Impact Statement (EIS). This coordination effort has been 
supported with funds made available through other sources, such as 
Technical Assistance to the States. In addition, the local stakeholders 
have funded Reclamation's completion of engineering and other technical 
studies. As of February 2006, the stakeholders have focused on specific 
alternatives to be carried forward in the EIS. Accordingly, the role, 
scope, and schedule for Reclamation's future work will be reassessed.
    Reclamation work on the Oregon Umatilla Basin Project Phase III 
Feasibility Study has been scaled back to a minimal coordination effort 
while the stakeholders (including Reclamation and the Department of the 
Interior) continue to work toward consensus on the goals and scope of 
the study. During this process, Reclamation's coordination efforts will 
be funded from other sources, such as Technical Assistance to the 
States.

     Responses of the Department of the Interior to Questions From 
                            Senator Bingaman
                        Departmental Management

    Question 1. What role did the Department take in the response to 
Hurricanes Katrina and Rita?
    Answer. The Department responded immediately following the 
hurricanes to assist in the Federal response as well as to respond to 
protect and rebuild assets that sustained damage during the storms. The 
Department participated in the Federal government's response under the 
National Response Plan (NRP), which organizes the capabilities of the 
Federal government around 15 Emergency Support Functions (ESFs). The 
Department provided support to nearly all of these support functions.
    In the immediate wake of Hurricanes Katrina and Rita, Interior 
employees mobilized to help in disaster recovery efforts at Interior 
installations and in their communities, assisting in rescue and 
evacuation efforts, giving out food and water, and providing temporary 
shelter for displaced people. In the days that followed, the Department 
and its bureaus mobilized its resources which were dispatched to the 
Gulf area as part of interagency response teams, teams assigned to 
mission assignments through FEMA taskings, or as part of teams to 
assist other agencies as requested. Interior employees from all eight 
of the bureaus and many offices participated in responding to the 
disaster by rescuing people, removing fallen trees and debris, provided 
mapping expertise to locate individuals trapped in flooded water where 
street signs were not available, providing engineering expertise to 
repair the levees, evaluating offshore energy infrastructure, managing 
staging areas for the distribution of supplies, protecting natural and 
cultural resources and historic properties, and beginning to plan for 
long-term recovery.
    The Department dispatched incident management and incident response 
teams to assess damages and take immediate actions to protect Federal 
facilities and provide access. In the subsequent months, Interior 
bureaus have conducted inventories of damages, continued to clean-up 
debris, undertaken repairs, and resumed operations and visitor use 
where possible.
    Question 2. What damage occurred to Departmental facilities and 
lands?
    Answer. The Department has extensive land holdings along the Gulf 
Coast and the hurricanes of the 2005 season impacted the Department's 
refuges, parks, and facilities along the Gulf coast. The U.S. Fish and 
Wildlife Service (FWS) had over 60 National Wildlife Refuges and other 
Service owned facilities, and the National Park Service (NPS) had 13 
parks affected by the hurricanes. The Minerals Management Service's 
(MMS's) Gulf of Mexico Regional Office was damaged and MMS implemented 
their continuity of operations plan to ensure that production in the 
Gulf of Mexico was re-established as soon as possible following each of 
the storms. The U.S. Geological Survey lost coastal and stream gages 
throughout the impacted area.
    The damage sustained by the Department's land holdings in the Gulf 
Coast region was extensive. The winds from the hurricanes created 
debris fields of downed trees and windblown debris within the refuges 
and parks. The coastal refuges received the brunt of storm surges from 
the hurricanes and the storm surges resulted in tons of debris being 
carried onto the refuges. The debris came from the remnants of beach 
communities as well as oil and gas facilities. It contains a mixture of 
natural vegetation, construction debris, household items and some 
hazardous materials. Many refuges in coastal areas rely on water 
control structures such as levees and dikes to maintain coastal 
wetlands for public use as well as for migratory birds, and to protect 
freshwater from saltwater intrusion. Levees and dikes in the refuges in 
Louisiana and Florida were damaged and as a result water management 
capabilities that provide important habitat and protect local 
communities are affected.
    An example of damages at Interior sites includes the following:
    At Bayou Sauvage National Wildlife Refuge (NWR), the Maxent Levee 
separates Bayou Sauvage NWR from New Orleans. When New Orleans flooded, 
the Maxent Levee and the pumps that support it aided in the removal of 
water from the New Orleans east area. It is imperative to repair 
important levees and dikes on refuges to protect and provide habitat 
for wildlife, and, in some cases, to protect local communities.
    At the Sabine NWR, 32,000 acres have been impacted with an 
estimated 1,700 acres of debris piles, seven million cubic meters of 
debris and nearly 1,400 potential hazardous material items have been 
positively identified. The facilities at Sabine NWR were devastated by 
Hurricane Rita and five of the eight buildings were immediately 
condemned and required demolition. The remaining buildings require 
extensive repairs before they can be occupied. The Sabine NWR remains 
closed until repairs can be made to facilities and debris can be 
removed from the refuge.
    The NPS's Chalmette National Battlefield and National Cemetery, 
part of the Jean Lafitte National Historical Park and Preserve, flooded 
when the New Orleans levee systems failed. The facilities and lands at 
the battlefield and cemetery sustained wind and flood damage and remain 
closed due to damage sustained during the storm.
    Question 2b. What supplemental appropriations has the Department 
received? Is this sufficient?
    Answer. In the fall of 2005, the administration requested $135.8 
million to begin to address the damage sustained by the Department's 
assets in the Gulf region. The Department received $70.3 million in 
supplemental funding as part of the Department of Defense, Emergency 
Supplemental Appropriations to Address Hurricanes in the Gulf of 
Mexico, and Pandemic Influenza Act, 2006, which was enacted in December 
2005. The funds provided in the December supplemental are allowing the 
FWS, NPS, MMS and USGS to do immediate stabilization and repair of 
facilities in the Gulf coast region and to re-establish operations at 
affected facilities.
    In February 2006, the administration requested an additional $216 
million in supplemental funding for the Department to address damage to 
NPS, MMS, FWS and USGS facilities in the Gulf coast region. The 
supplemental funds requested will allow MMS, NPS, FWS and USGS to 
address the critical needs at facilities in the Gulf coast region.
    Funding for this work is critical, as it will be used to conduct 
clean-up of hazardous materials and debris removal on public lands and 
repair and reconstruction of facilities at park units and national 
wildlife refuges. These actions are necessary to open roads and trails 
to the public, repair visitor centers and exhibits, and reconstruct 
water control structures and habitats that are important to migratory 
bird populations and other wildlife. In the absence of these repairs, 
public access will continue to be limited and there will continue to be 
impacts to local communities that will not benefit from tourism. The 
repair of levees on Interior lands is essential to provide flood 
control to communities and to provide habitat that is essential to 
support migratory birds and other wildlife.
    The supplemental also includes funding for MMS to complete 
restoration of its operations in New Orleans. In order to sustain 
operations, MMS relocated staff and established a temporary office in 
Houston. Funding is needed to fund the temporary office and reestablish 
operations and relocate staff back in New Orleans. Without this funding 
MMS will not be able to continue work that is essential to reestablish 
offshore production of oil and gas. As of March 8, 2006, shut-in oil 
production is equivalent to 23.22% of the daily oil production, and 
shut-in gas production is equivalent to 14.03% of the daily gas 
production in the Gulf of Mexico. Without these funds MMS will not be 
able to reestablish its offices in New Orleans.
    In addition, Interior's request includes $3 million to fund 
increased capacity for State Historic Preservation Officers for 
required clearances to allow repairs and reconstruction of buildings 
and other facilities while ensuring consistency with historic 
preservation requirements.
    Question 3. Is the Department involved in ongoing efforts to 
coordinate Federal actions and programs in rebuilding the Gulf Coast? 
If so, please specifically describe.
    Answer. The Department of the Interior is represented on ESF 14, 
Long-Term Community Recovery, by USGS. Several Departmental personnel 
have been deployed under ESF 14.
    In addition to coordination of Federal actions, DOI is involved in 
extensive efforts relevant to rebuilding the Gulf Coast. Protection of 
the Gulf Coast ecosystem has been a Federal, state, local, and private 
sector interest for many years. DOI is involved in many of the numerous 
interagency, intergovernmental, and public-private efforts to deal with 
Gulf Coast issues that pre-date Katrina, as well as those that could be 
useful to address environmental damage from the 2005 hurricanes. Two of 
these efforts, led by USACE, are described in the answer to question 4, 
below.
    MMS is working to restore offshore oil and gas energy production in 
the Gulf Coast by:

  <bullet> Expediting reviews of pipeline and production structure 
        repairs.
  <bullet> Developing procedures for the next hurricane season and for 
        future years with industry to address Mobil Offshore Drilling 
        Units (MODU) issues and losses.
  <bullet> Requesting research proposals in six areas related to 
        hurricanes: pipeline movement, offshore platform damage, 
        performance of jack-up rigs, startup after hurricanes, 
        hurricane hindcast data, and response of waves and currents.
  <bullet> Granting Lease Term Extensions due to hurricane damage.
  <bullet> Granting Suspensions of Operations due to rig delay, lack of 
        rig availability and long lead equipment.
  <bullet> Granting limited flaring approvals related to hurricane 
        damage.

    Through redirected funds and a requested supplemental, USGS is 
providing data and information resources to help local, State, and 
Federal decision-makers evaluate the effectiveness of recovery and 
mitigation proposals, and to improve responsiveness to and assessment 
and forecasting of future hurricane and severe storm impacts in the 
Gulf of Mexico region and nationwide. Initiatives for FY06 include 
environmental assessments, hazards monitoring, landscape change 
monitoring, and provision of science for the coastal plan as directed 
by Congress. USGS scientists use remote-sensing technology and GIS to 
identify changes to wetlands and coastlines. Continuing efforts will 
utilize satellite imagery, high resolution digital imagery from 
aircraft, and field investigations. The National Wetlands Research 
Center in Lafayette, LA, is a source and clearinghouse of science 
information for government, academia, and the public. The Center 
provides people with the knowledge, insight, and abilities that enable 
them to make sound decisions about vital wetland resources. Other 
Science Centers contribute to the post-Katrina science effort including 
(1) Coastal and Marine team housed in St. Petersburg and Santa Cruz, 
(2) the USGS Louisiana Water Science Center and (3) numerous scientists 
from other centers
    FWS is partnering with all relevant Federal and state agencies and 
conservation groups to address hurricane impacts on trust resources 
such as migratory birds, inter-jurisdictional fishes, and imperiled 
species and their habitats in a cooperative and collaborative manner.
    More than $167 million in National Coastal Wetlands Conservation 
Grants (1992-2006) has been awarded to carry out coastal wetlands 
conservation projects in the U.S. FWS FY 06 National Coastal Wetlands 
Conservation Grant Project Proposals (pre-hurricanes) include one in 
Alabama and one in Texas. FWS is also a key player in implementation of 
the John H. Chafee Coastal Barrier Resources Act established the 
Coastal Barrier Resources System (CBRS), including undeveloped coastal 
barriers along the Gulf coast. The Act limits Federal spending that 
serves to encourage risky development in these designated areas, 
including Federal flood insurance and support for new infrastructure. 
FWS maintains the repository for maps that depict the CBRS. The Service 
also advises Federal agencies, landowners, and Congress regarding 
whether properties are in the CBRS and what kind of Federal 
expenditures are allowed in the CBRS. The Service is working with 
Congress to modernize the technologically outdated maps of the CBRS in 
order to: increase the efficiency of the program; improve customer 
service; better conserve natural resources by integrating digital CBRS 
information into conservation planning efforts; and maintain the long-
term integrity of the CBRS by comprehensively addressing technical 
mapping errors associated with the current outdated paper maps.
    Question 4. What role does the Department or agencies within the 
Department have in working with the Army Corps of Engineers in 
rebuilding the infrastructure in the Gulf Coast region?
    Answer. The Department has been responding to US Army Corps of 
Engineers (USACE) requests for assistance. As part of the National 
Response Plan, the USACE requested support of Emergency Support 
Function-3, Public Works and Engineering. The Bureau of Reclamation 
Coordination Center coordinates personnel from all Interior Bureaus to 
meet the request of the USACE for Quality Assurance, Quality Control, 
and Safety personnel to oversee Temporary Roofing, Housing and Debris 
Removal, and to meet the request of the Federal Emergency Management 
Agency for Public Assistance.
    Additionally, at the request of the USACE, a Reclamation staff 
member is assisting in guiding the risk analysis portion of New Orleans 
Hurricane Protection System/Independent Performance Evaluation Team 
(IPET) investigation. At the request of the American Society of Civil 
Engineers, a Reclamation staff member is participating on the external 
review panel for the products of the IPET investigation. The USACE is 
using the results of the IPET investigations to make decisions 
concerning the repair/restoration of infrastructure associated with the 
hurricane protection system.
    Reclamation will continue to provide technical assistance where 
possible upon a USACE request.
    The Department has worked with USACE for many years through the 
Coastal Wetlands Planning, Protection and Restoration Act (CWPPRA) Task 
Force and in development of the Louisiana Coastal Area (LCA) Ecosystem 
Restoration Plan (FWS and GS). As a result of the working relationships 
developed through these programs, FWS and GS are also working with 
USACE on South Louisiana Hurricane Protection and Restoration under the 
FY 2006 authorization and appropriation to conduct comprehensive 
hurricane protection analysis and design and to develop and present a 
full range of flood control, coastal restoration, and hurricane 
protection measures for South Louisiana. The project is to be fully 
coordinated with coastal ecosystem protection and restoration efforts 
and authorities. FWS and GS are participating under the provision 
requiring representatives of other Federal, State, and local agencies 
to be invited to be members of the team, bringing their expertise, 
programs, and projects together with the Corps. FWS and GS are also 
involved in Mississippi Hurricane Protection and Restoration under the 
FY 2006 appropriation to USACE to ``conduct an analysis and design for 
comprehensive improvements or modifications to existing improvements in 
the coastal area of Mississippi in the interest of hurricane and storm 
damage reduction, preventions of saltwater intrusion, preservation of 
fish and wildlife, prevention of erosion, and other related water 
resource purposes as full Federal expense.''
    The majority of FWS interactions with the USACE have occurred in 
Louisiana. FWS field staff are working closely with other Federal, 
State, and private entities in a wide variety of post-hurricane 
recovery actions (both on and off of FWS facilities), and our 
interactions with the New Orleans District (NOD) USACE have been good, 
especially with regard to field-level technical coordination.
    NOD staff has worked to help FWS move ahead with the South 
Louisiana Comprehensive Coastal (hurricane) Protection and Restoration 
Project (LACPR) scoping and alternative formulation, as well as 
project-area-specific actions related to Task Force Guardian in 
anticipation of the upcoming hurricane season. LACPR will investigate 
measures needed to provide coastal Louisiana with additional flood 
control features, Category 5 hurricane protection and coastal 
restoration. Protection would be provided via typical hurricane 
protection methods (e.g., levees, floodwalls) and modifications of such 
existing features; coastal restoration measures examined would 
complement hurricane protection.
    In Mississippi, similar positive interactions are occurring between 
the FWS and the Mobile District Corps of Engineers as it relates to 
post hurricane recovery actions.
    Due to competing priorities, there is still a need to enhance 
coordination with the Louisiana Recovery Authority and the Louisiana 
Coastal Protection and Restoration Authority (state agencies) to 
understand the needs and direction that local/State officials will use 
to guide/influence the direction of the Louisiana Coastal Protection 
and Restoration project.
    We are concerned, however, that the approved LACPR schedule and 
related guidance to USACE may result in structural engineering and 
authorization of Category 5 hurricane protection projects that do not 
integrate sustainable ecosystem restoration as a co-equal objective. At 
the field-level, we will continue to capitalize on existing 
partnerships and work hard to develop and maintain the widespread and 
strong support for the concept that healthy ecosystems and appropriate 
land and water uses will be essential to developing and maintaining 
sustainable structural and non-structural hurricane protection 
projects.
    Ultimately, the success of near-term hurricane recovery and 
response efforts will largely depend upon the extent to which the 
ecological interconnections between and among the Texas, Louisiana, and 
Mississippi coastal ecosystems, the Mississippi River ecosystem, and 
the Gulf of Mexico ecosystem can be sustainably protected and restored 
at the landscape and smaller scales.
    Question 5. What Solicitor's Opinions are currently under review? 
What Solicitor's Opinions do you expect to review during the remainder 
of FY06 and in FY07? Please provide a list.
    Answer. There are no Solicitor's Opinions currently under review. 
It is my understanding that there are no plans at this time to review 
any particular Solicitor's Opinions.
    Question 6. The Departmental Management request includes an 
increase of $400,000 to implement the hearings requirement for the 
hydropower licensing provisions of the Energy Policy Act of 2005. 
Please describe the assumptions used in developing this number.
    How many hearings does the Department anticipate in each of the 
upcoming five fiscal years? How many of these hearings are anticipated 
to involve proceedings where the Department's conditions had been 
developed on or before the date of enactment of the Energy Policy Act? 
How many hearings have been initiated to date under the new provisions?
    Answer. The Department projects that it will receive eight to ten 
hearing requests per year. While some of those could be consolidated 
and others might be resolved without a full trial-type hearing (e.g., 
by the Department's agreeing to accept an alternative condition or 
prescription), the Department expects that the hearings it will conduct 
will require one administrative law judge (ALJ) and one staff attorney 
in the Office of Hearings and Appeals. The $400,000 figure reflects 
personnel costs for these employees, plus the expected costs for travel 
and court reporters for the hearings. It currently appears that the 
Department will hold three hearings in the second half of FY 2006 and 
three to four hearings in the first half of FY 2007. Assuming this rate 
continues, the Department anticipates holding six to eight hearings in 
each of the next five fiscal years. One of the hearings to be held in 
FY 2006 and two or three of the hearings to be held in FY 2007 will 
relate to conditions or prescriptions developed before the date of 
enactment. Finally, the Department has received six hearing requests to 
date and expects to receive two more this fiscal year.

                   Minerals Management Service (MMS)

    Question 7. The Energy Policy Act of 2005 provides the Secretary of 
the Interior with new authorities to develop non-oil and gas resources 
on the outer Continental Shelf. Please provide for the record a time-
line for MMS's completion of any necessary programmatic environmental 
impact statement, other environmental compliance documents, and 
implementing regulations.
    What is the current status of work on these documents?
    Answer. The Energy Policy Act of 2005 authorizes the Secretary of 
the Interior to provide access to the OCS for renewable energy and 
alternative use projects. The MMS has begun working on developing a new 
program and regulations. In December 2005, the MMS published an 
Advanced Notice of Proposed Rulemaking seeking public comment on five 
major program areas: access to OCS lands and resources; environmental 
information, management, and compliance; operational activities; 
payments and revenues; and coordination and consultation. The comment 
period closed at the end of February.
    MMS will now prepare a programmatic Environmental Impact Statement, 
which will provide for public input concerning the scope of national 
issues associated with offshore alternate energy-related use 
activities; identify, define, and assess generic environmental, socio-
cultural, and economic impacts associated with offshore alternate 
energy-related use activities; evaluate and establish effective 
mitigation measures and best management practices to avoid, minimize, 
or compensate for potential impacts; and facilitate future preparation 
of site-specific environmental compliance documents.
    In addition, throughout the process MMS will coordinate and consult 
with stakeholders.
    Question 8a. I understand that MMS is authorized to enter into 
memoranda of understanding with States and Indian tribes to undertake 
audit work for royalties generated on Federal lands. There has been 
concern among some states that MMS is not adequately funding this work 
by the states and tribes.
    Can you please tell me what the level of funding is for this work 
in the President's Budget? Can you provide the level of current and 
anticipated funding for each state and tribe?
    Answer. The President's FY 2007 budget request for the State & 
Tribal Cooperative Audit Program is $8,983,000. Of this total, 
$6,335,000 is requested to be allocated to States and $2,648,000 to 
Tribes. Attached is a file that shows the FY 2005 and FY 2006 
allocations by State and Tribe along with the total request in the 
President's FY 2007 budget. Annual allocations to the States and Tribes 
are determined in September after submission of individual work plans.
    Question 8b. Will you work with me to ensure that adequate funding 
is made available to states and tribes so that they can effectively 
undertake this important work?
    Answer. MMS continues to make every effort to consider state and 
tribal needs and to ensure those needs are met in our budgeting 
request. We will be happy to work with you as you consider this 
request.
    Question 9. The Energy Policy Act of 2005 contains a provision 
providing royalty incentives for natural gas production from deep wells 
in shallow waters of the OCS.
    How did this authority differ from administrative relief being 
provided pursuant to regulation at the time of enactment of EPACT? What 
budgetary impacts over the next 5 fiscal years are expected as a result 
of this provision?
    Answer. The Energy Policy Act of 2005 added royalty incentives for 
deep gas leases in 200-400 meters (656-1,312 ft). The Act also provided 
additional royalty relief for certain ultra-deep wells greater than 
1500 meters (5000 ft). The budgetary impacts will depend on several 
factors, including the success of exploration wells drilled in the 
coming years and on the price threshold provided for in any final rule.
    Question 10. The Energy Policy Act of 2005 also contains a 
provision relating to deep water royalty relief.
    How does the provision differ from administrative relief being 
provided pursuant to regulation at the time of enactment of EPACT? What 
are the expected budgetary impacts of provision over the next five 
fiscal year?
    Answer. The Energy Policy Act of 2005 added a fourth tier of 
royalty relief to the existing deepwater program. The volume of royalty 
relief was increased from 12 to 16 million barrels of oil equivalent 
for water depths 2000 meters or deeper in the central and western Gulf 
of Mexico planning areas. The Act also requires that deep water royalty 
relief continue for the next 5 years. We do not have an estimate of the 
budgetary impacts.
    Question 11. Along with many of my colleagues, I have requested 
that GAO look into several aspects of the royalty management program at 
the Department to ensure that the American public is getting a fair 
return on its oil and gas resources.
    Do I have your commitment that Departmental personnel will fully 
cooperate with GAO in this effort?
    Answer. Yes, the Department of the Interior's policy is to fully 
honor all GAO inquiries and ensure that we provide accurate and timely 
information. This message has been communicated to all levels and 
organizations within the Department. With regard to the GAO 
investigation into the Department's royalty management program, the 
Minerals Management Service is fully cooperating and providing 
information the GAO requests.

          Office of Surface Mining Reclamation and Enforcement

    Question 12. Current authority to collect the Abandoned Mine Land 
fee expires on June 30, 2006. I think it is extremely important that 
Congress act to extend this authority. I note that the President's 
Budget proposes an interim reauthorization of the fee collection at the 
current rate until September 30, 2007.
    Does the administration support lowering the fee at this time?
    Answer. We do not support lowering the fee as part of a short-term 
extension. However, we would consider a fee reduction as part of a 
long-term solution within the context of legislation to amend and 
extend the fee collection authority, provided such an extension is 
consistent with the four goals for the program.
    Question 13. What level of funding would be needed to undertake a 
comprehensive inventory of abandoned hardrock mine sites?
    Answer. Conducting such an inventory is beyond our current 
authority. Moreover, there are many states with an extensive history of 
hard rock mining, such as Idaho and Nevada, which have never been 
included in our AML program. Therefore, we are unable to provide an 
estimate of the funds that would be needed for such an inventory.
    Question 14. The administration previously submitted legislation to 
reform the AML program.
    Does the administration continue to support that legislative 
proposal as the best approach to AML reathorization?
    Answer. The administration continues to support that legislative 
proposal, but could support an alternative fiscally responsible and 
fair proposal that would achieve our four goals for the program within 
the President's mandatory and discretionary spending limits. Those 
goals are to:

          a. focus on the need to accelerate the clean up of dangerous 
        abandoned coal mines by directing funds to the highest priority 
        areas so that reclamation can occur at a faster rate;
          b. honor the commitments made to States and Tribes under 
        current law;
          c. address funding for the 16,500 unassigned beneficiaries of 
        the United Mine Worker's Combined Benefit Fund (CBF) while 
        protecting the integrity of the AML fund; and
          d. provide sufficient funding to finish the job of reclaiming 
        high priority health and safety sites.

    Question 15. Does the administration support allowing Tribes to 
have primacy under the same standards as apply to States for purposes 
of administering the regulatory program under Title V of SMCRA?
    Answer. The administration continues to support the concept of 
tribal primacy. We would be pleased to review any bill developed to 
address this issue.

                       Bureau of Land Management

                          ENERGY AND MINERALS

    Question 16a. I am pleased that section 365 of the Energy Policy 
Act provides mandatory funding from lease rentals for the pilot project 
to improve Federal oil and gas permit coordination. I understand that 
the amount of mandatory funding is estimated to be approximately $20 
million, and was disappointed to see that in future years the 
administration proposes to replace it with a user fee. I have several 
questions about BLM's implementation of this program.
    How much of the funding under the program will be used to pay for 
positions in BLM? Of these, how many positions will be dedicated to 
inspection and enforcement?
    Answer. In FY 2006 the BLM estimates it will spend $7,875,000 for 
direct payroll costs for new BLM positions in the Pilot Offices. The 
BLM is recruiting 36 new positions that will work in the Inspection and 
Enforcement program at the seven Pilot offices.
    Question 16b. I understand that lack of resources in other agencies 
having a role in permitting has been a problem in the past. How many 
positions are being paid for in the Fish and Wildlife Service with 
these new funds? The Forest Service?
    Answer. The BLM Permit Processing Improvement Fund will fund ten 
Fish and Wildlife Service positions and six Forest Service positions in 
Fiscal Year 2006. The BLM intends to meet regularly with these agencies 
to ensure the appropriate use of these positions and to assess any 
additional needs that may develop.
    Question 17. What assumptions does the FY07 Budget make with 
respect to leasing in the Arctic National Wildlife Refuge? Please 
provide the specific information and data supporting the assumptions 
contained in the Budget with respect to revenues. What assumptions does 
the Budget make regarding: (1) the price of oil; (2) the timing of 
production; and (3) the magnitude and location of oil production? What 
assumptions does the Budget make regarding bonus bids and what is the 
basis for each assumption? Did you look at comparable lease sales? If 
so, please provide the specific information as to the location, timing, 
resource estimates, and bonus bids for each comparable sale. Please 
specifically explain the reasons for the differences in the assumptions 
in the FY06 Budget and the FY07 Budget with respect to revenues from 
the Arctic National Wildlife Refuge. Please provide your data and 
analysis for the assumptions for both FY06 and FY07. What 
infrastructure do you assume will be necessary for production from the 
Arctic Refuge? How many miles of pipeline within the Refuge will be 
required, given your assumptions regarding the magnitude and location 
of production?
    Answer. The estimate in the Budget was made by 1) analyzing geology 
and geophysical information to determine geology parameters; 2) 
conducting an engineering analysis of the exploration, development, 
production, and reclamation phases for the potential range of sources; 
and 3) running an economic analysis of 1) and 2) under projected market 
conditions.
    The most recent USGS estimates state that:

  <bullet> There is a 95 percent probability that at least 5.7 billion 
        barrels of technically recoverable undiscovered oil are in the 
        Alaska National Wildlife Refuge (ANWR) coastal plain,
  <bullet> There is a 5 percent probability that at least 16 billion 
        barrels of technically recoverable undiscovered oil are in the 
        ANWR coastal plain, and
  <bullet> The mean or expected value is 10.36 billion barrels of 
        technically recoverable undiscovered oil in the ANWR coastal 
        plain.

    The primary area of the coastal plain is the 1002 Area of ANWR, 
which was established when ANWR was created. Also included in the 
Coastal Plain are State lands to the 3-mile offshore limit and Native 
Inupiat land near the village of Kaktovik.
    The unique combination of source rocks and reservoir traps is 
similar to the geologic combination of events that caused the 
productive reservoirs to the west including the Prudhoe Bay Field. 
Therefore, similar results are anticipated. However, the geologic 
interpretation has changed since BLM estimated ANWR leasing revenues in 
1992. At that time most of the oil was expected in several large 
structures. Now USGS expects that these structures are more likely gas 
and that most of the oil will be found in stratigraphic traps over a 
large area. The uncertainty of the location of these traps is an added 
risk that affects the bidding of the oil companies. We have been able 
to model the impact on bidding using comparable sales from NPRA and 
price expectations from the Department of Energy's Energy Information 
Administration's (DOE/EIA) Annual Energy Outlook (AEO) 2005. This 
impact can now be applied using the updated price scenarios from the 
AEO 2006.
    We estimate that first production will not occur until after at 
least 10 years from Congressional approval to open ANWR to leasing. 
This includes all regulatory actions necessary to conduct the first 
sale, exploration sufficient to proceed with development, and the 
concurrent field development, facilities construction, and pipeline 
design, approval, and construction. Thus production will not occur 
until after 2016.
    DOE/EIA has published the Reference Case for the AEO 2006. They 
also provided BLM with sufficient information to conduct the revenue 
estimate analysis with price scenarios consistent with the high and low 
oil prices in the thus far unpublished cases from the AEO 2006.
Assumptions
    The estimate of receipts and funding requirements is based on the 
following assumptions:

          1. Legislation authorizing ANWR development would be enacted 
        in time to allow a sale in FY2008.
          2. Regulations would be completed in FY2007.
          3. The Final Legislative EIS on the 1002 area dated April 
        1987 would satisfy the requirements of NEPA with respect to 
        pre-lease activities.
          4. The EIS and related planning document would be final in 
        FY2008 with sufficient time for the sale in FY2008 (18 months 
        after enactment).
          5. The BLM would serve as lead for the EIS in active 
        consultation and cooperation with FWS. BLM would have 
        responsibility for the sub-surface minerals resource input and 
        analysis with assistance from USGS.
          6. Two lease sales would be conducted before October 1, 2010.
          7. The estimates for bonus bids are based on expected values 
        given the best information we have on geologic probability 
        curves and risks, as well as probability functions for costs 
        and prices.
          8. The geologic inputs were based on the joint analysis by 
        staff experts of the USGS and BLM regarding oil potential and 
        probabilities using the most recent USGS estimates of the oil 
        and gas resources of the 1002 area of ANWR (Arctic National 
        Wildlife Refuge, 1002 Area, Petroleum Assessment, 1998, 
        Including Economic Analysis U.S. Geol. Open File Report 98-34, 
        1999) and the various updates including Undiscovered oil 
        resources in the Federal portion of the 1002 area of the Arctic 
        National Wildlife Refuge: an economic update U.S. Geol. Survey 
        Report 2005-1217.
          9. Economic inputs regarding oil pricing were based on the 
        EIA 2006 Annual Energy Outlook.
          10. Production will not occur before 10 years after first 
        lease sale, i.e. no production volumes or royalties on this 
        chart. Does not include production or revenues from State or 
        Native lands.
          11. The top tracts will go first so that the best prospects 
        are sold in the first sale, and most of the remainder in the 
        second.
          12. Final adjustments were made based on bidding patterns in 
        nearby north slope oil and gas lease sales.

    The model assumes a 50/50 split of revenues with the State of 
Alaska, a royalty rate of 12\1/2\%, and that almost all tracts would be 
available for nomination in each sale. The model used for the analysis 
was a Monte Carlo Discounted Cash Flow model. With these 
considerations, the model results in total bonus bid estimates of $7.0 
billion for a 2008 lease sale and $1.0 billion in 2010. There are 35 
mapped structural prospects. Each prospect is run 1,000 times in the 
Monte Carlo model, with the condition that hydrocarbons exist, 
considering a number of differing factors. Similarly, the same is done 
for the one large stratigraphic play that covers approximately the 
northwestern third of the 1002 area. As a result, the specific 
infrastructure and transportation assumptions change thousands of times 
based on the running of the model.
    Question 18a. What is the total amount of funding for the oil and 
gas I&E program included in the request for FY06? Please provide a 
table showing the funding for this program (both requested and enacted) 
for the previous 10 fiscal years.
    Answer.

              BLM INSPECTION AND ENFORCEMENT FUNDING ($000)
------------------------------------------------------------------------
                     Fiscal year                       Request   Enacted
------------------------------------------------------------------------
1996................................................    14,850    14,850
1997................................................    14,850    14,850
1998................................................    14,850    14,850
1999................................................    14,850    14,850
2000................................................    15,365    15,365
2001................................................    20,042    20,042
2002................................................    22,673    22,673
2003................................................    24,000    24,000
2004................................................    26,000    26,000
2005................................................    26,250    26,250
2006................................................    27,890    27,890
2007................................................  \1\ 35,7
                                                            40
------------------------------------------------------------------------
\1\ In FY 2007, BLM plans to spend $5.1 million in mandatory funding at
  pilot offices for inspection and enforcement.

    Question 18b. I had requested funding for additional inspectors in 
the Farmington Field office. How many additional inspectors have been 
added to this office in each of the past three fiscal years?
    Answer. In FY 2002, the Farmington field office had 11 inspection 
and enforcement (I&E) program staff. There were 10 petroleum 
engineering inspectors and auditors and one technician. No additional 
positions were hired with new funding.
    In FY 2003, an additional seven I&E inspectors were brought on 
board in the Farmington field office (four under the new funding 
authority, three through filling vacancies and reassigning employees). 
An additional I&E coordinator from the BLM State Office provides onsite 
oversight and coaching, including a seven month detail as a supervisor.
    In FY 2004, there were no new inspectors hired by the Farmington 
filed office as the new hires completed their certification training.
    In FY 2005, a total of 18 I&E inspectors, classified as Petroleum 
Engineering Technicians (PET) were on staff at the Farmington Field 
Office: 14 PETs, three PET leads, and one supervisory PET. One PET 
working as a Natural Resource Specialist focusing on environmental 
surface compliance, and one PET position which funds two SCEP students 
to train as PETs are also on I&E staff for a total of 21 staff. The I&E 
staff is also supported by three Production Accountability Technician 
(PAT) auditors. In addition, the 21 Farmington Field Office (FFO) 
inspectors and three PAT auditors are provided support by two PETs 
assigned to the Federal Indian Mineral Office for trust 
responsibilities on Navajo allotted leases and five Tribal I&E 
inspectors working under cooperative agreements with the Navajo. Total 
staff count contributing directly to I&E is 32 including the onsite 
State Office coordinator. No new additional staff has been hired in FY 
2005.
    Also, in FY 2005, in addition to the 32 I&E staff in FFO, 2 I&E PET 
inspectors, one supervisory PET, and three Tribal I&E inspectors were 
reassigned by consolidation to the FFO from the BLM's Cuba, NM, office. 
The Cuba office inspects and audits federal and Jicarilla Indian 
reservation lease activities.
    In FY 2006, the Farmington Field Office has hired an additional 4 
(four) I&E inspectors, with mandatory funding provided under the Energy 
Policy Act of 2005.
    Question 18c. Are you planning to hire additional inspectors in 
offices where the workload is increasing due to coalbed methane 
production? Please provide specifics.
    Answer. Hiring additional inspectors is a major component within 
BLM's 2007 budget. In addition to maintaining past increases in funding 
for the I&E program, the 2007 budget requests an additional $2.9 
million for inspections. In addition, in recognition of the important 
role of inspections in ensuring production verification and 
environmental compliance, BLM is proposing in its FY 2007 request to 
redirect an additional $2.3 million within the oil and gas management 
program from lower priority work into inspections. Finally, mandatory 
funding provided under Section 365 of the Energy Policy Act will allow 
the seven pilot project offices to fill an additional 36 positions for 
I&E. These positions should be filled during FY 2006.
    Question 19. What is the total amount of requested funding for oil 
and gas NEPA compliance for FY07? Please provide a table showing the 
funding for NEPA compliance (both requested and enacted) for the 
previous 10 years.
    Answer. The BLM's FY 2007 Budget Request does not specify a funding 
amount for NEPA compliance within the Oil and Gas Management program 
because the costs of NEPA compliance are not individually tracked 
within the BLM's oil and gas financial management system. Rather, those 
costs are aggregated across various portions of the BLM's oil and gas 
budget, such as APD processing, processing of sundry notices, and 
inspection and enforcement.
    The following is a table that estimates the BLM's NEPA compliance 
costs in the Oil and Gas program over the last seven years. NEPA 
compliance costs have increased as the number of leases and permits 
processed have increased.

                     ESTIMATED NEPA COMPLIANCE COSTS
                          (Oil and Gas Program)
------------------------------------------------------------------------
                        Fiscal year                            Funding
------------------------------------------------------------------------
1999.......................................................   $9,000,000
2000.......................................................   $9,500,000
2001.......................................................   $9,600,000
2002.......................................................  $10,040,000
2003.......................................................  $10,500,000
2004.......................................................  $11,750,000
2005.......................................................  $12,500,000
------------------------------------------------------------------------

    Question 20. What is the total backlog of APD's? Please provide a 
table showing the backlog over the last ten years and the number of 
APD's received and processed during each of the last ten years. Please 
display this information on a state-by-state basis.
    Answer. The tables below include the requested data related to APD 
processing.

                             APDs PENDING LONGER THAN 60 DAYS AT END OF FISCAL YEAR
----------------------------------------------------------------------------------------------------------------
              State                1996    1997    1998    1999    2000    2001    2002    2003    2004    2005
----------------------------------------------------------------------------------------------------------------
AK..............................       0       0       1       1       6      15       0       0       0       0
CA..............................       8      12      18      51      24       5       6       7       3       4
Colorado........................      16      21      28      44      33      74      67      65      52      74
Eastern States..................       1       3       6      26      10       7      10      23      12      21
Montana.........................      23      29      36      40     102      67     134     114      82      89
NV..............................       0       0       1       0       0       0       0       0       7       6
New Mexico......................     259     295     318     255     368     503     740     692     501     546
Utah............................      73      82      91     147     150     266     526     443     353     397
Wyoming.........................     305     347     387     349   1,060   1,059   1,597   1,436   1,204   1,324
Nationwide......................     685     789     886     913   1,753   1,996   3,080   2,780   2,214   2,461
----------------------------------------------------------------------------------------------------------------


                                        APDs RECEIVED DURING FISCAL YEAR
----------------------------------------------------------------------------------------------------------------
              State                1996    1997    1998    1999    2000    2001    2002    2003    2004    2005
----------------------------------------------------------------------------------------------------------------
AK..............................       0       1       2      14      11      23      12       6      18       8
CA..............................     206     356     395     219     121      70     118      69     116     235
Colorado........................      70     107     122     184     254     299     265     323     502     605
Eastern States..................       4      29      28      37      39      23      14      73      70     136
Montana.........................       8     180     183      89     271     213     221     325     421     451
NV..............................       0       2       7       0       0       1       7       4      15       9
New Mexico......................     745     926   1,034     832   1,280   1,351   1,087   1,385   1,668   1,619
Utah............................     228     388     389     271     394     680     496     639     792   1,245
Wyoming.........................     148     656     984   2,859   1,607   2,159   2,365   2,239   3,377   4,043
Nationwide......................   1,409   2,645   3,144   4,505   3,977   4,819   4,585   5,063   6,979   8,351
----------------------------------------------------------------------------------------------------------------


                                        APDs APPROVED DURING FISCAL YEAR
----------------------------------------------------------------------------------------------------------------
              State                1996    1997    1998    1999    2000    2001    2002    2003    2004    2005
----------------------------------------------------------------------------------------------------------------
AK..............................       1       1       3       6       8      11      12       8      14       8
CA..............................     154     273     410     172      87      72     108      73     109     232
Colorado........................      59     104      84     153     209     235     208     296     407     608
Eastern States..................       8      17      34      13      22      27      13      44      63     110
Montana.........................       5     159     121     103     160     168     202     294     213     425
NV..............................       0       0       6       1       0       0       6       3      10      10
New Mexico......................     524     681     716     600     898     930     960   1,183   1,492   1,475
Utah............................     178     299     292     157     316     505     463     437     677     770
Wyoming.........................      91     455     682     554   1,569   1,688   1,568   1,623   3,467   3,380
Nationwide......................   1,020   1,989   2,348   1,759   3,269   3,636   3,540   3,961   6,452   7,018
----------------------------------------------------------------------------------------------------------------


                                        APDs RETURNED DURING FISCAL YEAR
----------------------------------------------------------------------------------------------------------------
              State                1996    1997    1998    1999    2000    2001    2002    2003    2004    2005
----------------------------------------------------------------------------------------------------------------
AK..............................       0       0       0       1       1       2      21       1       1       0
CA..............................      43      27      22      21      56      24      12       4       5       3
Colorado........................       7       1      10      16      29      20      51      29      17      30
Eastern States..................       0       2       1       3       4       6       5      20      13       8
Montana.........................       0       0       6      21      26      18      59      64      79      29
NV..............................       0       0       0       0       0       0       0       0       0       2
New Mexico......................      59      59     105     307     158     310     413     407     165      95
Utah............................      29      60      65      47      51      34      84     120     178      16
Wyoming.........................      11      25      80     131     298     216   1,645     537     441     535
Nationwide......................     149     174     289     547     623     630   2,290   1,182     899     718
----------------------------------------------------------------------------------------------------------------


                                     TOTAL APDs PROCESSED DURING FISCAL YEAR
----------------------------------------------------------------------------------------------------------------
              State                1996    1997    1998    1999    2000    2001    2002    2003    2004    2005
----------------------------------------------------------------------------------------------------------------
AK..............................       1       1       3       7       9      13      33       9      15       8
CA..............................     197     300     432     193     143      96     120      77     114     235
Colorado........................      66     105      94     169     238     255     259     325     424     638
Eastern States..................       8      19      35      16      26      33      18      64      76     118
Montana.........................       5     159     127     124     186     186     261     358     292     454
NV..............................       0       0       6       1       0       0       6       3      10      12
New Mexico......................     583     740     821     907   1,056   1,240   1,373   1,590   1,657   1,570
Utah............................     207     359     357     204     367     539     547     557     855     786
Wyoming.........................     102     480     762     685   1,867   1,904   3,213   2,160   3,908   3,915
Nationwide......................   1,169   2,163   2,637   2,306   3,892   4,266   5,830   5,143   7,351   7,736
----------------------------------------------------------------------------------------------------------------

    Question 21. How many acres have you put under oil and gas lease 
during each of the past ten fiscal years? Please display this on a 
state-by-state basis.

                                          DATA FOR FY 1996 THROUGH FY 2005 (DATA LAST UPDATED DECEMBER 8, 2005)
                                                        [Number of Acres Leased During the Year]
--------------------------------------------------------------------------------------------------------------------------------------------------------
             Geographic State                FY 1996    FY 1997    FY 1998    FY 1999    FY 2000    FY 2001    FY 2002    FY 2003    FY 2004    FY 2005
--------------------------------------------------------------------------------------------------------------------------------------------------------
Alabama...................................  .........        684         80  .........      7,855      4,486      4,185      8,990      5,077         80
Alaska....................................  .........  .........  .........    861,318  .........  .........    567,769     11,500  1,403,561
Arizona...................................  .........  .........     55,921  .........  .........     35,584      6,983      3,040      1,224     22,659
Arkansas..................................        928     39,602     48,011     74,442     21,573    178,785     71,247     95,792    182,158    172,858
California................................  .........     27,120     39,638     38,430     34,811     25,290     29,079     60,520     34,343      5,629
Colorado..................................    217,896    230,242    336,590    242,911    299,978    594,369    448,029    252,004    241,188    237,406
Connecticut...............................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Delaware..................................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Florida...................................  .........  .........  .........  .........      2,018  .........  .........      3,368  .........  .........
Georgia...................................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Hawaii....................................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Idaho.....................................  .........  .........  .........  .........         40  .........      5,798        671  .........  .........
Illinois..................................  .........  .........  .........  .........  .........  .........        112  .........  .........  .........
Indiana...................................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Iowa......................................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Kansas....................................  .........         80        958      2,354      1,154        599      2,378      5,764      1,240        160
Kentucky..................................  .........  .........      1,264  .........      1,143  .........      2,103  .........      4,968  .........
Louisiana.................................     42,900      5,687     25,442     12,333        322        606      3,033        511      1,366      1,985
Maine.....................................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Maryland..................................  .........  .........        320  .........  .........  .........  .........  .........  .........  .........
Massachusetts.............................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Michigan..................................  .........     20,810  .........     18,650      2,337  .........      3,939      4,050  .........        480
Minnesota.................................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Mississippi...............................     24,945     71,009     78,586      8,524     25,920     19,826     54,755     15,741     41,205     51,600
Missouri..................................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Montana...................................    299,376    241,346    363,402    289,719    380,273    551,660    293,461    172,874    221,740    313,016
Nebraska..................................        320  .........        760         80        503      7,126  .........      1,880  .........  .........
Nevada....................................    178,372    293,760    181,938     69,534    235,348    746,400    259,920    116,292    638,632  1,359,085
New Hampshire.............................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
New Jersey................................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
New Mexico................................    195,623    329,896    213,957    130,552    190,598    130,193    192,124    239,979    214,756    184,786
New York..................................  .........  .........  .........  .........        172  .........  .........  .........  .........  .........
North Carolina............................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
North Dakota..............................     38,139    188,650     67,110     28,705     21,944     52,858     39,354      6,099     82,527    149,814
Ohio......................................      8,324        285        337        193      1,870        268        121  .........      5,676        418
Oklahoma..................................     56,163     11,815     13,155     12,432      8,732      8,619      6,018     12,389      3,827     12,428
Oregon....................................     14,318     14,100        837     11,948     12,605      4,272      5,006        160  .........  .........
Pennsylvania..............................  .........  .........  .........  .........          7  .........        835  .........  .........  .........
Rhode Island..............................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
South Carolina............................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
South Dakota..............................     60,059     74,693      8,200  .........     62,235     91,880      2,760        548     10,862     33,533
Tennessee.................................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Texas.....................................     38,384     35,576      5,784     31,781     13,396     60,972     38,156     43,877     19,509      2,625
Utah......................................    316,989    444,385    278,702    217,934    247,126    284,928    222,070    240,527    118,878  1,001,681
Vermont...................................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Virginia..................................  .........  .........  .........        870      5,805  .........  .........  .........  .........  .........
Washington................................      1,243     11,485        663     32,899     33,891     16,297     11,544    210,188    192,979     45,423
West Virginia.............................  .........  .........  .........  .........     34,358  .........  .........      9,830      8,974     12,307
Wisconsin.................................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Wyoming...................................  1,029,579  1,426,795  1,880,476  1,516,941  1,004,479  1,182,253    541,827    547,695    722,431    706,234
                                           -------------------------------------------------------------------------------------------------------------
  Total...................................  2,523,558  3,468,020  3,602,131  3,602,550  2,650,493  3,997,271  2,812,606  2,064,289  4,157,121  4,314,207
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question 22a. How many acres of lands administered by the Forest 
Service and the BLM in states west of the hundredth meridian are 
currently under oil and gas lease? Please display by state and agency.
    Answer. The following is a table listing the acreage under oil and 
gas leases on BLM and FS-managed lands in states west of the hundredth 
meridian at the end of FY 2004. (Note: These figures do not include 
Federally-owned mineral estate under privately-owned surface lands.)

------------------------------------------------------------------------
                                         BLM            Forest Service
                                ----------------------------------------
             State                Number               Number
                                    of     Number of     of    Number of
                                  leases     acres     leases    acres
------------------------------------------------------------------------
Alaska.........................      339   2,757,762        0          0
Arizona........................       47      97,353        0          0
California.....................      552     285,655       14      4,185
Colorado.......................    4,393   3,818,207      440    446,204
Idaho..........................        3       2,465        0          0
Kansas.........................       45      13,555      291     63,452
Montana........................    3,001   2,850,939      627  1,208,159
Nebraska.......................        2         240        0          0
Nevada.........................    1,702   3,521,078       14     45,710
New Mexico.....................    7,574   4,645,587      237    215,535
North Dakota...................      283     106,342    1,253    724,365
Oklahoma.......................      747      93,614      191     80,277
Oregon.........................       17      30,709        8     27,288
South Dakota...................      134     122,635       20     11,510
Texas..........................       10       2,235      465    357,553
Utah...........................    2,949   3,356,886      337    648,376
Washington.....................      346     510,160        0          0
Wyoming........................   16,476  12,462,729      628    416,268
                                ----------------------------------------
  Total........................   38,620  34,678,151    4,525  4,248,882
------------------------------------------------------------------------

    Question 22b. How much acreage is under lease but not producing?
    Answer. Approximately 24 million acres.
    Question 22c. What are the reasons for this?
    Answer. Each oil and gas lease is effective for 10 years and 
contemplates that production may not occur immediately, but must occur 
within the lease period or any extension granted for good cause. 
Exploration and production companies generally have significant 
inventories of leased acreage that do not have oil or gas production. 
These leased acreage inventories are normal and necessary for a 
company's efficient exploration and production program. For example, 
companies sometimes desire to lease as many parcels of land as possible 
in a specific area before beginning exploration activities making it 
more economical to move needed equipment into the area. Lead time on 
getting a lease drilled may be many years depending on litigation and 
time frames to complete NEPA documentation.
    There are many other explanations for non-producing leases. Private 
individuals, as well as companies, often hold leases for speculation. 
Non-producing leases may be within a unit agreement or development 
contract and not have been drilled. Some leases are suspended as a 
result of litigation. Acquisitions and mergers within the industry 
sometimes result in a company selling or dropping a lease. Changes in 
corporate priorities resulting in management changes also sometimes 
lead to a company not developing a lease.
    Question 22d. How many of these acres are under lease with no 
drilling activity occurring? What are the reasons for this?
    Answer. The BLM tracks the number of leases and acres in 
production. However, because drilling activity can be very short-term, 
in some cases only two to three days, it is very difficult to track 
current drilling activity. Consequently, the BLM does not track how 
many acres under lease currently have drilling activity taking place.
    Question 23. What is the status of BLM's work on the study required 
under the EPCA? What areas are currently being evaluated? When will 
this work be completed? Will your analysis provide information on both 
the technically recoverable and economically recoverable resources?
    Answer. Phase I of the EPCA inventory was completed in 2003. The 
Phase II draft of the inventory required by the Energy Act of 2000, as 
amended by the Energy Policy Act of 2005, is currently undergoing 
review by the Interagency Steering Committee.
    Phase II includes and supersedes the areas in Phase I and includes 
additional areas. The Phase II study areas stretch from Alaska to 
Florida:

Northern Alaska (NPRA and ANWR 1002 only)
Montana Thrust Belt
Powder River Basin
Wyoming Thrust Belt
Green River Basin
Denver Basin
Uinta-Piceance Basin
Paradox/San Juan Basins
Appalachian Basin
Black Warrior Basin
Florida Peninsula

    Phase II is scheduled for release later this year. It will provide 
information on technically recoverable resources only.
    Question 24. What is the current level of funding and what level is 
proposed for fiscal year 2007 for the administration of renewable 
energy development on public lands? Please provide allocation by energy 
type.
    Answer. The BLM manages numerous types of renewable energy 
production on public lands, including geothermal, wind, solar, 
hydropower, and biomass production. Proposed funding for 2007, as well 
as funding since 2001, is summarized in the table below.

                  BLM RENEWABLE ENERGY--APPROPRIATIONS HISTORY AND 2007 BUDGET REQUESTS ($000)
----------------------------------------------------------------------------------------------------------------
                                    2001       2002       2003       2004     2005 (post   2006 (post     2007
         Program/issue            request    request    request    request   rescission)  rescission)   request
----------------------------------------------------------------------------------------------------------------
Geothermal.....................     300        350       1,300      1,250         1,233        1,214     1,214
Geothermal Steam Act                  0          0           0          0             0        2,693         0
 Implementation Fund (Energy
 Policy Act mandatory funding).
Renewable ROW primarily wind &        0          0         250        400           644          635       635
 solar energy..................
Hydropower relicensing.........  .........       0         300        300           296          291       291
Contribute to biomass energy          0          0           0          0           235          290       290
 supply.*......................
  Total Renewable Energy.......     300        350       1,850      1,950         2,408        5,123     2,430
----------------------------------------------------------------------------------------------------------------
Rescissions....................  .........  .........  .........  .........       1.40%        1.50%
----------------------------------------------------------------------------------------------------------------



                         BLM IS ALSO COMPLETING A WIND ENERGY ENVIRONMENTAL IMPACT STUDY
Wind Energy EIS.......................                N/A                       1,169        1,532         32
----------------------------------------------------------------------------------------------------------------
* These dollar figures represent project work only and don't account for BLM labor involved in facilitating the
  use of biomass energy within BLM, the public, and industry.

    Question 25. Please provide a table displaying the level of funding 
requested and enacted for each of the past 10 fiscal years for the 
Energy and Minerals program.

                       ENERGY AND MINERALS FUNDING
------------------------------------------------------------------------
                                                 Funding       Funding
                 Fiscal year                    requested      enacted
------------------------------------------------------------------------
1994........................................   $71,126,000   $70,876,000
1995........................................   $68,479,000   $68,121,000
1996........................................   $66,694,000   $67,049,000
1997........................................   $67,493,000   $67,493,000
1998........................................   $68,263,000   $70,363,000
1999........................................   $69,834,000   $69,944,000
2000........................................   $72,230,000   $74,010,000
2001........................................   $79,889,000   $79,419,000
2002........................................   $91,488,000   $95,393,000
2003........................................  $104,841,000  $105,898,000
2004........................................  $106,565,000  $108,519,000
2005........................................  $109,063,000  $108,181,000
2006........................................  $106,772,000  $108,157,000
2007........................................  $134,705,000
------------------------------------------------------------------------

    Question 26. Please describe the status of implementation of the 
EPACT provision requiring BLM to address the issue of abandoned, 
orphaned and idled oil and gas wells on lands administered by BLM? How 
many of each category of well (abandoned, orphaned, or idled) is 
located on BLM administered lands? Please provide the information by 
state.
    Answer. The BLM and the Forest Service (FS) have been working on a 
means of ranking orphaned, abandoned, and idled wells as required by 
the Energy Policy Act. The BLM and FS, together with the Department of 
Energy, met at the end of February and finalized a priority ranking 
system for each of these three well categories. These ranking systems 
will be tested by select BLM and FS offices to determine their 
usefulness in the very near future. In addition, as also required by 
the Energy Policy Act, a preliminary meeting was held with the 
Interstate Oil and Gas Compact Commission in mid-March to discuss this 
program.

                                 IDLE, ABANDONED AND ORPHANED OIL AND GAS WELLS
----------------------------------------------------------------------------------------------------------------
                                                                         Temporarily
                           State                              Shut-in     abandoned      Abandoned     Orphaned
                                                               wells        wells          wells         wells
----------------------------------------------------------------------------------------------------------------
Alaska.....................................................       79            6            31             0
California.................................................    1,075          769         1,069             1
Colorado...................................................      445           99           559             0
Eastern States.............................................      188           38            39             0
Montana....................................................      223          195           538             0
Nevada.....................................................       11           18           170             0
New Mexico.................................................    1,521        1,009         4,224            14
Utah.......................................................      357          277           428            18
Wyoming....................................................    2,289        1,059         3,685             0
Nationwide.................................................    6,188        3,470        10,743            33
----------------------------------------------------------------------------------------------------------------

    Question 27. Section 1811 of the Energy Policy Act of 2005 requires 
the Department to enter into an arrangement with the National Academy 
of Sciences to undertake a report relating to water and coalbed methane 
production. Because water resources are so important in the West, I am 
interested in seeing that the Department carry out this directive. The 
NAS report is due back to the Secretary and the Administrator of EPA 
within 12 months after the date of enactment of EPACT, and the 
Secretary and the Administrator are to report to Congress within six 
months after receipt of the NAS report. However, I understand that 
there are issues regarding resources for this study.
    Can you provide me a time-line for carrying out this provision of 
the law?
    Answer. As you know, the Energy Policy Act of 2005 (Act) contains a 
number of Congressional mandates, many of which have specific deadlines 
for completion or implementation. In fact, the Act directs the 
completion of more than 80 tasks by the Department over a period that 
spans from 45 days to 10 years. Additionally, the Department acts as a 
cooperating agency on approximately 19 tasks for which other Federal 
agencies have lead responsibility. The Energy Coordination Council, 
which was established by the Secretary shortly after the Act's 
enactment, is responsible for coordinating and tracking the various 
tasks assigned to the Department under the Act in order to ensure their 
timely completion. Regarding Sec. 1811, it is my understanding that the 
Bureau of Land Management has contacted the National Academy of 
Sciences (NAS) to discuss the report required under Section 1811 of the 
Act and provided copies of previous studies and reports that have been 
completed on coal-bed methane. We will continue our discussions with 
NAS. Those discussions are focused on developing appropriate parameters 
for a report and determining the extent to which available data may be 
used in developing the report. While I cannot provide you with a time 
line for entering into agreement with the NAS for completion of a 
report, I will make certain that we continue to inform you of our 
progress in fulfilling this and other requirements under the Act.

                               GEOTHERMAL

    Question 28. The DOI budget shows income of $2.6 million in FY06 
from the geothermal funds created for BLM under the Energy Policy Act 
(Subtitle B, Section 234) Deposit and use of geothermal lease revenues 
for 5 fiscal years). The law specifies that these funds are to be used 
``to implement the Geothermal Steam Act of 1970 and this Act.'' 
However, your budget shows no specific expenditures in its budget for 
the geothermal program of BLM or other efforts related to the 
Geothermal Steam Act.
    Can you provide an accounting of how these funds will be used by 
the Department?
    Answer. In 2006, BLM plans to spend the $2.6 million writing 
geothermal leasing regulations to implement the Energy Policy Act, and 
processing backlogged applications in Nevada, California and Oregon. In 
the FY 2007 budget request, these geothermal revenues would be returned 
to the Treasury if Congress enacts the administration's legislative 
proposal.
    Question 29. The Office of Management and Budget proposes to repeal 
provisions of the law that created this fund. But, the fund was created 
to address the substantial resource problems facing DOI in relation to 
geothermal energy. The Bureau of Land Management has lease applications 
that have been pending for over 30 years. BLM also needs resources to 
administer the new law, write regulations, handle and process permits 
and environmental reviews that are already backing up, and the USGS 
needs secure funds to complete the three-year national geothermal 
resource assessment mandated by the law the first resource assessment 
in over 30 years.
    BLM itself has developed a Strategic Plan for the Geothermal 
Program, but we understand it lacks the funds to achieve its goals. 
Without secure funding through the Section 234, how does DOI intend to 
address these problems? What resource will be included in the budget 
this year, in FY07 and over the next five years and how will the 
program achieve excepted results?
    Answer. BLM will use its annual appropriation of approximately $1.2 
million in base funding within its Oil and Gas Management program to 
continue managing active leases and perform inspections. BLM expects 
that continued progress in the development of new geothermal energy 
operations will require that proponents fund a larger share of needed 
NEPA documentation and other requirements to issue leases and permits.
    Question 30. EPAct also dedicated 25% of federal geothermal 
royalties to the county in which they are generated. While expanding 
geothermal production serves national needs, it also has local costs 
that this royalty share sought to address. Counties need these 
resources to address the impact of and infrastructure needs posed by 
development and to help mitigate local impacts.
    Could you provide the Committee with a review of the different 
revenue sharing provisions in federal law, particularly those regarding 
federal lands and minerals but not just those under the mineral leasing 
act, and specify the percentages of revenues that are shared and with 
what parties?
    Answer. The chart attached as Exhibit A provides the various 
revenue sharing provisions under Federal law.

                         U.S. Geological Survey

    Question 31. The administration has placed a strong emphasis on the 
use of sound science at the Department of the Interior. However, the 
USGS budget request reflects an overall net decrease from 2006 enacted 
levels. Please provide a listing of these funding reductions.

------------------------------------------------------------------------
                                                All dollar amounts in
                                                      thousands
                                           -----------------------------
           Activity/subactivity                                  Change
                                              2006      2007      from
                                             enacted   request    2006
                                                                 enacted
------------------------------------------------------------------------
Geologic Resource Assessments.............    76,534    56,916   -19,618
Hydrologic Monitoring, Assess, & Rsch.....   142,527   141,876      -651
Cooperative Water Program.................    62,833    62,171      -662
Water Resources Research Act Program......     6,404         0    -6,404
Biological Research/Monitoring............   140,086   135,692    -4,394
Biological Info Mgmt/Delivery.............    23,794    21,967    -1,827
Enterprise Information Resources..........    16,900    16,636      -264
Science Support...........................    69,302    67,382    -1,920
------------------------------------------------------------------------

    Question 32. I am pleased to see that the Budget includes funding 
for an initiative to support the activities of the NatureServe system.
    How does the Department make use of information from the 
NatureServe system and the network of State natural heritage programs? 
Does the Department support further partnership efforts with these 
programs? How does this State-based network help ensure a strong 
scientific foundation for natural resource decisions and help avoid 
conflicts over resource use?
    Answer. Funding is provided for NatureServe as part of a broader 
strategy to improve delivery and access of information needed to 
support Department of the Interior bureaus in the fulfillment of their 
missions. The funding will support maintenance of the Natural Heritage 
database, an available database of nationally consistent species and 
ecosystem information needed for many forms of decision making. The 
network maintains a continually updated computerized database of 
information on rare and threatened species and natural communities, 
tracking the locations of these species and communities. The network 
databases identify species, natural communities, and ecosystems in need 
of protection at the local, regional, national, and global levels. For 
species, the network tracks the scientific name, distribution and 
population trends, habitat requirements, and ecological relationships. 
For natural communities, databases contain information on vegetation 
structure and composition, succession patterns, natural disturbances, 
and the distribution and rarity of specific community types throughout 
their geographic range. In addition, the network tracks the quality and 
condition of each occurrence of a community.
    More broadly, program components of the Biological Resources 
discipline within the U.S. Geological Survey (such as the National 
Biological Information Infrastructure (NBII), Gap Analysis (GAP), and 
Status and Trends) will work with NatureServe and other partners to 
make information on the distribution of rare and endangered species and 
threatened ecosystems accessible by all Department of the Interior 
employees in versions that allow field offices to input their own data 
points and to analyze scenarios on the impacts of alternative 
management plans. This includes supporting analyses that can be applied 
to research and monitoring as well as natural resource management needs 
so that they can incorporate information from a variety of sources to 
understand the linkages between rare and endangered species and 
threatened ecosystems and the impacts and (or) effects of invasive 
species, diseases, climate change and natural hazards.
    The Heritage Programs work with the Department of the Interior, 
including the U.S. Fish and Wildlife Service, the U.S. Geological 
Survey, the National Park Service, and the Bureau of Land Management, 
conducting biological inventories and mapping species found on 
federally owned lands. For example, The National Park Service 
established a Yellowstone Conservation Data Center, merging data from 
the Wyoming, Idaho, and Montana state Heritage Programs to form a 
complete inventory of the rare species found in the Greater Yellowstone 
Ecosystem. The ecosystem comprises Yellowstone National Park, Grand 
Teton National Park, and seven adjacent national forests.
    Question 33. The budget proposes a significant decrease of $22.9 
million for the Mineral Resources program.
    Please describe in detail the activities that are proposed to be 
cut and the justification for these cuts.
    Answer. The Mineral Resources Program conducts basic research in 
ore deposits, geochemistry, and geophysics and applied research in 
national and international mineral assessments that benefit States, 
local governments, industry, and academia, in addition to many Federal 
programs. Within the current budget priorities, the administration is 
focusing its efforts in mineral resource assessments and research to 
those efforts that support the needs of Federal land management 
programs and expects that universities or other entities will undertake 
assessments and research that support non-Federal needs. This funding 
level will keep the core Federal program intact, providing the 
information and analyses that address the Department's strategic plan 
goals concerning Resource Use.
    Under the proposed budget, MRP will conduct three site-specific 
mineral resource projects and mineral resource assessments for Federal 
land management agencies in the lower 48 States, provide regional-scale 
geologic data and mineral resource assessments in three areas of 
Alaska, complete collection of national-scale data characterizing earth 
materials, collect data on domestic production and utilization of 100 
mineral commodities, and manage four national-scale long term 
databases.
    The proposed reductions will be addressed with the following 
specific actions:

  <bullet> Termination of an international collaboration to provide a 
        global assessment of potential for undiscovered mineral 
        resources.
  <bullet> Discontinuation of research on improving methods of mineral 
        resource assessment and on enhancing applications of GIS to 
        mineral resource assessments.
  <bullet> Discontinuation of most research and data collection 
        projects, including:

    <bullet> Research in the lower 48 States and Alaska on processes 
            that form ore deposits,
    <bullet> Geo-environmental research aimed at understanding 
            processes through which metals are dispersed through the 
            environment (the basis for partnerships in watersheds 
            challenged with abandoned mine sites),
    <bullet> Industrial minerals research,
    <bullet> Application of remotely sensed data to meet the needs of 
            Interior bureaus, including remote characterization of 
            mineral products released at abandoned mine sites and 
            prioritization of specific remediation targets,
    <bullet> Research on the human health consequences of mineral 
            materials, including dusts and toxins such as mercury and 
            arsenic, and
    <bullet> A comprehensive soil geochemical survey of the United 
            States,

  <bullet> Elimination of support for at least 8 USGS geochemical and 
        geophysical labs.
  <bullet> Elimination of the collection of data on international 
        production and utilization of 100 mineral commodities.
  <bullet> Termination of research and analysis of minerals and 
        materials life cycles, materials flows, and future uses of 
        minerals and materials.
  <bullet> Elimination of the Mineral Resources External Research 
        Program (MRERP), which makes grants to non-Federal entities to 
        conduct research addressing goals of the Mineral Resources 
        Program.

    Question 34. The budget includes an increase of $1 million for the 
preservation of geologic and geophysical data. Section 351 of the 
Energy Policy Act of 2005 requires the Department to implement a data 
archive system and a national catalog for this data.
    Can you please describe the status of your implementation efforts 
and a time line for implementation?
    Answer. Section 351 of the Energy Policy Act requires in subsection 
(c) that the Secretary submit to Congress by August 8, 2006, a plan for 
the implementation of the National Geological and Geophysical Data 
Preservation Program. We have created a National Cooperative Geologic 
Mapping Program FACA ad hoc subcommittee of data preservation experts 
that will convene shortly to prepare that report. We already have 
posted on the Worldwide Web a questionnaire asking Interior bureaus and 
State surveys what their data needs are so that we can craft a program 
responsive to their need. The time line for implementation of section 
351 will be included in the plan submitted to the Congress.
    Question 35. The Energy Policy Act of 2005 requires the U.S. 
Geological Survey to undertake a national assessment of oil shale 
resources.
    Please describe the work plan and time-line for this assessment.
    Answer. The FY 2007 budget proposal requests $500,000 for FY 2007 
to begin the assessment required by the Energy Policy Act of 2005. If 
that money is appropriated, we expect to begin a two-year effort to 
assess oil shale resources in the Greater Green River Formation, as 
required by the Act.
    Question 36. Section 348 of the Energy Policy Act of 2005 contains 
new provisions relating to the North Slope Science Initiative. That 
provision requires the Secretary to appoint a science technical 
advisory panel consisting of ``a representative group of not more than 
15 scientists and technical experts from diverse professions and 
interests, including the oil and gas industry, subsistence users, 
Native Alaskan entities, conservation organizations, wildlife 
management organizations, and academia, as determined by the 
Secretary.''
    Please provide a list of all members of this technical panel, 
stating their organization, area of expertise and identifying what 
organization or individual nominated them. Are conservation 
organizations and wildlife management organizations represented on the 
panel as required by the law? Does the composition of the panel comport 
with the requirements of the Federal Advisory Committee Act?
    Answer. Only 2 of the 66 nominees we received were for people who 
work for conservation organizations. None of the appointees work for a 
conservation organization, but two who were appointed were recommended 
by conservation organizations. There were no nominees from any wildlife 
management organizations, nor were there any letters of recommendation 
from any.
    Section 248 of the Energy Policy Act states that the panel ``shall 
consist of a representative group of not more than 15 scientists and 
technical experts from diverse professions and interests, including the 
oil and gas industry, subsistence users, Native Alaskan entities, 
conservation organizations, wildlife management organizations, and 
academia, as determined by the Secretary'' (emphasis added). We do not 
read this provision as requiring that each of these interests be 
represented on the panel, particularly since the section allows the 
Secretary to make the determination of what the representative group 
should look like. We believe this is a fairly balanced panel. It 
includes individuals representing a balance of points of view and 
functions to be performed. The panel is as follows:

----------------------------------------------------------------------------------------------------------------
             Name                 Expertise       Affiliation             Nominated by                 Term
----------------------------------------------------------------------------------------------------------------
Arnold Brower, Sr............  Traditional....  Retired; North   Mayor George N. Ahmaogak Sr.,   3 years
                               Ecological.....   Slope Borough    North Slope Borough.
                               Knowledge......   resident.
Dirk Derksen.................  Ornithology....  U.S. Geological  Dr. Tony DeGange, Chief,        3 years
                               Terrestrial....   Survey.          Biology and Geography, U.S.
                               Ecology........                    Geological Survey, Anchorage.
Douglas Kane.................  Civil            University of    Dr. Larry D. Hinzman,           3 years
                                Engineering.     Alaska           Institute of Northern
                               Hydrology......   Fairbanks.       Engineering, UAF, Fairbanks,
                               Climatology....                    AK.
Robert Shuchman..............  Remote Sensing/  Altarum          Dr. Kenneth R. Baker,           3 years
                                GIS.             Institute.       President and COE, Altarum,
                                                                  Ann Arbor Michigan.
Matthew Sturm................  Landscape......  U.S. Army Cold   James L. Wuebben, PE, Acting    3 years
                               Ecology........   Regions          Director, Dept. of the Army,
                               Hydrology......   Research and     CRREL, Hanover, NH.
                               Climatology....   Engineering
                                                 Laboratory.
Gary Kofinas.................  Socio-cultural   Institute of     Dr. Brian M.Barnes, Director,   2 years
                                Anthropology.    Arctic           Institute of Arctic Biology,
                               Adaptive          Biology,         UAF, Fairbanks, AK.
                                Management.      University of
                                                 Alaska
                                                 Fairbanks.
Sue Moore....................  Marine Ecology.  National Marine  Dr. Douglas DeMaster, Science   2 years
                               Oceanography...   Fisheries        & Research Director, Alaska
                                                 Service.         Region, NMFS.
Alvin Ott....................  Habitat Biology  Alaska           Dr. Erich Follmann, Institute   2 years
                               Fisheries         Department of    of Arctic Biology, UAF.
                                Biology.         Natural         Mr. Ken Donajakowski, V.P.
                                                 Resources.       Health, Safety and
                                                                  Environment, ConocoPhillips
                                                                  Alaska, Inc.
                                                                 Dr. Craig George, Dept.
                                                                  Wildlife Mgmt. North Slope
                                                                  Borough.
                                                                 Commissioner McKie Campbell,
                                                                  Alaska Department of Fish &
                                                                  Game.
Robert Suydam................  Wildlife         North Slope      Mayor George N. Ahmaogak Sr.,   2 years
                                Biology.         Borough.         North Slope Borough.
                               Ornithology....
                               Marine Ecology.
Kimberly Titus...............  Wildlife         Alaska           Commissioner McKie Campbell,    2 years
                                Biology.         Department of    Alaska Department of Fish &
                               Ornithology....   Fish and Game.   Game.
Alison Cooke.................  Petroleum        British          Mr. Steve Marshall, President,  1 year
                                Engineering.     Petroleum        BP Exploration (Alaska) Inc..
                               Geology........   Alaska.         Ms. Barb McAllister, Former
                                                                  Director of Air Quality, U.S.
                                                                  Environmental Protection
                                                                  Agency, Seattle WA.
                                                                 Mr. Tom Chapple, Director,
                                                                  Div. Air Quality, Alaska
                                                                  Dept. Environmental
                                                                  Conservation.
                                                                 Ms. Marilyn Crockett, Deputy
                                                                  Director, Alaska Oil and Gas
                                                                  Association.
John Kelley..................  Oceanography...  Institute of     Mayor George N. Ahmaogak Sr.,   1 year
                               Environmental     Marine           North Slope Borough.
                                Monitoring.      Science,        Dr. Michael Castellini, School
                               Science Policy.   University of    of Fisheries and Ocean
                                                 Alaska           Sciences, UAF, Fairbanks, AK.
                                                 Fairbanks.      Dr.Craig Dorman, VP Academic
                                                                  Affairs and Research,
                                                                  University of Alaska
                                                                  Statewide.
                                                                 Dr. Glenn W. Sheehan,
                                                                  Executive Director, Barrow
                                                                  Arctic Science Consortium.
Caryn Rea....................  Wildlife         ConocoPhillips   Mr. Ken Donajakowski, V.P.      1 year
                                Biology.         Alaska, Inc..    Health, Safety and
                               Habitat Biology                    Environment, ConocoPhillips
                                                                  Alaska, Inc.
                                                                 Ms. Marilyn Crockett, Deputy
                                                                  Director, Alaska Oil and Gas
                                                                  Association.
Dan Reed.....................  Biometrics.....  General Public.  Dr. Lane G. Adams, U.S.         1 year
                                                                  Geological Survey, Anchorage.
                                                                 Dr. Alvin G. Ott, Office of
                                                                  Habitat Management and
                                                                  Permiting, Alaska Dept.
                                                                  Natural Resources.
                                                                 Dr. John W. Schoen, Senior
                                                                  Scientist, Audubon, Alaska.
Bill Streever................  Restoration      British          Dr. John J. Kelley, School of   1 year
                                Ecology.         Petroleum        Fisheries and Ocean Sciences,
                                                 Alaska.          UAF, Fairbanks.
                                                                 Dr. Harry R. Bader, Iraq
                                                                  Mesoptamian Wetland
                                                                  Restoration Program, Baghdad/
                                                                  New York.
                                                                 Dr. John W. Day, Dept. of
                                                                  Oceanography and Coastal
                                                                  Sciences, Lousiana State
                                                                  University.
                                                                 Mr. David Banks, State
                                                                  Director, The Nature
                                                                  Conservancy, Alaska.
                                                                 Ms. Gail Bingham, President,
                                                                  Resolve, Portland, OR.
                                                                 Mr. Steve Marshall, President,
                                                                  BP Exploration (Alaska)inc..
                                                                 Ms. Marilyn Crockett, Deputy
                                                                  Director, Alaska Oil and Gas
                                                                  Association.
----------------------------------------------------------------------------------------------------------------

                           MIDDLE RIO GRANDE

    Question 37a. The NRCS (Natural Resource Conservation Service) 
February report notes that snowpack in the entire Rio Grande basin is 
34% of average. The Rio Grande streamflow at Otowi gage is projected at 
28% of avg. Three years ago, New Mexico cut a deal with Texas so that 
it could use Rio Grande Compact credits to provide water to meet the 
flow requirements of the 2003 biological opinion which governs water 
operations in the Middle Rio Grande. Because of the drought conditions, 
that credit water will likely all be gone by the end of 2006. This 
means we are headed for a possible train wreck in 2007, if not sooner, 
because there will be no reserve supply of water to help satisfy the 
ESA.
    Last year I asked DOI to put together an initiative similar to the 
high-level attention given to the Klamath basin in Oregon. As trumpeted 
in the 2005 budget, the President called for a $105 million investment 
in the Klamath basin to ensure ``an unprecedented level of habitat 
restoration and water quality and quantity improvements.'' After 
receiving assurances from the Deputy Secretary that the Department 
would present a cross-cut budget almost a year ago, I was disappointed 
to receive the Department's budget showing an overall 17% cut for the 
Rio Grande budgets of Reclamation, Fish & Wildlife, USGS, and the BIA.
    I'm concerned that we've been living on borrowed time in the Middle 
Rio Grande but, quite frankly, don't sense a similar urgency on 
Interior's behalf. The Programmatic EIS that is supposed to be done on 
the long-term plan & overall recovery program is nowhere near complete 
despite the fact that it was first announced in June 2003 with 
projected completion by February 2004.
    Why is the Department not working aggressively with others to put 
together detailed elements of a short and long-term plan to address the 
ESA issues in the Middle Rio Grande?
    Answer. The Department is working aggressively. Since 2000, the 
Middle Rio Grande Endangered Species Collaborative Program has been 
successful, bringing together various stakeholders including Federal 
and State agencies, cities, Pueblos, environmental groups, farmers and 
business interests in an effort to protect endangered ecosystems while 
meeting the needs of those who are dependent on the waters of the Rio 
Grande.
    Question 37b. Do you believe there is a big potential problem 
regarding compliance with the ESA in 2007? If so, isn't the situation 
worthy of high-level attention at the Department? What will you do to 
ensure that the Department is doing all it can to address this issue 
before the train wreck occurs?
    Answer. The Department is giving this project high-level attention. 
Funding for FY 2007 will enable Reclamation to meet the water 
requirements of the BiOp, including acquisition and management of 
supplemental water and low flow conveyance channel pumping, as well as 
to support the transfer of administrative functions to the Corps, to 
continue administration of more than 90 contracts, grants, cooperative 
and interagency agreements, including Indian Self Determination Act 
contracts, and to continue to participate on the Executive Committee, 
Steering Committee, Program Implementation Team, and various technical 
work groups. Moreover, Jennifer Gimbel has been appointed the 
Secretary's representative on Middle Rio Grande issues, and she will 
ensure that these issues receive the Department's full attention.

                         CENTRAL VALLEY PROJECT

    Question 38. What is the status of the new contracts being 
negotiated with water user entities associated with the Central Valley 
Project? Have negotiations been completed? Have the contracts been 
signed by all parties? Is there any environmental compliance activity 
being undertaken? Please identify each specific contract that is 
currently being negotiated, or each contract for which a negotiation 
has recently been completed.
    Answer. The following table contains a summary of the contract 
renewal status:

------------------------------------------------------------------------
    Central Valley project renewal
              contracts                 Number   Expected execution date
------------------------------------------------------------------------
Total water service contracts........    109
  Executed...........................     83
  Remaining:.........................     26
    Awaiting contractor's signature..      3    (imminent)
      Negotiated; awaiting completion
       of environmental documentation
       and Contractor's signature
        San Luis Unit................      7
        Cross Valley.................      8    July 2006
        American River: Sac. Co. WA..      1    September 2006 \1\
        DMC Contract Assignments to        3    July 2006
         Westlands.
    Negotiation in progress:               4    August 2006
     Sacramento Municipal Utility
     District, City of Tracy, San
     Benito WCD, Santa Clara VWD.
Total Sacramento River Settlement        141
 Contracts.
  Executed...........................    126
  Remaining (All environmental            15
   documentation received):.
    Problem with contractors               1    March 2006
     signature authority.
    No response from contractor after      2
     mailing contract.
    Contractor in arrears on payments  .......  March 2006
     under current contract.
    Contractor deceased; contract          1    March 2006
     being divided.
    Contractor not renewing..........    10
------------------------------------------------------------------------
\1\ Execution date is dependent upon completon of negotiations of
  conveyance contract between California Department of Water Resources
  and contractors.

    Question 39. How do the terms for the new contracts differ from the 
terms of the contracts that are expiring with respect to (1) the 
quantity of water to be provided under the contract; (2) its term; (3) 
compliance with environmental laws; (4) the federal government's 
liability for non-delivery of project water; (5) acreage to be served; 
and (6) the ability to sub-contract the right to receive project water?
    Answer. (1) There has been no change between the expiring contracts 
and the new contracts in the quantity of water to be provided under the 
CVP water service contracts. However, the contract quantity was reduced 
in two of the renewed Sacramento River Settlement contracts the 
Anderson-Cottonwood Irrigation District contract was reduced from 
165,000 acre feet of base supply and 10,000 acre feet of Project water 
(175,000 acre feet total) to 121,000 acre feet of base supply and 7,000 
acre feet of Project water (128,000 acre feet total) in the renewal 
contract, and the Sutter Mutual Water Company contract was reduced from 
172,900 acre feet of base supply and 95,000 acre feet of Project water 
(267,900 acre feet total) to 169,500 of base supply and 56,500 of 
Project water (226,000 acre feet total) in the renewal contract.
    (2) Although the expiring water service contracts had varying 
terms, most were for terms of 40 years. The term of the renewal water 
service contracts are as follows:

  <bullet> Irrigation only and mixed irrigation/M&I contracts are 25 
        years with the right to renew for successive terms upon the 
        satisfaction of certain conditions;
  <bullet> M&I-only contracts were renewed for a term of 40 years with 
        successive 40 year renewals. The term of both the old and 
        renewal Sacramento River Settlement Contracts is 40 years.

    (3) Many of the original contracts were negotiated and executed 
before the passage of the National Environmental Policy Act (NEPA) and 
the Endangered Species Act (ESA). Those expiring contracts which were 
negotiated and signed after passage of NEPA and ESA were subject to 
those acts. NEPA and ESA have been/will be fully complied with for all 
of the renewal water service and Sacramento River Settlement contracts.
    (4) The expiring water service contracts contained a variety of 
water shortage liability provisions depending upon when the contract 
was negotiated and signed. The liability provision of the renewal water 
service contracts is uniform throughout the new and proposed contracts 
and is as follows:

          ``If there is a Condition of Shortage because of errors in 
        physical operations of the Project, drought, other physical 
        causes beyond the control of the Contracting Officer or actions 
        taken by the Contracting Officer to meet legal obligations 
        then, except as provided in subdivision (a) of Article 18 
        [arbitrary and capricious actions]of this Contract, no 
        liability shall accrue against the United States or any of its 
        officers, agents, or employees for any damage, direct or 
        indirect, arising therefrom.''

    The liability provision in the renewal Sacrament River Settlement 
Contract differs from that in the original contracts in that subarticle 
3(h)(4)(i) has been added to the language that was used in the expiring 
contracts:

          ``3. (h)The United States assumes no responsibility for and 
        neither it nor its officers, agents, or employees shall have 
        any liability for or on account of:
                  (1) The quality of water to be diverted by the 
                Contractor;
                  (2) The control, carriage, handling, use, disposal, 
                or distribution of water diverted by the Contractor 
                outside the facilities constructed and then being 
                operated and maintained by or on behalf of the United 
                States;
                  (3) Claims of damage of any nature whatsoever, 
                including but not limited to, property loss or damage, 
                personal injury, or death arising out of or connected 
                with the control, carriage, handling, use, disposal, or 
                distribution of said water outside of the hereinabove 
                referred to facilities; and
                  (4) Any damage whether direct or indirect arising out 
                of or in any manner caused by a shortage of water 
                whether such shortage be on account of errors in 
                operation, drought, or unavoidable causes.
                          (i) In addition to the provisions of 
                        subdivision (h) of Article 3 of this Contract, 
                        if there is a shortage of Project Water because 
                        of actions taken by the Contracting Officer to 
                        meet legal obligations then, except as provided 
                        in subdivision (a) of Article 30 of this 
                        Contract, no liability shall accrue against the 
                        United States or any of its officers, agents, 
                        or employees for any damage, direct or 
                        indirect, arising therefrom.''
                  (5) There is almost no variation in the total 
                irrigable acreage of the Central Valley Project between 
                the expiring contracts and the renewal contracts. On 
                average approximately 3 million acres are irrigated 
                with CVP water. The precise figure will vary depending 
                upon inclusions and exclusions from districts.
                  (6) Base water supplied under the Sacramento River 
                Settlement Contracts is appurtenant to the land and may 
                therefore not be subcontracted. Project water included 
                under the Sacramento River Settlement Contracts and the 
                renewed water service contracts may be sold or 
                transferred to or exchanged with others for reasonable 
                and beneficial use within the State of California if 
                consistent with applicable State or Federal law and 
                with the prior written approval of the Contracting 
                Officer. Generally, sub-contracts are not specifically 
                authorized or prohibited by the general contract 
                language. Article 39 of the County of Colusa contract 
                specifically allows the County to enter into 
                subcontracts.

    Question 40. What are the terms related to a project contractor's 
right to resell project water in the new contracts? Is the right to 
receive water pursuant to the contracts conditioned on the ability of a 
district to beneficially use such water? Has the Bureau of Reclamation 
performed an analysis of each district's ability to beneficially use 
the water identified for delivery under the contracts?
    Answer. As discussed in the answer to the previous question, the 
terms related to a project contractor's right to resell water varies 
but generally subcontracts are not specifically authorized or 
prohibited under general contract language. An exception to this is 
that base water supplied under the Sacramento River Settlement 
Contracts is appurtenant to the land and cannot be subcontracted. 
Beneficial use is included as a condition of the contracts: Article 
3(d) of the water service contracts provides that the Contractor shall 
make reasonable and beneficial use of all water furnished pursuant to 
the contract. A water needs assessment was performed for each 
contractor prior to negotiation of the renewal contract.

             WATER PROGRAM FUNDING--OVERALL & DOI-SPECIFIC

    Question 41. I'm surprised at how the President's budget treats 
water resource programs across the board. It proposes a 13% cut to 
EPA's Clean & Safe Water Programs; an 11% cut to the Army Corps of 
Engineers water resource budget and a 21% cut in USDA's water and waste 
disposal grant program. Relative to the other programs, Interior did 
not do as bad as the other agencies. Reclamation is proposed for a 5% 
cut in FY 2007, the same as USGS's water research program.
    I put water in the same category as energy a resource that is 
absolutely essential to the economic stability of our communities. The 
trend for water-related funding in the 2007 budget paints a very 
troubling picture.
    Does the administration view the importance of water differently 
than I do? Is there an overriding philosophical view that water is a 
state and local problem and therefore the federal government should 
reduce its involvement in helping them to solve their water resource 
issues?
    Answer. Water is one of the scarcest resources in some of the 
fastest growing areas of the Nation. It is the lifeblood and foundation 
of the American West. The Bureau of Reclamation's core mission 
continues to be to deliver water to its customers, but the 
administration recognizes that as water supply-demand challenges 
increase in the West, opportunities for crises and conflict are rife. 
The prevention of crises and conflicts over water supplies is important 
to ensure the continued economic vitality and social cohesiveness of 
the nation. While the best solutions will be driven by local needs and 
developed by State and local stakeholders who know the on-the-ground 
situations, the Federal government can and should provide incentives 
for cooperation and efficient management of water resources wherever 
possible. Water 2025 affirms the importance of this Federal role by 
focusing resources on increasing certainty and flexibility in water 
supplies, diversifying water supplies, and preventing crises through 
added environmental benefits in many watersheds, rivers and streams. 
However, Federal resources are scarce, which is why the Water 2025 
program focuses those resources identified as Hot Spot' areas. Although 
other programs may not utilize the specific criteria that the Water 
2025 program uses, we must target Federal resources on water 
development where it can make the most impact.
    Question 42. With respect to Interior's budget, I'm very concerned 
about the some of the specific cuts to water programs. I mentioned that 
Reclamation and USGS were proposed for 5% cuts. Unfortunately, some of 
the accounts to assist Indian tribes with water resource issues were 
cut substantially more. BIA's two primary accounts for water planning 
and water rights negotiation are proposed for a 25% cut, and 
Reclamation's Native American program is proposed for a 25% cut.
    Why are Native American water programs singled out for 
substantially higher cuts than other programs? Is the administration 
trying to avoid having an active water rights negotiation program so 
that it can avoid expensive Indian water rights settlements? Won't the 
result of these cuts be to force more litigation and less cooperation 
in resolving contentious water rights claims?
    Answer. Native American water programs are not being singled out 
for substantially higher cuts than other programs. The 2007 budget 
provides $13.5 million for these programs. This funding will adequately 
support litigation by the United States to determine title to Indian 
water, which is the core trust responsibility and highest priority 
among water related needs. The funding will also support tribal 
consultation, tribal participation in litigation and negotiation, and 
high priority tribal water resource management functions.
    The administration is not trying to avoid having an active water 
rights negotiation program nor are we interested in more litigation and 
less cooperation in resolving contentious water rights claims. This 
does not mean however that we will agree to an unacceptable level of 
Federal financial contribution just to settle a case.
    Additionally, the BIA has established a new system for ranking 
water rights/resource funds. The new system ensures objective 
application of criteria under which the highest priority for funding 
goes to activities necessary to protect trust resources.
    Question 43. I've been working closely with the New Mexico 
Interstate Stream Commission and local entities on two major water 
supply projects the Navajo-Gallup Pipeline Project and the Eastern New 
Mexico Rural Water System. These projects are very critical to the 
future of New Mexico, as demonstrated by the millions of dollars of 
state funding provided by the State over the last 3 years. The staff at 
the Department of the Interior have raised several issues concerning 
each project and have indicated that they need to be involved in 
planning and evaluating these projects if Reclamation is to support 
project authorizations. Yet, the President's budget requests no funding 
for either project.
    With not even a minimal amount of funding to support the Bureau of 
Reclamation's staff involvement, how do you expect to be an equal 
partner with the State and local communities in resolving the issues 
raised by Reclamation with regard to these projects? Are there carry-
over funds available to continue Reclamation's involvement? If so, how 
much for each project?
    With respect to the Navajo-Gallup pipeline project, it is my 
understanding that Reclamation is supposed to complete an EIS and 
Record of Decision. Has that been done? If not, how will Reclamation 
complete that work with no funding?
    Answer. With respect to the Eastern New Mexico pipeline, 
Reclamation is preparing a review of the proposed pipeline's 
engineering design to be completed by mid-April. However, this design 
and the associated cost estimates submitted by the Eastern New Mexico 
Rural Water Authority's consultant are viewed as preliminary. 
Additional appropriations will not be required to review the 
preliminary design, but additional work would be needed to develop a 
complete feasibility analysis and report.
    With respect to the Navajo-Gallup pipeline, a draft EIS is close to 
completion and we are nearing the public comment period. Some carryover 
funds are anticipated to be available after the comment period to 
continue the required environmental analyses.

                             COLORADO RIVER

    Question 44. What environmental compliance activities is 
Reclamation currently undertaking related to proposed actions affecting 
the water supply available from the Colorado River? For each of these 
environmental compliance activities, please describe the purpose and 
details related to the contemplated action, and the time frames 
scheduled for completing the environmental review.
    Answer. Aside from the EIS on Colorado River management mentioned 
previously, Reclamation is pursuing two activities (Laguna Dam 
Restoration and construction of the Drop 2 Storage Reservoir along the 
All-American Canal) that would allow Colorado River water that would 
have otherwise been released to Mexico in excess of treaty requirements 
to be captured and used within the United States. Completion of design 
and compliance activities for both projects is targeted for the fall of 
2006.
    Implementation of the Lower Colorado River Multi-Species Program 
(MSCP) began in April 2005 with the signing of a Record of Decision by 
the Secretary of the Interior. The MSCP is a coordinated, 
comprehensive, long-term multi-agency effort to conserve and work 
towards the recovery of endangered species, and protect and maintain 
wildlife habitat on the lower Colorado River. It provides coverage 
under the Endangered Species Act for operations along the River. 
Implementation activities are based on adaptive management principles, 
which allow program conservation measures to be adjusted over time 
based on monitoring and research.
    Question 45. The 7 states in the Colorado River Basin recently sent 
you a letter providing recommendations for the Department's proposed 
EIS on Colorado River Reservoir Operations. In that letter they 
identified a package of actions that they would move forward in 
implementing in 2006 (e.g. a demonstration program for extraordinary 
conservation in 2006, system efficiency projects, preparation of an 
action plan for system augmentation through weather modification, etc. 
. . .).
    Will Reclamation be providing financial or technical assistance to 
the States to help them implement their proposed set of actions?
    Answer. Reclamation will continue to provide technical assistance 
to the States to help evaluate and implement their proposed short-term 
actions. To date, the States have not requested any financial 
assistance. In late February, the Metropolitan Water District of 
Southern California requested that Reclamation commence a demonstration 
program in 2006 and 2007 for the creation of ``Intentionally Created 
Surplus'' through extraordinary conservation measures. (The pilot 
program was outlined in the letter from the Basin States). Reclamation 
is currently working on appropriate consultation requirements and 
compliance activities to start the demonstration program in 2006.
    Additionally, the Southern Nevada Water Authority has put out a 
request for proposal (RFP) for a consultant to assist the Basin States 
in searching out ideas for solving water supply issues within the 
Basin.
    Question 46. What actions has the Department taken to implement the 
Arizona Water Settlements Act? Please identify what resources in the 
2007 budget the Department has proposed for implementation activity.
    Answer. The Department has been devoting significant resources to 
the tasks required for implementing the Arizona Water Settlements Act 
(Act). Implementation teams have been established for each of the three 
major titles in the Act. The teams have identified remaining 
implementation tasks and the timeframes within which these tasks must 
be accomplished to meet the Act's enforceability deadline of December 
31, 2007. One of the biggest steps toward full implementation of the 
Act occurred on December 21, 2005, when Secretary Norton executed the 
Gila River Indian Community Water Rights Settlement Agreement and the 
New Mexico Consumptive Use and Forbearance Agreement. Prior to 
execution, the Department's implementation team worked closely with the 
parties to these two agreements to assure that they conformed to, and 
did not conflict with, the Act. This process required repeated review 
and refinement of more than 1,800 pages of agreements, attachments, 
exhibits, stipulations and other documents. The Department recently has 
completed its review of the Tohono O'odham Settlement Agreement and 
expects that it will be executed within a matter of weeks.
    Implementation activities will be carried out in 2007 by BIA, 
Reclamation, the Solicitor's Office and the Secretary's Indian Water 
Rights Office utilizing the basic operational funds for each of these 
entities.

                          RECLAMATION--GENERAL

    Question 47. In the recent National Research Council Report on the 
Bureau of Reclamation's role in the 21st Century, there is much 
discussion of sustaining Reclamation's water and power infrastructure 
assets.
    Has Reclamation performed a west-wide survey and inspection of its 
infrastructure and developed a comprehensive O&M plan, particularly 
with respect to major repair and modernization needs?
    Answer. Reclamation law generally provides that project 
beneficiaries are responsible for their allocated share of O&M costs on 
the projects serving them. Reclamation is responsible for the share of 
O&M costs that is allocated to public purposes, such as fish and 
wildlife benefits and flood control. As part of our Managing for 
Excellence Action Plan, Reclamation is in the process of creating a 
database that will give us an understanding of the business status of 
the facilities it owns. Needed information includes the construction 
investment in the facility, the cost allocation, the repayment status, 
the O&M allocation, the annual commitment of Reclamation funding to 
O&M, the design life, the facility condition, and any known or planned 
significant future investments for Safety of Dams work or major 
rehabilitation needs. This Bureau-wide, project-by-project information 
will be invaluable for future decision making regarding what actions 
relating to those facilities make sense, and who should carry them out. 
Furthermore, in line with the findings of the administration's PART 
evaluation of Reclamation's Water Management-Operations and Maintenance 
program, the administration is developing a comprehensive strategy for 
proactively addressing the long-term challenges posed by aging 
infrastructure.
    Question 48. Reclamation's Managing for Excellence action plan 
indicates that it will take approximately $10 million to carry-out the 
tasks contemplated in the plan, and that the resources will be made 
available by reprioritizing existing activities.
    How will this impact ongoing operation, maintenance, or 
environmental compliance activities associated with Reclamation 
projects?
    Answer. The Action Plan provides for full implementation of all 
action items by December of 2007. Reclamation's reprioritization of 
funds will be carried out consistent with an absolute commitment to 
ensure that all activities vital to Reclamation's core mission, 
including ongoing operation, maintenance, and environmental compliance 
responsibilities, are unaffected. We anticipate that implementation of 
the action items will result in significant improvements in the 
efficiency of Reclamation's management. This would ultimately translate 
into improved capacity to carry out all aspects of Reclamation's 
mission, including operation, maintenance, and environmental 
compliance.

                             INDIAN ENERGY

    Question 49. Please outline all the activities being undertaken by 
the Department of the Interior to implement Title V of the Energy 
Policy Act of 2005. Please be specific as to time frames and the 
resources being expended (or proposed for expenditure) to increase 
federal support for Indian energy development and the electrification 
of tribal lands pursuant to Sections 503/2602-2604.
    Answer. The FY 2006 appropriations bill was signed prior to the 
enactment of the Energy Policy Act of 2005. However, for FY 2006 the 
Department has provided $350,000 from other sources to promulgate 
Tribal Energy Resource Agreement (TERA) regulations. With these funds, 
the Department was able to conduct 10 consultation meetings throughout 
Indian Country and, based on those meetings, is currently developing 
draft regulations. We anticipate having the draft regulations out for 
public review within the next few months. Additional consultation 
meetings will follow. The President's FY 2007 budget request includes 
$2 million to implement the TERA regulations and provide technical 
assistance grants to Tribes wanting to develop their energy resources.

                         U.S. Geological Survey

    Question 50. It is my understanding that USGS is participating in 
the U.S. Climate Change Science Program. Could you please detail what 
activities USGS is conducting under this program and how much was 
expended for this effort in 2005; planned for 2006; and budgeted for 
2007? What accounts is being used to fund these activities?
    Answer. USGS Contributions to the Climate Change Science Program

                              CARBON CYCLE

    USGS research is conducted in cooperation and partnership with 
other agencies and academic collaborators in direct support of the 
Carbon Cycle Science Program. USGS carbon cycle research includes the 
following activities:

  <bullet> Carbon sequestration in sediments--Redeposition of eroded 
        soils and sediments and their associated organic carbon is 
        sequestering large quantities of carbon, buried at the base of 
        slopes and in wetlands, riparian areas, reservoirs, etc.
  <bullet> Landscape dynamics and vegetation change--Research examines 
        the long-term dynamics of vegetation change and the impact of 
        climate. A detailed history of vegetation change in the Western 
        U.S. is being constructed based on the paleobotanical record of 
        pollen and plant tissues preserved in packrat middens and 
        buried in sediments.
  <bullet> Fate of Carbon in Alaskan Landscapes--Cold region forests 
        (boreal ecosystems) contain large carbon reserves that are 
        highly susceptible to changes in climate. Changes in fire and 
        seasonal temperatures may cause changes in ecosystem structure, 
        permafrost recovery, nutrient cycling, and carbon exchange. 
        Central to the fate of these C reserves is the interaction 
        between fire occurrence and permafrost changes in the surface 
        layers. Process studies and modeling are being expanded to 
        better understand the historic and modern interactions among 
        climate, surface temperature and moisture, fire, and 
        terrestrial carbon sequestration.
  <bullet> Exchanges of Greenhouse Gases, Water Vapor, and Heat at the 
        Earth's Surface--Atmospheric turbulence transports greenhouse 
        gases (notably: CO<INF>2</INF>, methane, and nitrous oxide), 
        water vapor, and heat between Earth's land and water surfaces 
        and the overlying atmosphere. These exchanges influence 
        climate, viability of ecosystems, distribution of biomes, and 
        the quantity of both surface- and ground-water.

  IMPACTS ON TERRESTRIAL AND COASTAL ECOSYSTEMS, WETLANDS, FISH, AND 
                                WILDLIFE

    Biology and ecosystem-focused global-change related research in the 
USGS encompasses the themes of:

  <bullet> bird and habitat interactions;
  <bullet> potential changes in arid and semiarid ecosystems with 
        changes in climate, management of resources, and uses;
  <bullet> coastal and interior wetland ecosystems;
  <bullet> sensitive species and island ecosystems;
  <bullet> watershed biogeochemistry; and
  <bullet> regional ecosystem responses to climatic change in and among 
        mountain systems.

    USGS research focuses on multiple stresses to U.S. Department of 
the Interior (USDOI) lands including climate change, human population 
growth, land use change, air and water pollution, habitat 
fragmentation, and invasive species.
    Coastal wetlands are among the most productive ecosystems in the 
world and are vulnerable to the effects of sea level rise associated 
with global warming. Determining the potential for wetland submergence 
is a critical first step for managing these valuable coastal habitats 
into the next century. Research conducted by USGS has improved our 
understanding of the natural processes controlling wetland elevation 
and the potential for submergence of our coastal wetland habitats.
    Wildland fire is a serious and growing hazard over much of the 
United States, posing a great threat to life and property. The USGS 
conducts fire related research to meet the varied needs of the fire 
management community and to understand the role of fire in the 
landscape; this research includes fire management support, studies of 
post-fire effects, and a wide range of studies on fire history and 
ecology.

                            HYDROCLIMATOLOGY

    The Global Change Hydrology Program was begun in 1990 to develop 
data, understanding, and predictive capabilities related to water and 
associated aspects of carbon and greenhouse gases as they interact with 
global systems. Global Change Hydrology has two broad components: 1) 
investigations of hydroclimatic variability, and 2) studies of the 
biogeochemistry of greenhouse gases. This includes identification of 
seasonal variations in regional streamflow in relation to atmospheric 
circulation (for regional streamflow prediction and flood/drought 
hazard assessment); the linkage between atmospheric circulation and 
snowpack accumulation (for forecasting spring and summer water supply 
in the western United States and for flood forecasting) as well as 
glacier mass balance; and the physical and chemical variability in 
riverine and estuarine environments in relation to large-scale 
atmospheric and oceanic conditions (to discriminate natural from human-
induced effects on such systems). It also includes documenting the 
long-term behavior of hydrologic systems in response to past climatic 
variations and changes (from decades to hundreds of thousands of years) 
as well as more recent (decadal) hydrologic trends.
    The U.S. Geological Survey initiated the Water, Energy, and 
Biogeochemical Budgets (WEBB) program in 1991 to understand the 
processes controlling water, energy, and biogeochemical fluxes over a 
range of temporal and spatial scales and to understand the interactions 
of these processes, including the effects of atmospheric and climatic 
variables. WEBB research watersheds form a geographically and 
ecologically diverse set of environments for investigating the 
interactive effects of changes in CO<INF>2</INF>, climate, and 
biogeochemistry on the terrestrial carbon cycle; how global change will 
affect biogeochemical interactions with the hydrologic cycle and 
surface energy balance; and how global change will affect 
biogeochemical controls over the transport of water, nutrients, and 
materials from land to freshwater ecosystems.

                       CLIMATE HISTORY IN ALASKA

    Sampling of deposits (bogs, lakes, and natural exposures) that 
contain fossil pollen, plant macrofossils, and sometimes ostracodes and 
diatoms allows reconstruction of the late Pleistocene and Holocene 
history of environmental change in southern Alaska, focusing upon the 
past 50,000 years. High-latitude ecosystems are highly sensitive to 
climatic change, and therefore understanding their history of 
environmental responses to past climate changes provides not only 
information about those past responses but also provides a basis for 
predicting future responses to a variety of possible climatic 
scenarios. So far the project has focused upon the late Quaternary 
history of Tongass National Forest in southeastern Alaska, Chugach 
National Forest, and adjacent areas of south-central Alaska, and 
Western Alaska.

                            GLACIER STUDIES

    Glaciers are particularly sensitive to changes in regional and 
global climate. Seasonal changes in sea ice and snow cover and decadal 
changes in glacier area can be monitored regionally and globally with 
image data from Earth-orbiting satellites. The U.S. Geological Survey 
has played a leading national and international role in using satellite 
image data to provide baseline data and other information about 
glaciers from a global perspective. NASA and USGS scientists are also 
carrying out experimental geodetic airborne, satellite laser altimetry, 
radar interferometric, and other remote-sensing surveys of glaciers. 
The 11-volume Satellite Image Atlas of the World (USGS Professional 
Paper 1386 A-K) is being compiled by more than 80 scientists 
representing 45 institutions and 25 nations, and includes a compilation 
of accurate maps (in both printed and digital formats) which show 
coastal changes in floating (ice fronts) and grounded (ice walls) 
glacier ice during the past 30 years.
    The world's glaciers react to and interact with changes in global 
and regional climates. Most mountain glaciers have been retreating 
since the latter part of the 19th century.
    Grinnell Glacier in Glacier National Park, Montana; photograph by 
Carl H. Key, USGS, in 1981. The glacier has been retreating rapidly 
since the early 1900's. The arrows point to the former extent of the 
glacier in 1850, 1937, and 1968. Mountain glaciers are excellent 
monitors of climate change; the worldwide shrinkage of mountain 
glaciers is thought to be caused by a combination of a temperature 
increase from the Little Ice Age, which ended in the latter half of the 
19th century, and increased greenhouse-gas emissions.
    USGS scientists are closely monitoring glaciers in Alaska to 
document if climate change is impacting Alaska's temperate glaciers. 
The USGS assessment shows that throughout the state, more than 98% of 
valley glaciers that terminate at an elevation below 1,000 m are 
retreating, thinning, or stagnating. Since 1986, Hubbard Glacier, one 
of the few advancing glaciers, has twice temporarily blocked the 
entrance to Russell Fiord. Glaciers and ice sheets are sensitive 
indicators of changing climate. On a global basis, the USGS is 
combining field observations with satellite- and aerial-remote-sensing 
to compile a baseline inventory of the health of Earth's glaciers 
during the first decade of Landsat, 1972-1981. This compilation serves 
as a benchmark for documenting cryosphere change on a global scale. 
Additionally, the USGS has produced the longest glacier mass balance 
record in North America. This forty-year-long record has provided a 
unique record of glacier response to climate variations in the latter 
half of the 20th century. The South Cascade Glacier in Washington, one 
of the USGS monitoring sites, has dramatically retreated, losing 20 m 
of water equivalent averaged over the entire surface of the glacier 
since the mid 1970's.

                      CLIMATE-VEGETATION MODELING

    Vegetation changes caused by climatic variations and/or land use 
may have large impacts on forests, agriculture, rangelands, natural 
ecosystems, and endangered species. Climate modeling studies indicate 
that vegetation cover, in turn, has a strong influence on regional 
climates, and this must be better understood before models can estimate 
future environmental conditions. To address these issues, the USGS is 
investigating vegetational response to climatic change, and vegetation-
land surface impacts on climate change. The project involves 
calibration of the modern relations between the range limits of plant 
species and climatic variables that are then used to:

  <bullet> estimate past climatic fluctuations from paleobotanical data 
        for a number of time periods within the late Quaternary;
  <bullet> `validate' climate model simulations of past climates;
  <bullet> explore the potential influences of land cover changes on 
        climate change; and
  <bullet> estimate the potential future ranges of plant species under 
        a number of future climate scenarios.

                     IMPACTS OF VOLCANIC EMISSIONS

    Gases from volcanoes give rise to numerous impacts on climate, the 
environment, and people. U.S. Geological Survey scientists are 
inventorying gas emissions at many of the almost 70 active volcanoes in 
the United States. This effort helps build a better understanding of 
the dynamic processes at work on the Earth's surface and is 
contributing important new information on how volcanic emissions affect 
global change. A significant component of volcanic gas research 
involves measuring the quantities of gas that volcanoes release into 
the atmosphere. Huge amounts of volcanic gas, aerosol droplets, and ash 
are injected into the stratosphere during major explosive eruptions. 
Some gases, such as carbon dioxide, are greenhouse gases that promote 
global warming, while others, like sulfur dioxide, can cause global 
cooling, ozone destruction, and polluted air known as volcanic smog or 
``vog''. Studies of volcanic emissions allow scientists to compare 
volcanic gas output to emissions from man-made sources and to assess 
the effects of both past and future eruptions on the Earth's climate.

                    EOLIAN HISTORY OF NORTH AMERICA

    Eolian (wind-blown) deposits are both a blessing and a curse: they 
contain a valuable record of past climate changes but are deposits that 
could be reactivated in the future, with serious consequences for the 
natural resources, food supply, infrastructure, and wildlife of the 
country. This project researches the records of climate change in 
eolian deposits of the U.S. and assesses the potential for renewed 
activity of wind-blown sediments.
    The objectives of this study are:

          1. to test hypotheses about the role of dust in climate 
        change;
          2. to investigate records of natural climate variability in 
        loess (dust) deposits;
          3. to understand the processes responsible for sand dune 
        activity in the U.S.; and
          4. to assess the potential for reactivation of stabilized 
        sand dunes in the U.S. under changing conditions of climate and 
        land use.

    The approach used in this study of windblown sediments is to 
examine stratigraphic sections where detailed records of past climate 
change can be found. Sediments are analyzed for their age, composition 
and source materials. In assessing the potential for future 
reactivation of eolian sediments, study is made of (1) modern eolian 
sands that are active now and the environmental factors that favor such 
activation, and (2) study of past geologic periods when eolian sands 
were active.
    The areas of study for the project include the Central Lowlands 
(Midwest), the Great Plains, the western United States, and Alaska. 
Some cooperative work has also been done with the Geological Survey of 
Canada in the Prairie Provinces of Canada.
    Sand dunes and eolian sheet sands are widely distributed over the 
southwestern United States, particularly in the southern Great Plains 
and the southwestern deserts and high plateaus. In the driest parts of 
the southwest, there are areas of active sand dunes, but most parts 
have dunes that are stabilized by vegetation and the sand is not moving 
at present.
    The biggest impacts of active sand dunes in the Colorado Plateau 
region would be on the Navajo and Hopi people, whose reservation land 
is either on, or downwind of, the largest areas of sand dunes. Many 
Navajo and Hopi homes are on or near sand dunes; reactivation of dunes 
would obviously have a negative effect on living conditions. Sheep and 
cattle are important to the economy of the Navajo and Hopi, and much of 
the vegetation required for grazing is dune vegetation. In addition, 
dry farming is practiced in much of the area, some of it on sand dunes. 
Thus, reactivation of sand dunes in the area would have serious impacts 
on living conditions, grazing, and farming.

                         PERMAFROST MONITORING

    The Department of the Interior's permafrost network in Alaska is 
part of a global network of permafrost monitoring stations (GTN-P) 
designed to monitor for changes in the solid-earth component of the 
earth's cryosphere. Changes in permafrost temperature and active-layer 
thickness reflect changes in surface climate over time, and therefore 
serve as useful indicators of climate change. GTN-P is one of several 
global networks designed to monitor for changes in the terrestrial 
component of the earth's climate system. The GTN-P network is able to 
monitor the active layer (the surface layer that freezes and thaws 
annually) and the thermal state of the underlying permafrost. Active 
layer measurements are made using automated semi-permanent surface 
instrument stations, whereas the deeper permafrost is monitored through 
periodic downhole temperature measurements in boreholes. DOI's 
contribution to GTN-P results from collaboration among USGS, U.S. 
Bureau of Land Management, and U.S. Fish and Wildlife Service.

INTERACTIONS OF CLIMATE WITH PHYSICAL, BIOGEOCHEMICAL, HYDROLOGIC, AND 
                    HUMAN SYSTEMS, SOUTHWESTERN U.S.

    USGS and collaborating scientists are seeking to understand how 
climate and land use have influenced surficial geologic processes that 
modify landscapes and ecosystems. Combined with monitoring of current 
conditions, such understanding is then used to model the landscape's 
response to future changes in climate and land use over time-scales of 
seasons, years, and decades. The information and interpretations can be 
used by federal, state, and local agencies, as well as by Native 
American governments, for land-use planning, management of resources, 
and remediation of human-health hazards. Project scientists work with 
other geologists, biologists, hydrologists, geographers, cartographers, 
educators, and archeologists to address questions about:

          1. The interaction of physical and biologic processes 
        critical for ecosystem functions.
          2. The role of eolian dust for soil fertility, invasion of 
        exotic species, hydrology, and surface stability in deserts.
          3. The causes and timing of changes in alluvial environments 
        (rivers, streams, hillslopes), such as flooding, the cutting 
        and filling of arroyos, and sediment discharge.
          4. The interrelations among climate, vegetation, and eolian 
        (wind-related) processes.
          5. Landscape stability of the Navajo and Hopi Nations in 
        relation to climatic variability as well as historic and pre-
        historic land use; here, we also assess causes of high levels 
        of arsenic and uranium in groundwater and springs, and we help 
        develop a culturally-based K-12 earth-science curriculum.
          6. The soil-ecologic habitats of the fungal spore pathogen 
        that causes Valley Fever through airborne transmission; 
        potential hazards to human health related to land use, climate, 
        and dust generation.
          7. How future climatic variations will affect the 
        Southwestern land surface (in terms of flooding, landslides, 
        erosion, sand-dune activity, dust-storm frequency).
          8. How prehistoric cultures adjusted to past climatic changes 
        and environments.

    Automated Remote Digital Imaging System (ARDIS) is a means of 
automatically acquiring color digital images of dust storms. The images 
are used to determine the directions from which dust particles become 
airborne, the intensity and duration of the dust event, and the 
meterological conditions at the time, in conjunction with nearby CLIM-
MET stations. The system is placed on top of a mountain to provide 
views of dust events from 9-20 km away.
    CLIM-MET stations are meterological/geological stations that are 
designed to function in remote areas for long periods of time without 
human intervention. These stations monitor weather variables including 
temperature, wind, and precipitation; site variables including soil 
moisture and temperature, and eolian particle movement; and collect 
samples of dust for mineralogical and geochemical analyses. Data are 
automatically recorded at regular intervals.

                            SEA-LEVEL CHANGE

    Global sea level and the Earth's climate are closely linked. As the 
climate has warmed following the ``Little Ice Age'' in the 19th 
century, sea level has been rising about 1 to 2 millimeters per year 
due to the reduction in volume of ice caps, ice fields, and mountain 
glaciers in addition to the thermal expansion of ocean water. If 
present trends continue, including an increase in global temperatures 
caused by increased greenhouse-gas emissions, many of the world's 
mountain glaciers, will disappear. For example, at the current rate of 
melting, all glaciers will be gone from Glacier National Park, Montana, 
by the middle of the 21st century. During cold-climate intervals, sea 
level falls because of a shift in the global hydrologic cycle: water is 
evaporated from the oceans and stored on the continents as large ice 
sheets and expanded ice caps, ice fields, and mountain glaciers. Global 
sea level was about 125 meters below today's sea level at the last 
glacial maximum about 20,000 years ago. Sea levels during several 
previous interglacials were about 3 to as much as 20 meters higher than 
current sea level. The evidence comes from two different but 
complementary types of studies. One line of evidence is provided by old 
shoreline features. Wave-cut terraces and beach deposits from regions 
as distinct as the Caribbean and the North Slope of Alaska suggest 
higher sea levels during past interglacial times. A second line of 
evidence comes from sediments cored from below the existing Greenland 
and West Antarctic ice sheets. The fossils and chemical signals in the 
sediment cores indicate that both major ice sheets were greatly reduced 
from their current size or even completely melted one or more times in 
the recent geologic past. The USGS role in sea-level research is 
national in scope and ranges from remote sensing and geologic mapping 
of wetlands to studies of coastal erosion and evidence of older 
shorelines in the geologic record.
    Question 51. I am very disappointed to see the proposal to cut $2 
million from USGS's cooperative water program, which I view as very 
important in helping states and local communities manage water 
resources and plan for times of shortage. The USGS recently entered 
into a Joint Funding Agreement with the New Mexico Interstate Stream 
Commission to perform a hydrologic study of the Salt Basin aquifer. I 
believe the State is prepared to invest more money into this agreement.
    Will additional matching federal funds be available for this effort 
in 2006? If implemented, will the $2.0 million proposed cut to the 
program affect the Salt Basin study?
    Answer. The USGS has signed a joint funding agreement with the New 
Mexico Interstate Stream Commission for FY 2006, for $25,000 in USGS 
funding and $25,000 in funding from the Commission. In FY 2006, the 
USGS is writing a study plan, and there is a possibility that work 
would be expanded in July-August-September 2006, based on whatever 
additional matching funds the Commission is able to obtain for the 
State's next fiscal year (which begins in July). If the Commission is 
able to obtain the matching funds, the USGS may dedicate an additional 
$15,000-25,000 (on top of the current agreement) for further work in 
the last quarter of FY 2006.
    Work is planned to continue in FY 2007, ramping up to a level of 
about $200,000. However, some of the resources to ramp up the study in 
FY 2007 would come from projects that are ending in FY 2006. Since the 
FY 2007 proposed reduction for the Cooperative Water Program is 
targeted at studies that are ending, the USGS may have to reduce the 
scope of work planned in FY 2007 for the Salt Basin aquifer. But it is 
likely that the study will continue in FY 2007 at some funding level, 
because the USGS considers this to be a high-priority area.

                        Bureau of Indian Affairs

    Question 52. I understand that all road construction projects on 
the Navajo Nation have stopped because of a long-standing disagreement 
between the BIA's Navajo Regional Office (NRO) and the Navajo Nation 
Archeology Department. As I understand it, at issue is the 
administrative fee allowed under the 638 contract with NRO for cultural 
resource studies associated with road construction projects.
    In light of the continuing impact on all of Navajo's road projects, 
what specific actions is your office or the BIA taking to help resolve 
this issue in a timely fashion.
    Answer. Although a disagreement with the Public Law 93-638 
contractor, the Navajo Nation Historical Preservation Department, 
exists, the Bureau of Indian Affairs' (BIA) Navajo Regional Office 
reports that road construction projects on the Navajo Nation have not 
stopped. On March 10, 2006, the Navajo Nation representatives and the 
BIA met to further discuss and resolve the Navajo Nation Archeology 
Department fee issue. The meeting has led to an accord for a procedure 
to reach a final settlement.
    Question 53. Once again, the Department's budget seeks to limit 
funding for the Navajo Indian Irrigation Project (NIIP) ($12.6 million 
for construction). In response to questions about the 2006 budget, the 
Department indicated that the BIA was negotiating an MOU with the 
Navajo Nation to ``turnover'' NIIP facilities, and that this MOU was a 
prerequisite to the construction of additional facilities authorized 
for NIIP.
    What is the status of the negotiations on the MOU. Is the 
Department pursuing these discussions in good-faith basis with the 
Navajo Nation? What will happen if an MOU is not completed in the near 
future?
    Answer. The BIA was negotiating with the Navajo Nation to establish 
a memorandum of understanding (MOU) identifying activities and 
addressing responsibilities to initiate the turnover of completed 
Blocks to the Navajo Nation. These negotiations are on hold pending the 
review of the turnover language listed in the Act (P.L. 87-483, as 
amended). We are in the process of collecting all relevant Navajo 
Indian Irrigation Project (NIIP) documents, including legislative and 
appropriations history and Department, Bureau of Reclamation, Indian 
Affairs, Navajo Nation, and State of New Mexico memos, letters, and 
directives. Construction of additional facilities is being deferred 
until the MOU is finalized and signed.

     Responses of the Department of the Interior to Questions From 
                             Senator Akaka

                      LAND WATER CONSERVATION FUND

    Question 1. According to the Department of the Interior's budget 
briefing, the 2007 budget proposes to terminate the funding for Land 
and Water Conservation Fund State Grants. I believe that State agencies 
need these funds. Without them, our states and counties will have to 
cut back on programs and services for critically endangered species, 
hunters, and park management.
    What is your justification for eliminating such an important 
program?
    Answer. The FY 2007 budget request does not include funding for 
Land and Water Conservation Fund State grants. As the administration 
strives to trim the Federal deficit, focusing on core Federal agency 
responsibilities is imperative.
    Nearly $3.9 billion has been appropriated through 2006 for the Land 
and Water Conservation State Grant program, including $312 million in 
the last four years. Many of these grants support State and local parks 
that have alternative sources of funding through State revenues or 
bonds. In addition, a 2003 PART review found the current program could 
not adequately measure performance or demonstrate results.

                        INVASIVE SPECIES FUNDING

    Question 2. This year's total funding for invasive species 
represents an approximately 5 percent decrease from the amount funded 
in Fiscal Year 2006. Combined with a 15.9 percent cut in the Forest 
Service invasive species program, this represents a significant decline 
in government wide funds allocated to protecting our natural resources 
from invasive species.
    In what ways will this reduction of funding affect the Department 
of the Interior's efforts to combat the introduction and spreading of 
invasive species?
    Answer. By focusing on priorities, the Department's efforts to 
combat the introduction and spread of invasive species should be 
strengthened. The FY 2007 budget request includes $60 million for 
invasive species work, and continues the government-wide, performance-
based cross cut budget effort that began in 2004. The budget provides 
an increase of $994,000 for work in three priority geo-regional areas: 
South Florida, the Northern Great Plains, and the Rio Grande River 
Basin. The 2007 program will focus on invasive species that present 
significant threats to ecosystem health, including lygodium leafy 
spurge and tamarisk, in particular.

                  NATIONAL RECREATION AND PRESERVATION

    Question 3. Secretary Norton, the 2007 budget proposes to focus 
resources for historic preservation and heritage tourism programs 
within the Park Service. At the same time, the budget eliminates the 
funding for a number of preservation and heritage programs including 
the Native Hawaiian Culture and Arts Program which has been 
instrumental in preserving and sharing information about Native 
Hawaiian history and culture in my home State.
    Will existing programs like the Native Hawaiian Culture and Arts 
program be folded into the Preserve America grant program or will they 
need to compete for grant funds in order to continue their valuable 
efforts?
    Answer. The Preserve America program is a competitive grant program 
that helps States and communities preserve their historic resources by 
incorporating them into their local economies. The FY 2007 budget 
includes $10.0 million, an increase of $5.1 million above the 2006 
level, for grants to help communities develop resource management 
strategies and business practices for continued preservation of 
heritage assets. Such activities include planning and feasibility 
studies, heritage education materials, heritage tourism business cases, 
and feasibility initiatives.
    The FY 2007 budget includes $14.8 million for Save America's 
Treasures grants. These grants are available for preservation and 
conservation work on nationally significant intellectual and cultural 
artifacts and nationally significant historic structures and sites.
    The Native Hawaiian Culture and Arts program could potentially 
compete for either of these grant programs.

          INSULAR AREAS-REPUBLIC OF THE MARSHALL ISLANDS (RMI)

    Question 4. I want to thank you for your initiative following this 
Committee's hearing on the RMI's nuclear claims and for the meeting you 
organized to continue the process of addressing some of the issues that 
were raised. I understand that the RMI responded to your request for a 
definition of the issues for further discussion.
    Do you have a schedule for these follow-up meetings, and can you 
assure the Committee that the administration will meet on each of these 
issues to either come to a resolution or develop alternates that the 
Committee can consider? Will you provide us with a written update on 
each issue by May 15th?
    Answer. The Office of Insular Affairs has not received the Marshall 
Islands Government's response to the administration's request for a 
definition of the issues. Once the response is received, 
representatives of the Office of Insular Affairs will work 
cooperatively with other Administration departments, for example the 
Departments of Energy and State, to arrange the necessary meetings. The 
Committee will be kept informed of developments.

   INSULAR AREAS-COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS (CNMI)

    Question 5. Would you support government-to-government talks with 
the CNMI under section 902 of the Covenant with the objective of moving 
the CNMI toward an economic model that would place reasonable limits on 
the use of guest workers and provide opportunities for U.S. citizens?
    Answer. The Department of the Interior would support Covenant 
section 902 discussions on guest workers and employment opportunities 
for U.S. citizens in the CNMI, as long as the topic is proposed by the 
representatives of the Governor of the CNMI. We believe that the agenda 
for discussion of economic issues should be set by those closest to 
these economic issues, i.e., representatives from the Commonwealth 
Government, and not by officials in Washington, D.C.

  INSULAR AREAS-AMERICAN SAMOA, LOSS OF FEDERAL INVESTMENT INCENTIVES.

    Question 6. I understand that well over half of the government 
revenue of American Samoa is attributable to the Possessions Tax 
Credit, a federal tax credit designed to promote private investment in 
the territories. However, the credit has expired as of December 2005.
    What steps has the Department taken to either avoid or anticipate 
this loss of revenue? If an alternate investment incentive is not 
recommended by the administration and enacted by Congress this year, is 
the Department prepared to increase American Samoa's Operations subsidy 
to help offset the very substantial revenue loss? If not, what 
assistance is the Department prepared to offer American Samoa?
    Answer. IRC section 936 provided a Federal tax credit for private 
sector companies to locate operations in the territories. In 1995, the 
Congress repealed this provision, but allowed a ten-year phase-out for 
the canneries in American Samoa. The Congress did not provide an 
alternative incentive or replacement revenue.
    The Department of the Interior has worked intensively within the 
administration on this issue of over-riding importance to the economy 
of American Samoa and the fiscal well-being of its residents. The 
result was a series of four letters sent by the Secretary to the 
Chairmen and Ranking Minority Members of the House Committee on Ways 
and Means and the Senate Committee on Finance, urging a five-year 
extension of IRC section 939 for cannery eligibility in American Samoa.
    The administration has no plans to compensate for any loss of 
revenue by the American Samoa Government. Rather, we stand ready to 
work with the committees of jurisdiction in the Congress to develop an 
acceptable alternative incentives program.

                           COMPACT IMPACT AID

    Question 7. Since 1997, when Hawaii began reporting its impact 
costs, the state has identified more than $140 million in costs 
associated with FAS citizens. In 2002, the State of Hawaii expended 
more than $32 million in assistance to FAS citizens. In 2003 alone, the 
state spent approximately $9.77 million to provide Medicaid services 
without receiving any federal matching funds. This represents a 
dramatic increase from $6.75 million in the state FY 2002.
    P.L. 108-188, the Compact of Free Association Amendments Act of 
2003, provides $30 million in annual funding for Compact impact 
assistance to be shared between the State of Hawaii, Guam, the CNMI, 
and American Samoa. While this funding is a positive step forward, it 
does not begin to reimburse the affected jurisdictions for the costs 
associated with FAS citizens.
    How does the Department plan to move forward to reimburse affected 
jurisdictions, as FAS citizens continue to place a hardship on the 
social services in Hawaii, Guam, and the CNMI?
    Answer. Hawaii, Guam, and the Commonwealth of the Northern Mariana 
Islands (CNMI) all have substantial costs relating to the legal 
migration of citizens from the freely associated states (FAS).
    In Public Law 108-188, the Congress established a $30 million 
annual appropriation, to be divided (based on the proportion of 
migrants) among migration-affected United States jurisdictions. The 
payments of the $30 million are a contribution toward the migrant-
related costs borne by Hawaii, Guam and the CNMI. The Congress, in 
authorizing Public Law 108-188, expressed no intent for full 
reimbursement of FAS migration costs.

                           COMPACT IMPACT AID

    Question 8a. Since 2004, all federal agencies are required to 
report to the DOI regarding their services in the RMI and FSM in order 
to avoid the duplication of benefits.
    What consideration does the Department give to these reports in 
determining the division of Compact Impact aid, and, if the Department 
currently does not use the reports as a factor in its determination, 
would you consider developing a way to incorporate these reports into 
your calculation of the distributed funds?
    Answer. Public Law 108-188, establishes a program to pay $30 
million annually to the United States jurisdictions that bear costs 
associated with the legal migration of citizens from the FAS. The 
jurisdictions with the greatest concentration of such persons are in 
Hawaii, Guam, and the CNMI. The Congress, in Public Law 108-188, 
provided that the $30 million would be divided based on the proportion 
of FAS migrants in each of the U.S. jurisdictions. The Department of 
the Interior commissioned a census of such migrants in 2003 and plans 
to complete such a census every five years. The Congress did not 
express an intent that any other criterion, such as impact of the 
Compact reports, be used to modify the division of funds based on 
population.
    The 2003 Amendments contain several new measures that need to be 
implemented, and this task will fall largely to the OIA staff based in 
Hawaii that monitor grant assistance, trust funds, and administer 
``Compact Impact'' funds.
    Question 8b. How will the Department ensure accountability with 
respect to the implementation of provisions in the new Compact, 
particularly with regard to the administration of grants?
    Answer. Through its Hawaii-based staff, the Department ensures to 
(1) analyze compliance with the terms of current grants, (2) review 
annual sector grant proposals for the next fiscal year, and (3) 
recommend an allocation of funding for the next fiscal year that 
reflects changes in relative need and priorities. The joint economic 
committees, including both United States and Micronesian 
representatives, consider the above analyses and recommendations and 
set grant amounts.
    The Hawaii office provides on-site oversight of Compact programs, 
requires the timely submission and review of required financial and 
program reports, and works with the inspector general and GAO to 
identify and resolve problems.
    Public Law 108-188 provided that independent corporations be 
established in Washington, D.C. to house the respective trust funds for 
the Republic of the Marshall Islands and the Federated States of 
Micronesia. Membership on the respective governing trust fund 
committees includes representatives from both the United States 
Government and the two freely associated states. The Hawaii office has 
no duties with respect to the trust funds.
    The Hawaii office administers the Compact impact grant to the State 
of Hawaii. Impact grants to Guam and the CNMI are administered from 
Washington.

     Responses of the Department of the Interior to Questions From 
                            Senator Salazar

                                  PILT

    Question 1. With so much of Colorado's land owned by the Federal 
Government, the Payment in Lieu of Taxes (PILT) Program is important to 
our local communities. I am amazed that the administration is cutting 
these funds by 16% to $198 million when Congress has again and again 
demonstrated a strong bi-partisan support for this program.
    Why is this Administration intent on making the counties fight 
these poorly reasoned cuts every year?
    Answer. The 2007 budget proposes $198.0 million for the Payments in 
Lieu of Taxes program. The budget funds $197.6 million for PILT 
payments and $400,000 for program administration. Although this is 
$34.5 million below the 2006 record high level, it is well above 
historical funding levels. In FY 2000, PILT was funded at just under 
$134 million. Our proposed FY 2007 level represents about a 47% 
increase over that amount. As part of the President's effort to reduce 
the budget deficit by half over five years, the 2007 budget for the 
Department makes difficult choices, and this was one of them.

               BLM OIL & GAS INSPECTIONS AND ENFORCEMENT

    Question 2. Will you, in writing, provide for me the number of oil 
and gas inspectors you will have working in Colorado offices in 2007, 
the number of inspections they will be tasked with, the number of 
unannounced inspections that will occur, as well as the number of 
inspections prompted by local landowners?
    Answer. The BLM plans to have fifteen (15) oil and gas inspectors 
working in Colorado offices in 2007. The BLM Colorado has not yet 
prepared the Inspection and Enforcement Matrix and Strategy for FY 
2007, consequently a planned number of inspections has yet to be 
developed for FY 2007. The Inspection and Enforcement Matrix and 
Strategy for FY 2006 includes 1300 planned inspections. We would expect 
an increase in the number of inspections that will be planned for FY 
2007.
    The majority of inspections performed pertain to ongoing 
operations, and would be categorized as unannounced. Some inspections, 
such as those for monitoring conditions of approval on drilling and pad 
construction, require prior scheduling because the activities to be 
inspected take place at a date and time certain.
    The BLM's tracking systems do not contain a category for 
inspections prompted by local landowners. The BLM does not separately 
track the number of inspections likely to be prompted by local 
landowners, as these will vary based on conditions.

                             BLM LAND SALES

    Question 3. The President's budget establishes an aggressive 
schedule of needed revenues to the tune of $182 million over the first 
5 years and $351 over the ten year budget window.
    Do these figures amount to some type of quota our BLM state 
directors will be required to meet every fiscal year? Are we, in 
effect, turning our land managers into real estate brokers?
    Answer. I assume you are referring to the proposal to amend the 
Federal Land Transaction Facilitation Act of 2000 (FLTFA). The FLTFA 
proposal is a modest proposal that does not depart appreciably from 
current law, but has features that will help improve protection of 
valuable Federal resources. I can assure you that the schedule of 
revenues contemplated is not a quota. In fact, the FLTFA revenue 
estimates included in the FY 2007 budget are really quite modest. 
Moreover, the BLM does not have a list of lands to be sold or state-by-
state sales targets. Decisions on land to be sold will be made at the 
local level based on land use plans that have been developed through a 
public process, including compliance with the National Environmental 
Policy Act of 1969.

                LAND AND WATER CONSERVATION FUND (LWCF)

    Question 4. Last year, the administration proposed to eliminate the 
LWCF stateside grants program, arguing that the ``results are not 
demonstrated.'' In its own assessment of the program this year, 
however, the Park Service acknowledges that the stateside grants 
program indeed delivers excellent results. The National Park Service's 
2005 State Land and Water Conservation Fund Annual Report says: 
``nearly 55 million visits at 44 state parks represents only a small 
sampling of visitor use at the estimated 40,000 state and local park 
sites assisted by the program. Year in and year out, the Land and Water 
Conservation Fund works in partnership with states and communities to 
deliver and protect opportunities for outdoor recreation.''
    Given this ringing endorsement of the efficiency and effectiveness 
of the LWCF stateside grant program from the National Park Service, can 
you explain why it is being eliminated in this year's budget?
    Answer. The FY 2007 budget request does not include funding for 
Land and Water Conservation Fund State grants. As the administration 
strives to trim the Federal deficit, focusing on core Federal agency 
responsibilities is imperative. Many of these grants support State and 
local parks that have alternative sources of funding through State 
revenues or bonds. In addition, a 2003 PART review found the current 
program could not adequately measure performance or demonstrate 
results. While the report you referenced includes some worthwhile 
information as to how the grants were used, the administration remains 
committed to utilizing performance measures consistent with the 
Government Performance and Results Act.''

               NATIONAL PARK SERVICE MAINTENANCE BACKLOG

    Question 5. In 2000, the President promised to provide enough 
funding over five years to eliminate Park Service's maintenance 
backlog, which was estimated at the time to be $4.9 billion. It is now 
five years since that commitment and I am hearing estimates that place 
the NPS maintenance backlog somewhere between $4.5 billion to $9.69 
billion. That is to say that the maintenance backlog at the Parks seems 
to have increased over the past five years.
    Is that right?
    Answer. The estimated $4.9 billion maintenance backlog figure was 
identified in a 1998 General Accounting Office report (``Efforts to 
Identify and Manage the Maintenance Backlog'' GAO/RCED-98-143). That 
figure represented a compilation of desired projects in parks that had 
not been validated by systematic, comprehensive assessments of the true 
asset conditions or prioritized by NPS.
    We now know that the deferred maintenance backlog cannot be stated 
as a single, static dollar figure. What is important is the improved 
condition over time and knowing that the dollars spent made a 
difference in improving the condition of the asset. Our approach is to 
focus on what it will take to bring our assets to acceptable condition 
as measured by the facility condition index. For this reason, NPS is 
transforming the agency's approach to managing its facilities. Parks 
have completed, for the first time, a comprehensive inventory and 
prioritization of its asset base. NPS is also on track to complete 
comprehensive condition assessments on eight industry-standard assets 
(such as buildings, water systems, roads, and trails) by the end of 
2006. Once these condition assessments are completed, NPS will have a 
better understanding of its current deferred maintenance needs. Our 
goal is to bring the portfolio of assets up to acceptable condition, 
with performance measures used to prioritize investments.
    Question 6. What is the Department of the Interior's most recent 
estimate of the maintenance backlog at the Parks?
    Answer. Please see the answer to Question 5.
    Question 7. How will this year's budget for National Parks affect 
the total maintenance backlog, considering it will cut the construction 
and maintenance budget by $84.6 million, 27 percent?
    Answer. The administration remains committed to reducing the 
maintenance backlog within the National Park Service, and the NPS 
continues to make significant progress in completing the numerous 
projects necessary to improve the condition of park infrastructure. 
Since 2002, nearly 6,000 projects have been undertaken and 
approximately $4.7 billion have been invested using line-item 
construction, repair and rehabilitation, fee, and Federal Lands Highway 
dollars. The 2007 budget proposes to protect the administration's past 
investments by realigning funding within the NPS asset management 
program to focus on proactive measures that will preclude these 
resources from slipping to poor condition.
    The Cyclic Maintenance Program incorporates a number of regularly 
scheduled preventive maintenance procedures and preservation techniques 
into a comprehensive program that prolongs the life of a particular 
asset. The proposed increase in cyclic project funding would assist in 
preventing the continued deterioration of NPS assets. Increasing the 
project funding will afford parks the ability to maintain assets on a 
predictive cycle, rather than allowing them to fall into disrepair and 
ultimately adding to the backlog. Funds appropriated for the cyclic 
maintenance program would target those assets that are mission critical 
and still in maintainable condition, but could fall into poor condition 
without the proper application of life cycle maintenance. With the 
proposed increase of $10.0 million, the cyclic maintenance program now 
totals $71.5 million.
    The 2007 budget includes $86.2 million for the Repair and 
Rehabilitation program. Over the past five years, $345 million has been 
allocated for this program. In 2007, NPS will continue to prioritize 
projects that address critical health and safety, resource protection, 
compliance, deferred maintenance, and minor capital improvement issues. 
The budget request also includes a proposal to use additional 
recreation fee revenue for facility maintenance projects. For 2007, the 
Department estimates that $100 million in recreation fees will be used 
for deferred maintenance projects.
    Within the total proposed for construction, line-item construction 
projects are funded at $121.9 million. The budget request focuses on 
protecting and maintaining existing assets rather than funding new 
construction projects. Assuming the President's budget request is 
funded, NPS intends to sustain the progress made in the asset 
management program, as measured by the facility condition index.

              NATIONAL PARK SERVICE REVISIONS TO POLICIES

    Question 8. Secretary, I and many of my colleagues have repeatedly 
expressed our opposition to the proposed changes to the National Park 
Service's policies. We feel that they undermine the core mission of the 
Park Service and are, quite frankly, unnecessary.
    Visitor satisfaction at our parks is over 95%, and the public seems 
quite satisfied with the existing policies, which were updated just 
five years ago. So, with the strain that is already being placed on the 
NPS' budget, what is the cost (in staff time, resources, etc.) of this 
exercise?
    Answer. Periodic review and development of all types of management 
and policy documents are included within the duties of NPS employees 
and are not calculated separately.
    The NPS has a special web site programmed to efficiently process 
the large volume of comments it sometimes receives on documents that 
are released for public review. A contractor has been retained at a 
cost of approximately $39,000 to help sort and organize the Management 
Policies comments that have been submitted through this web site.
    Question 9. Considering that these policies were revised just five 
years ago, and given all the other needs in the Parks, is this really 
the best use of the Park Service's energy and resources at this time?
    Answer. We believe that revised and improved policies are needed 
because managers face continuing challenges in preserving park 
resources while striving to serve our visitors and partner with our 
local communities. Every day, without fail, we are tested when we make 
decisions on what to do or what not to do; what to build or what not to 
build; what to allow or what not to allow. From these challenges, we 
learn and improve our practices.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                Tennessee Valley Authority,
                                                    March 10, 2006.
Hon. Gale A. Norton,
Secretary, Department of the Interior, Washington, DC.
    Dear Secretary Norton: The Tennessee Valley Authority (TVA) is a 
cooperating agency in the preparation of the Environmental Impact 
Statement (EIS) on the North Snore Road Project in Swain County, North 
Carolina. In that capacity, we are currently reviewing the Draft EIS 
and anticipate submitting comments as a cooperating agency at a later 
date. TVA is also a party to the 1943 agreement under which 
construction of the North Shore Road is contemplated. I am writing you 
today to apprise you of TVA's position on this proposal.
    TVA agrees with the National Park Service's (NPS) determination 
that the alternative with the least environmental impact is the one 
that does not involve construction; namely, the Monetary Settlement 
Alternative. Accordingly, we concur in the identification of this 
alternative as the Environmentally Preferred Alternative for the 
purposes of National Environmental Policy Act review.
    The Draft EIS did not identify NPS's preferred alternative to allow 
consideration of public comments on the completed environmental 
analyses and revised cost estimates for the build alternatives. These 
public comments and environmental analyses will also help inform the 
decisions TVA may have to make about this. Based upon our preliminary 
review, TVA believes the range of identified alternatives is 
appropriate and that any of the action alternatives could potentially 
form the basis for an agreement discharging the Department of the 
Interior from any remaining obligations under the 1943 agreement.
    TVA has already fulfilled its obligations under the 1943 agreement 
by acquiring and transferring to the U.S. Department of the Interior 
approximately 44,000 acres of land on the north shore of Fontana 
Reservoir. Should the other parties to the 1943 agreement reach 
consensus on the North Shore Road issue and decide to enter into a new 
agreement, TVA would be pleased to review the proposal and determine if 
we should become a party to the new agreement.
            Sincerely,
                                               Bill Baxter,
                                                          Chairman.
                                 ______
                                 
                             The Secretary of the Interior,
                                    Washington, DC, March 14, 2006.
Hon. Lamar Alexander,
U.S. Senate, Washington, DC.
    Dear Senator Alexander: I wanted to follow up on our conversation 
that occurred during the recent March 2, hearing on the Department of 
the Interior 2007 budget and to assure you that our disagreement with 
regard to the draft 2005 Management Policies was more a question of 
semantics than substance.
    I believe that current and future enjoyment of the parks depends 
upon maintaining unimpaired park resources. That is our statutory 
obligation. At the hearing, I quoted to you the relevant portion of the 
1961 Organic Act that describes the mission of the NPS. That section 
states:

        ``[the] purpose is to conserve the scenery and the natural and 
        historic objects and the wildlife therein and to provide for 
        the enjoyment of the same in such manner and by such means as 
        will leave them unimpaired for the enjoyment of future 
        generations.''

    The quote you cited in the hearing was from the 2001 Management 
Policies, not the 1916 Organic Act. Management of parks presents 
complex challenges, since park managers have to address use and impacts 
consistent with the overarching mission of the parks, which is to 
protect park resources and values to ensure that these resources and 
values are maintained unimpaired. This statutory directive inherently 
required careful evaluation of uses, scientific study, monitoring, and 
other factors.
    Both Director Fran Mainella and Deputy Director Steve Martin, in 
public statements, including February 2006 testimony presented to the 
Congress, have stated, and I agree, that when there is a conflict 
between the protection of resources and use, conservation will be 
predominant. This recognizes that while we welcome public use and 
enjoyment in our parks, we will not allow uses that cause unacceptable 
impact, are inconsistent with park purposes or values, unreasonably 
interfere with park programs or activities, disrupt the operation of 
park concessions or contractors, create an unsafe or unhealthful 
environment for visitors or employees, result in significant conflict 
with other appropriate uses, or diminish opportunities for current or 
future generations to enjoy park resources and values. We recognize 
that the conservation of park natural, cultural, and historic resources 
provides the foundation for public enjoyment of our national parks.
    Parks serve a very important function in our society. They are not 
wilderness areas, unless specifically designated as such. If 
``conservation'' is viewed as a wilderness standard requiring that all 
resources remain in their pristine state, we would have no visitor 
centers, no ranger housing, no hotels, and no roads in parks. While a 
few of us would be able to enjoy these areas in their pristine state, 
the classic American family vacation of loading the kids in the care 
and driving through Yellowstone or the Great Smokies would not exist. 
Parks fulfill an important visitor service function. They provide 
education and enjoyment and an introduction to the great outdoors for 
many who would otherwise miss an inspiring experience.
    Over the years, since adoption of the Organic Act, our 
understanding of caring for parks has evolved. In the past, park 
managers erroneously allowed eradication of predators, feeding of wild 
animals, and building of visitor centers in sensitive area that damaged 
resources. All of these today would be considered inconsistent with the 
Organic Act and the conservation of the parks. To make proper decisions 
we need policies that stress sustainable cooperative conservation that 
works for managing the birthplace of Dr. Martin Luther King as well as 
managing the bison herd at Yellowstone, not a simple litmus test or 
bumper sticker phrase that lacks practical efficacy.
    The 2005 proposed Management Policies are in draft form. This is 
why we have put them out for public comment and are now evaluating 
those comments. I am confident that our policies, when completed by the 
Director and her career staff, will accomplish this difficult task.
    I believe both you and I have the same goals for our national 
parks. I want Americans to love our national parks, and that love 
arises when people are encouraged to visit. I want their experiences to 
be thoroughly enjoyable because they see spectacular scenery, encounter 
abundant wildlife, and use clean and comfortable facilities. I am 
confident that our park managers will be able to achieve this in a 
manner consistent with the Organic Act of 1916.
    Please don't hesitate to call me if you would like to talk further 
about this manner.
            Sincerely,
                                                    Gale A. Norton.

                                 <all>

</pre></body></html>
